<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

   Prepared Statement of the Board of Mississippi Levee Commissioners
    Mr. Chairman and Members of the Committee: This statement is 
prepared by Peter Nimrod, Chief Engineer for the Board of Mississippi 
Levee Commissioners, Greenville, Mississippi, and submitted on behalf 
of the Board and the citizens of the Mississippi Levee District. The 
Board of Mississippi Levee Commissioners is comprised of 7 elected 
commissioners representing the counties of Bolivar, Issaquena, Sharkey, 
Washington, and parts of Humphreys and Warren counties in the Lower 
Yazoo Basin in Mississippi. The Board of Mississippi Levee 
Commissioners is charged with the responsibility of providing 
protection to the Mississippi Delta from flooding of the Mississippi 
River and maintaining major drainage outlets for removing the flood 
waters from the area. These responsibilities are carried out by 
providing the local sponsor requirements for the Congressionally 
authorized projects in the Mississippi Levee District. The Mississippi 
Levee Board and the Mississippi Valley Flood Control Association 
support an appropriation of $500 Million for fiscal year 2014 for the 
Mississippi River & Tributaries Project. This is the minimum amount 
that we consider necessary to allow for an orderly completion of the 
remaining work in the Valley and to provide for the operation and 
maintenance, as required, to prevent further deterioration of the 
completed flood control and navigation work.
    It is apparent that the Administration loses sight of the fact that 
the Mississippi River & Tributaries Project provides protection to the 
Lower Mississippi Valley from waters generated across 41 percent of the 
Continental United States. These waters flow from 31 States and 2 
provinces of Canada and must pass through the Lower Mississippi Valley 
on its way to the Gulf of Mexico. We will remind you that the 
Mississippi River & Tributaries Project is one of, if not the most cost 
effective project ever undertaken by the United States Government. The 
foresight of the Congress in their authorization of the many features 
of this project is exemplary.
    The many projects that are part of the Mississippi River & 
Tributaries Project not only provide protection from flooding in the 
area, but the award of construction contracts throughout the Valley 
provides assistance to the overall economy of this area. The employment 
of the local workforce and purchases from local vendors by the 
contractors help stabilize the economy in one of the most impoverished 
areas of our country.
    In 2011 the MR&T Project successfully passed the greatest flood on 
the Mississippi River. Every feature of the MR&T Project including 
levees, floodways and reservoirs were utilized. Not one acre of land 
was flooded that was not designed to flood. Not one life was lost. The 
MR&T system prevented $234 Billion in damages in 2011 alone. All 
together since 1928, Congress has invested $14 Billion in the MR&T 
Project and it has prevented $612 Billion in damages! This is a 44:1 
benefit to cost ratio. The flow carried by the Mississippi River in 
1927 was 66 percent of a Project Design Flood. The flow carried by the 
Mississippi River in 2011 was 85 percent of a Project Design Flood. 
There is a larger flood on the horizon. In fact, stages will be 8 
higher when we have the Project Design Flood than we just experienced 
in 2011. The MR&T Project is only 89 percent complete. Congress must be 
proactive and fully fund the MR&T Project until it is completed. If 
not, the MR&T Project will not pass the Project Design Flood.
    Even though the MR&T Project worked, it suffered a lot of damage 
and many weaknesses were discovered during the 2011 Epic Flood. The 
Mississippi Levee Board would like to commend Congress for 
appropriating $802 Million for repairing the MR&T System following the 
historic 2011 Flood. This money will help reset and rebuild the MR&T 
System so that we can pass the next major flood event. Money spent on 
the MR&T Project is money well spent that returns much more money in 
prevented damages.
    Thanks to the additional funding provided by the Congress over the 
last several years over and above the Administration's budget, work on 
the Mainline Mississippi River Levee Enlargement Project is continuing. 
Of the original 69 miles of deficient levees in the Mississippi Levee 
District, 35.4 miles of work have been completed and 7.4 miles are 
currently under contract. We are requesting more money for construction 
on the Mainline Mississippi River Levees in the Lower Mississippi 
Valley Division which will allow the Vicksburg and Memphis districts to 
keep existing contracts on schedule and award contracts to avoid any 
future unnecessary delays in completing this vital project.
    For the past few years the President's Budget has not included 
funding for any construction projects within the Yazoo Basin. This 
action is especially difficult to understand during a time when our 
Nation needs an economic boost. These are all projects authorized and 
funded so wisely by the Congress. All of these projects are encompassed 
in the footprint of the Delta Regional Authority, an area recognized by 
the Congress as requiring special economic assistance to keep pace with 
the rest of our great Nation. We can not lose sight of the fact that 
all of these projects are required to return more than a dollar in 
benefits for each dollar spent.
    The recommended plan for the Yazoo Backwater Project included a 
pump that will lower the 100-year flood event by 4.5 feet thereby 
reducing urban and rural structural damages, providing benefits to the 
remaining agricultural lands, and reducing the frequency and duration 
of floods. The plan also includes reforestation easements to be 
purchased on up to 55,600 of existing agricultural land which will 
provide benefits in every environmental category--wetlands, 
terrestrial, aquatics, and waterfowl resources as well as vastly 
improving water quality. This was a model project that should be the 
standard for future public works projects in the United States. However 
on August 31, 2008, the Environmental Protection Agency (EPA) used its 
authority under Section 404(c) of the Clean Water Act (CWA) to veto the 
Yazoo Backwater Project even though it is exempt by Section 404(r) of 
the CWA. The Mississippi Levee Board sued EPA in a lawsuit against EPA 
asking the Federal Court to determine if this project is indeed exempt 
from an EPA 404(c) veto by the exemption in Section 404(r) of the CWA. 
The Federal Court has ruled in favor of EPA. Unfortunately this model 
project is now completely stopped! If the Yazoo Backwater Project were 
in place in 2008, 2009 and 2011, the $220 Million dollar project would 
have prevented $257.5 Million in damages! Congress promised flood 
protection for the Mississippi South Delta back in 1941 when the Eudora 
Floodway was removed from the MR&T Project. Arkansas and Louisiana have 
both benefitted from this floodway removal while Mississippi continues 
to be flooded. We urge Congress to take up this backwater flooding 
problem again and find a solution for the Mississippi South Delta.
    We are requesting more money for the Yazoo Backwater less Rocky 
Bayou Project. This money will be used to start the Environmental 
Impact Statement for the Yazoo Backwater Levee Enlargement Project. 
This levee is designed to overtop during a project design flood, but it 
needs to be raised 5.8 to get to the required elevation. This 
backwater levee is supposed to overtop when we are within 2 of a 
Project Design Flood. In 2011 the Mississippi River was 8 below a 
Project Design Flood and the Yazoo Backwater Levee came within 4" of 
overtopping. We need this backwater levee raised immediately.
    Work on the Big Sunflower (Upper Steele Bayou) Project has proved 
to be very beneficial. The Steele Bayou Sedimentation Reduction Project 
has installed drop-pipe structures at headcut locations all along 
Steele Bayou. These control structures stop the movement of sediment 
into Steele Bayou. Sediment is bad for flood control and water quality. 
We are requesting more money to keep this project moving forward.
    Work on the Delta Headwaters Project has proven effective in 
reducing sediments to downstream channels. To discontinue this project 
will only diminish water quality by increasing sediment, reducing the 
level of flood protection to the citizens of the Delta and increasing 
required maintenance. We are requesting more money to continue this 
project.
    Maintenance of completed works can not be over looked. The four 
flood control reservoirs overlooking the Delta have been in place for 
50 years and have functioned as designed. Required maintenance must be 
performed to avoid any possibility of failure during a flood event. We 
are asking for more money for Arkabutla Lake, Enid Lake, Grenada Lake, 
and Sardis Lake.
    We are requesting more money for Maintenance of the Mainline 
Mississippi River Levees in the Lower Mississippi Valley Division which 
will provide for repair of levee slides, slope repair, and repair of 
the gravel maintenance roadway which is so vital to access during high 
water.
    The Mississippi River and our Ports and Harbors need money for 
maintenance dredging. The Mississippi River carries tons of sediment 
every second. This sediment falls out in slack water areas such as 
entrances to our Ports and Harbors. The Greenville Port and Vicksburg 
Port both need more money to perform annual maintenance dredging. This 
dredging is vital to keep these ports open during the low-water season 
when much of the farm harvest is ready to be transported.
    The Environmental Protection Agency (EPA) has been given too much 
power under Section 404(c) of the Clean Water Act (CWA) which allows 
EPA to veto Congressionally authorized projects. During the early 
1990's, due to abuse of the 404(c) power by EPA, Congress considered 
removing this authority from EPA. EPA has again invoked this veto power 
on the Yazoo Backwater Project. EPA is saying that you can't lower the 
water level with a flood control project! By killing this project with 
404(c) veto authority, EPA is drawing a line in the sand over the 
future of flood control in our great Nation. EPA has vetoed the Yazoo 
Backwater Project even though it was approved, authorized and funded by 
Congress and exempt from a 404(c) veto by 404(r). It is now time to 
again take up this issue and remove the 404(c) veto power from EPA 
before they kill another flood control project that has been authorized 
by Congress.
    The Council of Environmental Quality (CEQ) draft proposal of 
changes to the Principals and Guidelines (P&G) for Federal Agencies 
fails to establish a clear, concise, and workable framework to guide 
development of water resources projects. It elevates environment 
considerations over economic benefits, social well-being and public 
safety. Because of these critical and extensive failings, we recommend 
that this effort be put aside and restarted from the beginning. 
Unfortunately the Administration secretly reconvened the Water 
Resources Council on March 18th without notice to approve the final 
Principles, Guidelines & Requirements. We are asking Congress to add 
language in the Continuing Resolution or Conference Report that directs 
the Corps to utilize the previous P&G for project development criteria.
    As members of the Congress representing the citizens of our Nation 
who live with the Mississippi River everyday, you clearly understand 
both the benefits provided by this resource and the destructive force 
that must be controlled during a flood. On behalf of the Mississippi 
Levee Board, I can not express enough, our appreciation for your 
efforts in providing adequate funding over the last several years that 
has allowed construction to continue on our much needed projects and 
thank you in advance for your kind consideration of our requests for 
fiscal year 2014.
                                 ______
                                 
   Prepared Statement of the Brazos River Harbor Navigation District
    We express full support of the inclusion in the fiscal year 2014 
budget for the full capability of the USACE of $1 Million--PED.
                         history and background
    Port Freeport is an autonomous governmental entity authorized by an 
act of the Texas Legislature in 1925. It is a deep-draft port, located 
on Texas' central Gulf Coast, approximately 60 miles southwest of 
Houston, and is an important Brazos River Navigation District 
component. The port elevation is 3 to 12 feet above sea level. Port 
Freeport is governed by a board of six commissioners elected by the 
voters of the Navigation District of Brazoria County, which currently 
encompasses 85 percent of the county. Port Freeport land and operations 
currently include 186 acres of developed land and 7, 723 acres of 
undeveloped land, 5 operating berths, a 45 deep Freeport Harbor 
Channel and a 70 deep sink hole. Future expansion includes building a 
1,300-acre multi-modal facility, cruise terminal and container 
terminal. Port Freeport is conveniently accessible by rail, waterway 
and highway routes. There is direct access to the Gulf Intracoastal 
Waterway, Brazos River Diversion Channel, and, State Highways 36 and 
288. Located just three miles from deep water, Port Freeport is one of 
the most accessible ports on the Gulf Coast.
                          project description
    The fiscal year 2002 Energy and Water Appropriations signed into 
law included a $100,000 appropriation to allow the United States Army 
Corps of Engineers (USACE) to conduct a reconnaissance study to 
determine the Federal interest in an improvement project for Freeport 
Harbor, Texas. The USACE, in cooperation with the Brazos River Harbor 
Navigation District as the local sponsor, has completed that study. The 
report indicates that ``transportation savings in the form of National 
Economic Development Benefits (NED) appear to substantially exceed the 
cost of project implementation'', thus confirming ``a strong Federal 
interest in conducting the feasibility study of navigation improvements 
at Freeport Harbor''. Congress has to date appropriated full funding 
for recon and feasibility to completion. The Chief's Report was 
completed in January 2013 and is currently under review by OMB.
    Port Freeport has the opportunity to solidify significant new 
business for Texas with this improvement project. In addition, the 
improvement to the environment by taking a huge number of trucks off of 
the road, transporting goods more economically and environmentally 
sensitive by waterborne commerce is infinitely important to the 
community, the State, and the Nation. Moreover, the enhanced safety of 
a wider channel cannot be overstated. The emergence of an LNG facility 
at Port Freeport--a joint venture of Conoco-Philips and Cheniere Energy 
further solidifies the importance of keeping this critical waterway at 
optimum depth and width.
                    economic impact of port freeport
    Port Freeport is 16th in foreign tonnage in the United States. It 
is responsible for augmenting the Nation's economy by generating over 
66,680 jobs in Texas, over 13,300 direct. It also augments the economy 
by providing annual, State, and local taxes of over $487,000. Its chief 
import commodities are bananas, fresh fruit and aggregate while top 
export commodities are rice and chemicals. The port's growth has been 
staggering in the past decade, becoming one of the fastest growing 
ports on the Gulf Coast. Port Freeport's economic impact and its future 
growth is justification for its budding partnership with the Federal 
Government in this critical improvement project.
    Examples of existing tenants at the Port include:
    Dole Fresh Fruit.--Dole has a weekly sailing arriving at Port 
Freeport with green fruit and other exotic fruits, mainly from 
Guatemala and Honduras. Dole has been a tenant of Port Freeport for the 
past 29 years, occupying lease sites comprising of 15 acres. There are 
approximately 450 jobs associated with this operation.
    Chiquita Fresh North America.--Chiquita is very similar to the Dole 
operation. Chiquita also has a weekly sailing and has been a tenant of 
Port Freeport for the past 17 years. There are about 400 jobs 
associated with this operation.
    Turbana Banana & Isabella Shipping.--Turbana and Isabella, 
divisions of Uniban, based in Colombia import 4,500 pallet loads of 
green fruit and other exotic fruits into Port Freeport weekly. The 
fruit is processed in a chiller, which the Port undertook and built 8 
years ago at a cost of $7 million dollars. In addition to their import 
activities, they also export general cargo back weekly to ports in 
Costa Rica and Colombia. Since moving to Freeport 2 years ago, Turbana 
has increased their business 38 percent. This highly labor-intensive 
company accounts for 500 + jobs. Turbana and Isabella recently 
announced a significant expansion of their Freeport operations that 
will double their cargo throughput within the next 4 months.
    American Rice Inc.--As a 27-year tenant of the Port, this company 
has the largest rice milling operation in the United States located on 
water. ARI currently processes 250,000 tons of rice annually with a 
majority shipped by vessel to overseas markets. This tenant produces 
over 450 jobs.
    Parker Cabett Subsea.--A division of Parker Hannifin Industries is 
a manufacturer of fiber optic cable used in the offshore exploration 
industry. Very large cable laying vessels receive miles of continuous 
cable from this facility on a regular basis. At full production, this 
operation generates about 150 jobs.
    Freeport LNG/ConocoPhillips.--Port Freeport was successful 9 years 
ago in attracting Freeport LNG to a site on Quintana Island, owned by 
the Port. This facility, the first new liquefied natural gas plant to 
be built in the United States in the last 25 years, began operations in 
the first quarter of 2008. The terminal currently has full time 
employment of 50-60 people and operates 24 hours a day, 7 days per 
week. The current investment in the facility is $1 Billion. Freeport 
LNG recently announced a second project that involves the export of gas 
and has leased another 170 acres from the port. With shale gas exports 
on the horizon, this facility could add another $8 Billion in new 
investments and more new jobs to our area.
    In addition to the Port tenants listed above there a numerous U.S. 
and international chemical and crude processing facilities in the 
immediate area. Some of the larger international corporations utilizing 
the Freeport ship channel are as follows:
    Dow Chemical.--A diversified chemical company that offers a broad 
range of products and services to customers in more than 175 countries, 
helping them to provide everything from fresh water, food and 
pharmaceuticals to paints, packaging and personal care products. Dow 
has annual sales of $54 Billion dollars and employs 43,000 people 
worldwide, with 4,500 full time employees in the Texas operations and 
another 2000 contract employees. Texas Operations in Freeport is Dow's 
largest integrated site where 44 percent of Dow's products are sold in 
the United States and more than 21 percent of Dow's products sold 
globally are manufactured. Dow's Freeport Marine Terminal and 
Operations (FMTO) uses the Freeport Harbor channel and handles the 
movement of 100 different Dow products at 15 billion pounds annually. 
Marine vessels transport 46 percent of Dow's volume through Dow docks 
on the Freeport channel.
    Recent Port improvements include the Velasco Terminal, which was 
launched October 2007 as our first major container terminal. This 
facility, presently under construction will boast a berthing line of 
2,400 linear feet with 90 acres of backland for development. Phase I of 
the construction, the first 800 ft. of berth and 20 acres of backland 
will be completed at a cost of approximately $60 Million. The facility 
is designed to handle as many as 800,000 twenty foot containers.
                     defense support of our nation
    Port Freeport is a strategic port in times of National Defense of 
our Nation. It houses a critically important petroleum oil reserve--
Bryan Mound. Its close proximity to State Highways 36 and 288 make it a 
convenient deployment port for Fort Hood. In these unusual times, it is 
important to note the importance of our ports in the defense of our 
Nation and to address the need to keep our Federal waterways open to 
deep-draft navigation.
                     community and industry support
    This proposed improvement project has wide community and industry 
support. The safer transit and volume increase capability is an 
appealing and exciting prospect for the users of Freeport Harbor and 
Stauffer Channel. The anticipated positive benefit to cost ratio that 
was indicated from the Corps of Engineers reconnaissance study firmly 
solidified the Federal interest.
         what we need from the subcommittee in fiscal year 2014
    We respectfully request that the full amount of the Corps 
capability for PED be secured to keep this important project moving 
forward. It is in the best interest of the Federal Government to give 
full support of this project.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America
    The Izaak Walton League of America appreciates the opportunity to 
submit testimony concerning appropriations for fiscal year 2014 for 
programs under the jurisdiction of the subcommittee. The League is a 
national, nonprofit organization founded in 1922 with more than 41,000 
members and 250 local chapters nationwide. Our members are committed to 
advancing common sense policies that safeguard wildlife and habitat, 
support community-based conservation, and address pressing 
environmental issues. The following pertains to programs administered 
by the U.S. Army Corps of Engineers.
  army corps of engineers, operations and maintenance, missouri river
    The League urges the subcommittee to appropriate $70 million in 
fiscal year 2014, as requested by the Army Corps of Engineers, for the 
Missouri River Recovery Program. With this funding, the Corps, U.S. 
Fish and Wildlife Service (FWS), States, and other partners can 
continue important ecosystem restoration efforts that are producing 
long-term ecological and economic benefits.
    The Missouri River basin encompasses land in 10 States covering 
one-sixth of the continental United States. The Missouri is one of the 
most altered ecosystems on earth. Although recovery and restoration 
efforts are on-going, they need to continue and expand.
    The Corps, FWS, and many State agencies have been restoring habitat 
for fish and wildlife along the river. This work is critical for the 
Interior Least Tern and Pallid Sturgeon, listed as endangered, and the 
Piping Plover, listed as threatened, under the Endangered Species Act. 
The restoration efforts also benefit many other species of fish and 
wildlife throughout the region. These habitat restoration projects are 
working with the river--not against it.
    These projects also generate additional economic activity in 
communities along the river. Anglers, hunters, boaters, birdwatchers, 
and others have been using these areas proving the old adage ``if you 
build it, they will come.'' The Missouri Department of Conservation and 
the Nebraska Game and Parks Commission found recreational spending 
provides $68 million in annual economic impact to communities along the 
Missouri River from Yankton, South Dakota to St. Louis, Missouri. A 
South Dakota Game, Fish, and Parks study shows that recreational 
benefits from angling on the Missouri River account for over $107 
million in annual economic activity in the Dakotas and Montana. These 
projects are bringing more people to the river throughout the Missouri 
basin.
    In addition to the economic boost from tourism, restoration 
projects support job creation throughout the entire region. The Corps 
contracts with local construction companies, creating jobs, and 
injecting dollars into local economies through purchases of materials, 
fuel, food and lodging. With the funding requested, the Corps could 
readily implement more of these important economic and river 
restoration projects.
    Missouri River Ecosystem Restoration Plan.--The League urges the 
subcommittee not to include any provision in its fiscal year 2014 bill 
limiting funding for the Missouri River Ecosystem Restoration Plan 
(MRERP). This long-term ecosystem study will lead to a comprehensive 
plan that Federal agencies, States, tribes, and communities along the 
river will be able to implement for a healthier Missouri River. A great 
deal of time and effort has already gone into development of MRERP. 
Funding must be allowed for this important effort to get back on track 
before the information already gathered loses relevance and will cost 
U.S. taxpayers more to gather again.
    Missouri River Authorized Purposes Study.--The League also urges 
the subcommittee to provide funding to complete the Missouri River 
Authorized Purposes Study (MRAPS). The League strongly opposed the 
funding prohibition contained in the Consolidated Appropriations Act of 
2012. It does not provide taxpayers with meaningful savings in the 
near-term and jeopardizes real future savings. Delaying this analysis 
deprives the country of Missouri River management geared toward future 
needs rather than those identified during World War II.
    MRAPS for the first time will review the eight authorized Missouri 
River purposes established by the Flood Control Act of 1944. This 
thorough analysis of the purposes will determine the best management 
for the American taxpayer, all the residents of the basin, and fish and 
wildlife, taking in account today's economic values and priorities, 
rather than those identified nearly 70 years ago.
    Full funding of MRAPS is a wise investment. A comprehensive review 
and accompanying changes will streamline future Corps operational 
expenses saving tax dollars and bringing Missouri River management into 
the 21st century. The League strongly believes that the MRAPS process 
must be allowed to resume in fiscal year 2014.
     army corps of engineers, construction, upper mississippi river
    The League is an active and long-time proponent of restoring the 
Upper Mississippi River (UMR) ecosystem. We have supported the Upper 
Mississippi River Restoration--Environmental Management Program (UMRR-
EMP) since its inception and continue to support this vital restoration 
initiative. We urge the subcommittee to provide $31.968 million for the 
UMRR-EMP as requested by the Corps of Engineers.
    The League also reiterates our view that the large-scale navigation 
modifications included in the Recommended Plan for the Upper 
Mississippi Navigation and Ecosystem Sustainability Program (NESP), as 
authorized by the Water Resources Development Act of 2007, have not 
been justified by the Corps and should not be pursued. Previous reviews 
by the National Academy of Sciences and the Assistant Secretary of the 
Army, Civil Works found that the navigation construction component of 
NESP was not economically justifiable. A report released in 2010 by the 
Nicollet Island Coalition, of which the League is a member, provides 
additional evidence that proposed locks and dams in this region are not 
a good investment for American taxpayers. With this in mind, the League 
supports the Corps' decision not to request funding for NESP in fiscal 
year 2014.
    The Upper Mississippi River is one of the most complex ecosystems 
on earth. It provides habitat for 50 species of mammals, 45 species of 
reptiles and amphibians, 37 species of mussels, and 241 species of 
fish. The need for ecosystem restoration is unquestionable. As the 
Corps correctly stated in its study of navigation expansion, this 
ecosystem is ``significantly altered, is currently degraded, and is 
expected to get worse.'' Researchers from the National Academy of 
Sciences have determined that river habitat is disappearing faster than 
it can be replaced through existing programs such as UMRR-EMP, which 
was authorized at $33.2 million annually by Congress in 1999, but has 
never received full appropriations. As habitat vanishes, scientists 
warn that many species will decline and some will disappear.
    Our Nation relies on a healthy Mississippi River for commerce, 
recreation, drinking water, food, and power. More than 12 million 
people annually recreate on and along the Upper Mississippi River 
spending $1.2 billion and supporting 18,000 jobs. More people recreate 
on the Upper Mississippi annually than visit Yellowstone National Park. 
As recreation and other uses have become more important, barge traffic 
has remained static on the river for more than two decades.
    In assembling the UMR-IWW navigation study, the Corps recognized 
the critical need for ecosystem restoration and encouraged Congress to 
invest approximately $130 million annually in Upper Mississippi River 
habitat restoration efforts. With this need in mind, the League 
strongly encourages the subcommittee to prioritize investment in 
ecosystem restoration by appropriating the full amount requested for 
the Upper Mississippi River Restoration--Environmental Management 
Program in fiscal year 2014. Additional funding for restoration will 
support economic development and job creation in communities along the 
UMR and provide long-term conservation and economic benefits for the 
region and the Nation.
                clean water act guidance and rulemaking
    Last year, the American people celebrated the 40th anniversary of 
passage of the Clean Water Act. With this in mind, the League strongly 
urges the subcommittee not to include or accept any provision in its 
fiscal year 2014 bill barring the Army Corps from finalizing and 
implementing Clean Water Act guidance or proceeding with the formal 
rulemaking process to revise its clean water regulations. Our 
organization and hunting, angling and conservation groups across the 
country actively opposed similar provisions in previous appropriations 
bills funding the Corps and Environmental Protection Agency (EPA).
    Since proposing draft guidance in April 2011, the Army Corps has 
conducted a nearly unprecedented public engagement process for agency 
guidance. During this process, the Corps and the Environmental 
Protection Agency (EPA) held a 90-day public comment period. The 
agencies received more than 230,000 comments and have publicly stated 
that 90 percent of individual comments supported the proposal. In mid-
February 2012, the Corps and EPA submitted revised guidance to the 
Office of Management and Budget (OMB) for another round of inter-agency 
review. This process also allows nongovernmental organizations to meet 
with OMB to share their perspectives on the policy.
    Guidance proposed by the Corps is based on sound science and 
clearly complies with the Supreme Court decisions in SWANCC and 
Rapanos. Allowing the Corps to proceed with guidance will partially 
restore protections for streams flowing to public drinking water 
supplies for 117 million Americans. It will also begin--but only 
begin--to restore protections for some wetlands. Healthy wetlands are 
essential to waterfowl, fish, and other wildlife, provide cost-
effective flood protection, and improve water quality. They also 
support hunting, angling, and wildlife watching, which together inject 
$145 billion annually into our economy. Finalizing the guidance will 
also provide more clarity and certainty about Clean Water Act 
implementation to landowners, developers, agency personnel, and State 
and local governments.
    Once again, the League urges the subcommittee not to include any 
provision in its fiscal year 2014 bill limiting the Corps' ability to 
finalize and implement Clean Water Act guidance or initiate formal 
rulemaking concerning clean water regulations.
    We appreciate the opportunity to submit this testimony.
                                 ______
                                 
        Prepared Statement of the Little River Drainage District
    My name is Sam M. Hunter, D.V.M. I am a veterinarian, landowner, 
and farmer, and I reside in Sikeston, Missouri. I am the President of 
the Board of Supervisors of The Little River Drainage District, the 
largest such entity in the Nation. Our district serves as a drainage 
outlet and provides flood control to parts of seven counties in 
southeast Missouri. We also provide flood protection to a sizable 
portion of northeast Arkansas. Our district is funded solely by the 
annual assessment of benefits of more than 3,500 landowners. Today, I 
would like to discuss funding for the U.S. Army Corps of Engineers, 
more specifically the Mississippi River and Tributaries (MR&T) which is 
a line item in the Civil Works budget.
    This is a reminder to the U.S. Senate Committee on Appropriations 
Subcommittee on Energy and Water Development of the Mississippi River 
and Tributaries (MR&T) system performance in 2011 and 2012. The 
investment protected by the MR&T system during the 2011 flood was $234 
billion with cumulative damages prevented by the MR&T system being $612 
billion and a return on Federal investment of 44 to 1. These prevented 
damages do not include the return for low water benefits. The hydraulic 
improvements made by the construction of dikes, cutoffs and channel 
improvements that allowed a record flood by volume to flow at a lower 
elevation, are the same improvements that allowed barge traffic to move 
during the near record lows experienced throughout the Mississippi 
River in 2012. Because of these facts we respectfully request an 
appropriation in the sum of 500 million dollars for the Mississippi 
River and Tributaries Project.
    First, let me thank the Congress for the support and funding you 
have provided in the past. This funding proves your awareness of the 
importance of flood control projects throughout the Mississippi River 
Valley.
    The Mississippi River and Tributaries Project was authorized 
following a record flood in 1927 that inundated more than 26,000 square 
miles of the Mississippi River Valley. Over 700,000 people were left 
homeless and many lives were lost. Most, if not all, East-West commerce 
was stopped and it adversely affected the economy and the environment 
of our Nation. After that devastating event Congress in its infinite 
wisdom passed a bill and established the Mississippi River and 
Tributaries Project and authorized the U. S. Army Corps of Engineers to 
develop a plan to prevent such a disaster in the future. This project 
currently is a separate line item in the budget. To remove it will 
destroy the continuity of this highly valued and much needed project.
    To date the MR&T Project has prevented flood damages and provided 
other benefits resulting in a current benefit/cost ratio of over $44 to 
$1. Truly this is a wise investment for our Nation. Likewise, countless 
lives have been spared due to the construction of this great project. 
Also, our Nation receives nearly one billion dollars of navigational 
benefits each year due to this project. It is readily seen this project 
had merit from the beginning and continues to reward the citizens not 
only of the valley itself but the citizens of the entire Nation. It is 
a wise investment for this country and it is good for our economy. It 
will be a vital link to the defense of our Nation in the event of an 
attack by our enemies. This project must be targeted for swift 
completion and then properly maintained. What an investment for our 
great Nation this project has been! Find any other project of any 
nature which approaches this ratio.
    The performance of the comprehensive Mississippi River and 
Tributaries system and the Ohio Valley reservoir system during the 2011 
flood on the lower Mississippi River validates the wise investment the 
Nation made to prevent another calamitous natural disaster like the 
1927 flood, the devastating event that changed America and forcibly 
unified its people to support protection of lives and property from the 
fury of the river. The MR&T system performed as designed, despite 
rainfall exceeding 600 to 1,000 percent of the normal average rainfall 
in a two-week period from April 21-May 3 over a significant portion of 
six States that coincided with the arrival of the upper Mississippi 
spring snowmelt crest. The significant flood event established many new 
record discharges and stages along the lower Ohio and Mississippi 
rivers. Unlike the 2011 flood, the Mississippi River during the 
benchmark and calamitous Great Flood of 1927 inundated most of the 
alluvial valley. Like the toppling of a series of dominoes, one 
overmatched levee after another burst under the unprecedented pressure 
exerted by the swollen river.
    At a time when we need to stimulate our economy, at a time that 
safety from terrorist activities needs to be enhanced and at a time 
that many in our Nation are concerned about cleaner air, cleaner water, 
etc., we have a great opportunity to meet those needs. We must make 
sound investments into our infrastructure which will give back more 
monies to the taxpayers of this country than was invested while at the 
same time increasing our defense capabilities should our Nation be 
attacked from an outside force.
    Local interests have done their part in providing rights of way, 
roads, utilities and the like. Our Government now needs to fulfill 
their obligatory part of the project and bring it to completion as 
quickly as possible.
    We believe the Corps could adequately use 500 million dollars each 
year for maintenance and construction within the MR&T. We realize there 
are budgetary restraints this year and respectively request Congress to 
approve adequate funding for maintenance and construction for the MR&T. 
The MR&T improvements I have talked about thus far have been the 
benefits for flood control. However, these benefits are also realized 
during the low flow event currently being experienced on the 
Mississippi River. The hydraulic improvements that allowed a record 
flood event to pass at a 0.8 foot lower elevation in 2011 than in 1937, 
also allow barge traffic and a near record low event experienced in 
2012. If it were not for the MR&T system improvements barge traffic 
during the 2012 low water event would have been nonexistent.
    We thank you again for your understanding of our needs and the 
importance of the MR&T system by not allowing FEMA to charge mandatory 
flood insurance as defined below:

SEC. 107. MANDATORY COVERAGE AREAS.
    (a) Special Flood Hazard Areas.--Not later than 90 days after the 
date of enactment of this Act, the Director shall issue final 
regulations establishing a revised definition of areas of special flood 
hazards for purposes of the National Flood Insurance Program.
    (b) Residual Risk Areas.--The regulations required by subsection 
(a) shall--
          (1) include any area previously identified by the Director as 
        an area having special flood hazards under section 102 of the 
        Flood Disaster Protection Act of 1973 (42 U.S.C. 4012a); and
          (2) require the expansion of areas of special flood hazards 
        to include areas of residual risk, including areas that are 
        located behind levees, dams, and other man-made structures.
    (c) Mandatory Participation in National Flood Insurance Program.--
          (1) In general.--Any area described in subsection (b) shall 
        be subject to the mandatory purchase requirements of sections 
        102 and 202 of the Flood Disaster Protection Act of 1973 (42 
        U.S.C. 4012a, 4106).
          (2) Limitation.--The mandatory purchase requirement under 
        paragraph (1) shall have no force or effect until the mapping 
        of all residual risk areas in the United States that the 
        Director determines essential in order to administer the 
        National Flood Insurance Program, as required under section 19, 
        are in the maintenance phase.

    Thank you for understanding the tremendous negative impact this 
piece of legislation would have had on the entire Mississippi River 
Valley. Billions of dollars already spent on flood control structures 
would be negated because of needless MANDATORY flood insurance 
premiums. Please remember the 1928 flood control act recognizes the 
investment of the local people by initial construction and taxation of 
themselves for maintenance. This investment was over 200 million 
dollars in 1928 and totals more than 17 billion dollars today, making 
the total investment in the MR&T over 30 billion dollars. Because of 
this, it is still necessary to discuss the new policies being 
implemented by the Federal Emergency Management Agency in their Map 
Modernization Program.
    The policy creates a New Zone ``X'' (shaded) designated area. This 
new designation shows all areas behind a levee as an unsafe place to 
live and recommends, among other things, an evacuation plan and flood 
insurance.
    This designation renders all work done by local and Federal 
organizations for the last 100 years useless. Even if our levees are 
Federal Levees and have received an outstanding maintenance award 
through the U.S. Army Corps of Engineers inspection process, this Zone 
``X'' (shaded) designation will be placed on all new flood maps. This 
will needlessly destroy economic development for over 22,000,000 acres 
of land in this country. Please put a stop to this new Zone ``X'' 
(shaded) designation. Please do not use a ``one size fits all'' 
approach and place false fear in the minds of people living behind 
levees. The insurance industry would love nothing more than the ability 
to collect flood insurance premiums without the possibility of paying 
claims because of the hard work of the U.S. Army Corps Of Engineers and 
local levee and drainage districts across this country.
    With the tragedy that struck the Gulf Coast and East Coast, we must 
now turn our attention to the future and attempt to make certain that 
at least the flooding does not take place again. We can prevent that; 
the Dutch, the English and the Italians have done it and so can we if 
we treat flood control as something that we must do. The citizens of 
this great Nation deserve it.
    There are four anomalies of nature that cause death and destruction 
to our Nation. They are (1) earthquakes, (2) hurricanes, (3) tornadoes 
and (4) floods. The first three we can do very little if anything about 
except to prepare for the worst. We can build protection against 
floods, against the ``maximum probable flood'', one that has an 
``improbable occurrence but nevertheless a remotely possible one''.
    In order to provide such protection we believe that three things 
must be done. First, the environmental laws, or at least the way they 
are interpreted for flood control projects, must be changed or we stand 
to lose more lives and have another absolute environmental catastrophe 
such as the one we have witnessed in New Orleans and along the Gulf 
Coast. Second, cancel all cost-sharing for flood control projects 
unless we do intend to only protect those that can afford it and ignore 
those that cannot. Third, relax the requirements for the benefit to 
cost ratio for flood control projects for one reason, it is impossible 
to assign a dollar value to a human life. It is our opinion that these 
things must be done, for without flood control, nothing else really 
matters. I close with a simple reminder. The MR&T system is not 
complete and therefore will not pass the Project Design Flood! Thank 
you for your leadership and the resulting 100's of billions of dollars 
averted because you supported and funded the greatest civil works 
project on the planet . . . the MR&T!
    I would like to thank each member of the committee, their staff, 
and the committee staff for taking the time to review the above written 
testimony. We are appreciative of anything the Energy and Water 
Development subcommittee can do to improve our livelihoods, and to 
insure the safety of our communities. Your work is very important to 
our country and we feel it is important for us to thank you for your 
service, and for giving us the opportunity to share our testimony.
                                 ______
                                 
 Prepared Statement of the Mississippi Valley Flood Control Association
    This is a reminder to the U.S. Senate Appropriations Subcommittee 
on Energy and Water Development of the Mississippi River and 
Tributaries (MR&T) system performance in 2011and 2012. The investment 
protected by the MR&T system during the 2011 flood was $234 billion 
with cumulative damages prevented by the MR&T system being $612 billion 
and a return on Federal investment of 44 to 1. These prevented damages 
do not include the return for low water benefits. The hydraulic 
improvements made by the construction of dikes, cutoffs and channel 
improvements that allowed a record flood by volume to flow at a lower 
elevation, are the same improvements that allowed barge traffic to move 
during the near record lows experienced throughout the Mississippi 
River in 2012. Because of these facts we respectfully request an 
appropriation in the sum of 500 million dollars for the Mississippi 
River and Tributaries Project.
    First, let me thank the Congress for the support and funding you 
have provided in the past. This funding proves your awareness of the 
importance of flood control projects throughout the Mississippi River 
Valley.
    The Mississippi River and Tributaries Project was authorized 
following a record flood in 1927 that inundated more than 26,000 square 
miles of the Mississippi River Valley. Over 700,000 people were left 
homeless and many lives were lost. Most, if not all, East-West commerce 
was stopped and it adversely affected the economy and the environment 
of our Nation. After that devastating event Congress in its infinite 
wisdom passed a bill and established the Mississippi River and 
Tributaries Project and authorized the U. S. Army Corps of Engineers to 
develop a plan to prevent such a disaster in the future. This project 
currently is a separate line item in the budget. To remove it will 
destroy the continuity of this high value and much needed project.
    To date the MR&T Project has prevented flood damages and provided 
other benefits resulting in a current benefit/cost ratio of over $44 to 
$1. Truly this is a wise investment for our Nation. Likewise, countless 
lives have been spared due to the construction of this great project. 
Also, our Nation receives nearly one billion dollars of navigational 
benefits each year due to this project. It is readily seen this project 
had merit from the beginning and continues to reward the citizens not 
only of the valley itself but the citizens of the entire Nation. It is 
a wise investment for this country and it is good for our economy. It 
will be a vital link to the defense of our Nation in the event of an 
attack by our enemies. This project must be targeted for swift 
completion and then properly maintained. What an investment for our 
great Nation this project has been! Find any other project of any 
nature which approaches this ratio.
    The performance of the comprehensive Mississippi River and 
Tributaries system and the Ohio Valley reservoir system during the 2011 
flood on the lower Mississippi River validates the wise investment the 
Nation made to prevent another calamitous natural disaster like the 
1927 flood, the devastating event that changed America and forcibly 
unified its people to support protection of lives and property from the 
fury of the river. The MR&T system performed as designed, despite 
rainfall exceeding 600 to 1,000 percent of the normal average rainfall 
in a two-week period from April 21-May 3 over a significant portion of 
six States that coincided with the arrival of the upper Mississippi 
spring snowmelt crest. The significant flood event established many new 
record discharges and stages along the lower Ohio and Mississippi 
rivers. Unlike the 2011 flood, the Mississippi River during the 
benchmark and calamitous Great Flood of 1927 inundated most of the 
alluvial valley. Like the toppling of a series of dominoes, one 
overmatched levee after another burst under the unprecedented pressure 
exerted by the swollen river.
    At a time when we need to stimulate our economy, at a time that 
safety from terrorist activities needs to be enhanced and at a time 
that many in our Nation are concerned about cleaner air, cleaner water, 
etc., we have a great opportunity to meet those needs. We must make 
sound investments into our infrastructure which will give back more 
monies to the taxpayers of this country than was invested while at the 
same time increasing our defense capabilities should our Nation be 
attacked from an outside force.
    Local interests have done their part in providing rights of way, 
roads, utilities and the like. Our Government now needs to fulfill 
their obligatory part of the project and bring it to completion as 
quickly as possible.
    We believe the Corps could adequately use 500 million dollars each 
year for maintenance and construction within the MR&T. We realize there 
are budgetary restraints this year and respectively request Congress to 
approve adequate funding for maintenance and construction for the MR&T. 
The MR&T improvements I have talked about thus far have been the 
benefits for flood control. However, these benefits are also realized 
during the low flow event currently being experienced on the 
Mississippi River. The hydraulic improvements that allowed a record 
flood event to pass at a 0.8 foot lower elevation in 2011 than in 1937, 
also allow barge traffic and a near record low event experienced in 
2012. If it were not for the MR&T system improvements barge traffic 
during the 2012 low water event would have been nonexistent.
    We thank you again for your understanding of our needs and the 
importance of the MR&T system by not allowing FEMA to charge mandatory 
flood insurance as defined below:

SEC. 107. MANDATORY COVERAGE AREAS.
    (a) Special Flood Hazard Areas.--Not later than 90 days after the 
date of enactment of this Act, the Director shall issue final 
regulations establishing a revised definition of areas of special flood 
hazards for purposes of the National Flood Insurance Program.
    (b) Residual Risk Areas.--The regulations required by subsection 
(a) shall--
          (1) include any area previously identified by the Director as 
        an area having special flood hazards under section 102 of the 
        Flood Disaster Protection Act of 1973 (42 U.S.C. 4012a); and
          (2) require the expansion of areas of special flood hazards 
        to include areas of residual risk, including areas that are 
        located behind levees, dams, and other man-made structures.
    (c) Mandatory Participation in National Flood Insurance Program.--
          (1) In general.--Any area described in subsection (b) shall 
        be subject to the mandatory purchase requirements of sections 
        102 and 202 of the Flood Disaster Protection Act of 1973 (42 
        U.S.C. 4012a, 4106).
          (2) Limitation.--The mandatory purchase requirement under 
        paragraph (1) shall have no force or effect until the mapping 
        of all residual risk areas in the United States that the 
        Director determines essential in order to administer the 
        National Flood Insurance Program, as required under section 19, 
        are in the maintenance phase.

    Thank you for understanding the tremendous negative impact this 
piece of legislation would have had on the entire Mississippi River 
Valley. Billions of dollars already spent on flood control structures 
would be negated because of needless MANDATORY flood insurance 
premiums. Please remember the 1928 flood control act recognizes the 
investment of the local people by initial construction and taxation of 
themselves for maintenance. This investment was over 200 million 
dollars in 1928 and totals more than 17 billion dollars today. Making 
the total investment in the MR&T over 30 billion dollars. Because of 
this, it is still necessary to discuss the new policies being 
implemented by the Federal Emergency Management Agency in their Map 
Modernization Program.
    The policy creates a New Zone ``X'' (shaded) designated area. This 
new designation shows all areas behind a levee as an unsafe place to 
live and recommends, among other things, an evacuation plan and flood 
insurance.
    This designation renders all work done by local and Federal 
organizations for the last 100 years, useless. Even if our levees are 
Federal Levees and have received an outstanding maintenance award 
through the U.S. Army Corps of Engineers inspection process, this Zone 
``X'' (shaded) designation will be placed on all new flood maps. This 
will needlessly destroy economic development for over 22,000,000 acres 
of land in this country. Please put a stop to this new Zone ``X'' 
(shaded) designation. Please do not use a ``one size fits all'' 
approach and place false fear in the minds of people living behind 
levees. The insurance industry would love nothing more than the ability 
to collect flood insurance premiums without the possibility of paying 
claims because of the hard work of the U.S. Army Corps Of Engineers and 
local levee and drainage districts across this country.
    With the tragedy that struck the Gulf Coast and East Coast, we must 
now turn our attention to the future and attempt to make certain that 
at least the flooding does not take place again. We can prevent that; 
the Dutch, the English and the Italian have done it and so can we if we 
treat flood control as something that we must do. The citizens of this 
great Nation deserve it.
    There are four anomalies of nature that cause death and destruction 
to our Nation. They are (1) earthquakes, (2) hurricanes, (3) tornadoes 
and (4) floods. The first three we can do very little if anything about 
except to prepare for the worst. We can build protection against 
floods, against the ``maximum probable flood'', one that has an 
``improbable occurrence but nevertheless a remotely possible one''.
    In order to provide such protection we believe that three things 
must be done. First, the environmental laws, or at least the way they 
are interpreted for flood control projects, must be changed or we stand 
to lose more lives and have another absolute environmental catastrophe 
such as the one we have witnessed in New Orleans and along the Gulf 
Coast. Second, cancel all cost-sharing for flood control projects 
unless we do intend to only protect those that can afford it and ignore 
those that can not. Third, relax the requirements for the benefit to 
cost ratio for flood control projects for one reason, it is impossible 
to assign a dollar value to a human life. It is our opinion that these 
things must be done, for without flood control, nothing else really 
matters. I close with a simple reminder. The MR&T system is not 
complete and therefore will not pass the Project Design Flood! Thank 
you for your leadership and the resulting 100's of billions of dollars 
averted because you supported and funded the greatest civil works 
project on the planet . . . the MR&T!
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation
    On behalf of the National Wildlife Federation (NWF), the Nation's 
largest member-based conservation advocacy and education organization, 
and our more than four million members and supporters, we thank you for 
the opportunity to provide fiscal year 2014 funding recommendations for 
the Department of the Energy, the Army Corps of Engineers, and other 
agencies under the jurisdiction of this subcommittee.
    We understand the very difficult budget choices facing the 
subcommittee and the Nation as we move forward under the constraints of 
the Budget Control Act of 2011 (Public Law 112-25). That said, it is 
our belief that disproportionate cuts to conservation programs 
represent policy positions not consonant with the priorities and values 
of most Americans. These programs protect cherished lands and waters, 
conserve the natural resources that are vital to the Nation's continued 
economic vitality, and decrease the climate-changing carbon pollution 
that puts all Americans at risk.
    National Wildlife Federation is committed to protecting wildlife 
for our children's future, and we recognize that climate change is the 
single largest threat facing our wildlife, critical habitats, and 
public health. Without significant new steps to reduce carbon 
pollution, our planet will warm by 7 to 11 degrees Fahrenheit by the 
end of the century, with devastating consequences. For much of 
America's most valued wildlife, the climate crisis is already here: 
habitat loss and increases in droughts and wildfires are already having 
noticeable effects on vulnerable populations of some of America's most 
iconic species. Reducing carbon pollution by continuing a robust 
investment in clean energy is critical to transitioning the country to 
cleaner, more secure sources of energy.
    In the wake of Hurricane Sandy and ever-increasing extreme weather 
events, it is more important than ever to confront climate impacts and 
preserve our most valuable natural buffers. Wetlands such as the 
Everglades and Coastal Louisiana are both incredibly biodiverse and 
ecologically valuable and serve as a critical buffer between coastal 
economies and the destructive forces of storm-driven waves and tides. 
NWF supports continued investment in wetlands conservation and 
restoration to better protect people, property, and the environment.
    NWF and its members remain concerned about proposed funding 
reductions to many of the Federal Government's core commitments and 
programs for conserving fish and wildlife, sustaining and restoring 
important ecosystems, and maintaining clean air and water. Perhaps of 
even greater concern are efforts to rewrite the Nation's landmark 
environmental laws through the use of policy riders on the 
appropriations bill. National Wildlife Federation urges the 
subcommittee to pass a bill free of such riders while making the 
necessary investments in our essential conservation and environmental 
programs and commitments in the fiscal year 2014 appropriations bill.
    National Wildlife Federation is overall supportive of the 
President's fiscal year 2014 budget request, which we view as balancing 
fiscal responsibility with continued investments in essential 
conservation and environmental programs. Below, we offer 
recommendations for specific budget items and programs.
                        i. department of energy
Energy Efficiency and Renewable Energy
    The Office of Energy Efficiency and Renewable Energy provides 
critical programs focused on driving clean and renewable energy 
research, development and demonstration. Advancing solutions that 
promote cleaner energy sources, jobs, and a safer and more sustainable 
future for our children is critical to confronting the climate crisis. 
EERE's work is an essential to reducing our dependence on fossil fuels 
and shifting toward an energy strategy that considers the protection of 
wildlife and their habitats. NWF is strongly supportive of the 
Administration's fiscal year 2014 request of $2.78 billion for the 
Office of EERE. The $995 million increase from fiscal year 2012 aligns 
with the President's energy goals and reflects the allocation of 
funding necessary for bringing such important targets to fruition.
    The Offshore Wind Demonstration Funding Opportunity recognizes the 
market barriers to offshore wind production and offers opportunity for 
leading innovators in this new industry to secure funding and get the 
first projects in U.S. waters. By continuing this initiative, EERE's 
wind and water program will be able to award $20 million to three of 
the seven competitively selected projects currently in their 
engineering phases, and support their progress through design, 
construction, and installation. The 6-year, $168 million initiative 
anticipates funding some offshore wind deployment by 2017, allowing 
America to begin harnessing the potential of this significant untapped 
resource. The Department of Energy has a decades-long legacy of 
spurring innovations in wind energy, and today the wind industry 
employs 85,000 Americans and has large wind power projects in 38 
States. Continued investment in this fast-growing industry is both 
economically viable and environmentally responsible. NWF endorses the 
Administration's request of $46 million for offshore wind programs.
                      ii. army corps of engineers
Comprehensive Everglades Restoration Plan
    America's Everglades are one of the most unique and biodiverse 
ecosystems in the world, designated as Ramsar Wetlands of International 
Significance. In the 1940s the Army Corps drained the Everglades 
resulting in substantial wetland and habitat loss. Protection of the 
remaining ecosystem and restoration of ecological function are critical 
for water supply, wildlife, water quality, recreation, tourism, and the 
economy of South Florida. A recent study indicates each dollar invested 
in restoring the Everglades will result in a four dollar return. 
Beginning in the 1980s, Congress made and has affirmed its commitment 
to restoring the historic River of Grass by allowing fresh water to 
flow southward and later enacting the Comprehensive Everglades 
Restoration Plan (CERP). This subcommittee has made substantial 
progress in furthering that promise in recent years by providing 
support to the US Army Corps of Engineers so it can fulfill the goals 
of CERP. Sustained funding to keep restoration projects on schedule is 
critical to avoiding collapse of the ecosystem, economy, and water 
supply of 7.5 million South Floridians. NWF strongly supports continued 
support and commitment to Everglades Restoration.
Louisiana Coastal Area, Ecosystem Restoration
    The Louisiana coastal plain is the largest expanse of coastal 
wetlands in the contiguous United States, and is one of the Nation's 
most productive and valuable natural regions. It is home to an 
incredible diversity of habitats and wildlife, including endangered and 
threatened species and economically important finfish and shellfish, 
and serves as crucial habitat for migratory birds. Coastal wetlands 
serve as a vital buffer between storm-driven waves and tides and the 
nearly 2 million people and the critical industries and ports along the 
Louisiana coast. These invaluable wetlands are now losing a football 
field of land every 38 minutes-a total of 1900 square miles since the 
1930s. The Coastal Wetlands Planning, Protection, and Restoration Act, 
locally referred to as the Breaux Act and passed in 1990, the ``Coast 
2050: Toward a Sustainable Coastal Louisiana'' plan adopted in 1998, 
and the Louisiana Coastal Area, Louisiana Ecosystem Restoration Study 
initiated in 2002, are important steps towards stemming this alarming 
loss, but continued commitment from Congress is needed to ensure that 
one of our most valuable natural regions does not disappear. It is 
crucial that we continue to fund the restoration of coastal Louisiana, 
and NWF strongly supports the President's new request for $6,285,000 
for Louisiana Coastal Area Ecosystem Restoration.
                                 ______
                                 
            Prepared Statement of Phylway Construction, LLC
    Dear Committee Members: This is a reminder to the U.S. Senate 
Appropriations Subcommittee on Energy and Water Development of the 
Mississippi River and Tributaries (MR&T) system performance in 2011and 
2012. The investment protected by the MR&T system during the 2011 flood 
was $234 billion with cumulative damages prevented by the MR&T system 
being $612 billion and a return on Federal investment of 44 to 1. These 
prevented damages do not include the return for low water benefits. The 
hydraulic improvements made by the construction of dikes, cutoffs and 
channel improvements that allowed a record flood by volume to flow at a 
lower elevation, are the same improvements that allowed barge traffic 
to move during the near record lows experienced throughout the 
Mississippi River in 2012. Because of these facts we respectfully 
request an appropriation in the sum of 500 million dollars for the 
Mississippi River and Tributaries Project.
    First, let me thank the Congress for the support and funding you 
have provided in the past. This funding proves your awareness of the 
importance of flood control projects throughout the Mississippi River 
Valley.
    The Mississippi River and Tributaries Project was authorized 
following a record flood in 1927 that inundated more than 26,000 square 
miles of the Mississippi River Valley. Over 700,000 people were left 
homeless and many lives were lost. Most, if not all, East-West commerce 
was stopped and it adversely affected the economy and the environment 
of our Nation. After that devastating event Congress in its infinite 
wisdom passed a bill and established the Mississippi River and 
Tributaries Project and authorized the U. S. Army Corps of Engineers to 
develop a plan to prevent such a disaster in the future. This project 
currently is a separate line item in the budget. To remove it will 
destroy the continuity of this high value and much needed project.
    To date the MR&T Project has prevented flood damages and provided 
other benefits resulting in a current benefit/cost ratio of over $44 to 
$1. Truly this is a wise investment for our Nation. Likewise, countless 
lives have been spared due to the construction of this great project. 
Also, our Nation receives nearly one billion dollars of navigational 
benefits each year due to this project. It is readily seen this project 
had merit from the beginning and continues to reward the citizens not 
only of the valley itself but the citizens of the entire Nation. It is 
a wise investment for this country and it is good for our economy. It 
will be a vital link to the defense of our Nation in the event of an 
attack by our enemies. This project must be targeted for swift 
completion and then properly maintained. What an investment for our 
great Nation this project has been! Find any other project of any 
nature which approaches this ratio.
    The performance of the comprehensive Mississippi River and 
Tributaries system and the Ohio Valley reservoir system during the 2011 
flood on the lower Mississippi River validates the wise investment the 
Nation made to prevent another calamitous natural disaster like the 
1927 flood, the devastating event that changed America and forcibly 
unified its people to support protection of lives and property from the 
fury of the river. The MR&T system performed as designed, despite 
rainfall exceeding 600 to 1,000 percent of the normal average rainfall 
in a two-week period from April 21-May 3 over a significant portion of 
six States that coincided with the arrival of the upper Mississippi 
spring snowmelt crest. The significant flood event established many new 
record discharges and stages along the lower Ohio and Mississippi 
rivers. Unlike the 2011 flood, the Mississippi River during the 
benchmark and calamitous Great Flood of 1927 inundated most of the 
alluvial valley. Like the toppling of a series of dominoes, one 
overmatched levee after another burst under the unprecedented pressure 
exerted by the swollen river.
    At a time when we need to stimulate our economy, at a time that 
safety from terrorist activities needs to be enhanced and at a time 
that many in our Nation are concerned about cleaner air, cleaner water, 
etc., we have a great opportunity to meet those needs. We must make 
sound investments into our infrastructure which will give back more 
monies to the taxpayers of this country than was invested while at the 
same time increasing our defense capabilities should our Nation be 
attacked from an outside force.
    Local interests have done their part in providing rights of way, 
roads, utilities and the like. Our Government now needs to fulfill 
their obligatory part of the project and bring it to completion as 
quickly as possible.
    We believe the Corps could adequately use 500 million dollars each 
year for maintenance and construction within the MR&T. We realize there 
are budgetary restraints this year and respectively request Congress to 
approve adequate funding for maintenance and construction for the MR&T. 
The MR&T improvements I have talked about thus far have been the 
benefits for flood control. However, these benefits are also realized 
during the low flow event currently being experienced on the 
Mississippi River. The hydraulic improvements that allowed a record 
flood event to pass at a 0.8 foot lower elevation in 2011 than in 1937, 
also allow barge traffic and a near record low event experienced in 
2012. If it were not for the MR&T system improvements barge traffic 
during the 2012 low water event would have been nonexistent.
    We thank you again for your understanding of our needs and the 
importance of the MR&T system by not allowing FEMA to charge mandatory 
flood insurance as defined below:

SEC. 107. MANDATORY COVERAGE AREAS.
    (a) Special Flood Hazard Areas.--Not later than 90 days after the 
date of enactment of this Act, the Director shall issue final 
regulations establishing a revised definition of areas of special flood 
hazards for purposes of the National Flood Insurance Program.
    (b) Residual Risk Areas.--The regulations required by subsection 
(a) shall--
          (1) include any area previously identified by the Director as 
        an area having special flood hazards under section 102 of the 
        Flood Disaster Protection Act of 1973 (42 U.S.C. 4012a); and
          (2) require the expansion of areas of special flood hazards 
        to include areas of residual risk, including areas that are 
        located behind levees, dams, and other man-made structures.
    (c) Mandatory Participation in National Flood Insurance Program.--
          (1) In general.--Any area described in subsection (b) shall 
        be subject to the mandatory purchase requirements of sections 
        102 and 202 of the Flood Disaster Protection Act of 1973 (42 
        U.S.C. 4012a, 4106).
          (2) Limitation.--The mandatory purchase requirement under 
        paragraph (1) shall have no force or effect until the mapping 
        of all residual risk areas in the United States that the 
        Director determines essential in order to administer the 
        National Flood Insurance Program, as required under section 19, 
        are in the maintenance phase.

    Thank you for understanding the tremendous negative impact this 
piece of legislation would have had on the entire Mississippi River 
Valley. Billions of dollars already spent on flood control structures 
would be negated because of needless MANDATORY flood insurance 
premiums. Please remember the 1928 flood control act recognizes the 
investment of the local people by initial construction and taxation of 
themselves for maintenance. This investment was over 200 million 
dollars in 1928 and totals more than 17 billion dollars today. Making 
the total investment in the MR&T over 30 billion dollars. Because of 
this, it is still necessary to discuss the new policies being 
implemented by the Federal Emergency Management Agency in their Map 
Modernization Program.
    The policy creates a New Zone ``X'' (shaded) designated area. This 
new designation shows all areas behind a levee as an unsafe place to 
live and recommends, among other things, an evacuation plan and flood 
insurance.
    This designation renders all work done by local and Federal 
organizations for the last 100 years, useless. Even if our levees are 
Federal Levees and have received an outstanding maintenance award 
through the U.S. Army Corps of Engineers inspection process, this Zone 
``X'' (shaded) designation will be placed on all new flood maps. This 
will needlessly destroy economic development for over 22,000,000 acres 
of land in this country. Please put a stop to this new Zone ``X'' 
(shaded) designation. Please do not use a ``one size fits all'' 
approach and place false fear in the minds of people living behind 
levees. The insurance industry would love nothing more than the ability 
to collect flood insurance premiums without the possibility of paying 
claims because of the hard work of the U.S. Army Corps Of Engineers and 
local levee and drainage districts across this country.
    With the tragedy that struck the Gulf Coast and East Coast, we must 
now turn our attention to the future and attempt to make certain that 
at least the flooding does not take place again. We can prevent that; 
the Dutch, the English and the Italian have done it and so can we if we 
treat flood control as something that we must do. The citizens of this 
great Nation deserve it.
    There are four anomalies of nature that cause death and destruction 
to our Nation. They are (1) earthquakes, (2) hurricanes, (3) tornadoes 
and (4) floods. The first three we can do very little if anything about 
except to prepare for the worst. We can build protection against 
floods, against the ``maximum probable flood'', one that has an 
``improbable occurrence but nevertheless a remotely possible one''.
    In order to provide such protection we believe that three things 
must be done. First, the environmental laws, or at least the way they 
are interpreted for flood control projects, must be changed or we stand 
to lose more lives and have another absolute environmental catastrophe 
such as the one we have witnessed in New Orleans and along the Gulf 
Coast. Second, cancel all cost-sharing for flood control projects 
unless we do intend to only protect those that can afford it and ignore 
those that can not. Third, relax the requirements for the benefit to 
cost ratio for flood control projects for one reason, it is impossible 
to assign a dollar value to a human life. It is our opinion that these 
things must be done, for without flood control, nothing else really 
matters. I close with a simple reminder. The MR&T system is not 
complete and therefore will not pass the Project Design Flood! Thank 
you for your leadership and the resulting 100's of billions of dollars 
averted because you supported and funded the greatest civil works 
project on the planet . . . the MR&T!
                                 ______
                                 
              Prepared Statement of the Port of Harlingen
    We express full support of the inclusion in the fiscal year 2014 
budget for the full capability of the USACE of $2 Million--$O&M.
                         history and background
    The Port of Harlingen Authority is a Navigation District of the 
State of Texas. The Port of Harlingen is located on the Arroyo Colorado 
River and Farm Road 106, on the eastern city limits of the City of 
Harlingen. The channel connecting the Arroyo Colorado with the Gulf 
Intracoastal Waterway was completed and dedicated on February 27, 1952. 
It is 12 feet deep and 125 feet wide and has a turning basin measuring 
400 by 600 feet. By 1962 the port was handling $2.5 million in 
commerce. In 1983 commodity shipments amounted to 455,430 short tons, 
and by 1984 they increased to 801,003 short tons, with the port housing 
ten industries with commercial leases. In 1989 the Port of Harlingen 
handled 728,954 short tons of cargo. In 2009 the Port Harlingen handled 
882,769 tons of cargo. In 2010 the port handled 972,236 tons of cargo. 
In 2011 the port handled 1,101,096 tons of cargo. In 2012 the Port of 
Harlingen handled 997,823 tons of cargo.
    The port is located four miles east of the City of Harlingen, Texas 
on Highway 106. It is 25 miles west of Mile Marker 646 on the Gulf 
Intracoastal Waterway, which stretches from the Mexican border at 
Brownsville, Texas, along the entire coast of the Gulf of Mexico to St. 
Marks, Florida. The Gulf Intracoastal Waterway provides over 1,300 
miles of protected waterway. The Harlingen channel is maintained to a 
width of 125 feet and a depth of 12 feet and is supplied by the Arroyo 
Colorado, a fresh water river.
                          project description
    The project is located in the vicinity of Rio Hondo and the east 
side of the City of Harlingen in Cameron and Willacy Counties, Texas. 
The project consists of a channel 25.8 miles long. The channel extends 
with the main channel of the GIWW through the Arroyo Colorado to the 
turning basin at Harlingen. It also included a barge-mooring basin near 
the channel's junction with the GIWW. Authorized channel dimensions are 
12 by 125. 100 percent of all the sugar grown in the entire Rio 
Grande Valley (RGV) in south Texas is exported exclusively via the Port 
of Harlingen to a location on the Mississippi River, 95 percent of all 
commercial fertilizer products needed by all agricultural interests in 
the entire RGV of south Texas are imported via the Port of Harlingen 
and 70 percent of all gasoline products for the entire Rio Grande 
Valley (RGV) of south Texas is shipped through the Port of Harlingen. 
The Port of Harlingen also handles cement, sand, aggregates, building 
materials, roadway materials, ethanol, Anhydrous Ammonia, cotton, 
sorghum and other agricultural products. Maintenance of the project to 
authorized dimensions is a Federal responsibility. Safe and efficient 
commercial navigation is of national interest. The inability to 
maintain the project at authorized depths will cause safety hazards and 
severe economic loss to the agricultural, construction and 
petrochemical industries in the entire Rio Grande Valley south Texas 
region.
                economic impact of the port of harlingen
    The Port of Harlingen provides efficient and economical 
transportation to points as close as Corpus Christi and as far as the 
Great Lakes. Terminals, warehouses, docks and other facilities ease 
shipments into and out of the Port of Harlingen, and over 150 acres of 
on-and-off channel sites are available for industrial firms requiring 
economical transportation and attractive land lease rates. The port is 
also an important link in the comprehensive transportation network of 
the Rio Grande Valley of Texas. The Union Pacific Rail Road (UPRR) and 
Burlington Northern Santa Fe (BNSF) serve the port and keep products 
moving to Texas locations and throughout the U.S. and Mexico. 
Additionally, as was stated in the project description above, 100 
percent of all the sugar grown in the entire Rio Grande Valley (south 
Texas) is shipped exclusively via the Port of Harlingen to New Orleans 
on the Mississippi River, 95 percent of all commercial fertilizer 
products consumed by the various agricultural interests in the entire 
RGV are imported via the Port of Harlingen and 70 percent of all 
gasoline products consumed in the entire RGV for south Texas is shipped 
through the Port of Harlingen.
                     community and industry support
    One industry the Port of Harlingen is involved in is sugar. The 
Port of Harlingen Authority built a $3,800,000 dollar sugar transfer 
warehouse to load barges of sugar for shipment to New Orleans, 
Louisiana. The Port of Harlingen has shipped as much as 172,000 short 
tons of sugar to Louisiana in in any given year. The RGV Sugar Industry 
cannot ship raw sugar by rail or truck because it is not cost effective 
and the finish mills in Louisiana are not capable of receiving raw 
sugar by rail. Instead the raw sugar is shipped exclusively by barge. 
To ship the sugar by truck would take over 6,878 truckloads at four 
times the cost. If this occurs, recent economic studies have determined 
that it would put the RGV Sugar Industry out of business.
    Additional industries and tenants present at the Port are: NuStar 
Energy, Helena Chemical Company, CEMEX, Crop Production Services, 
Favelle Favco Cranes, Gavilon Grain, Harlingen Cotton Gin, RGV Gin 
Company, Rio Grande Valley Sugar Growers Inc., Wilbur Ellis, RGV Sand 
Pit, RGV Mobile Concrete, Chalico Concrete Materials (CCM) and 
Earthwise Organics which have facilities at the port or downstream. 
CEMEX also has a terminal at the port that handles much needed concrete 
sand shipped from Victoria Texas and Cement shipped in from Mexico.
    NuStar Energy Corporation actively receives all three grades of 
automotive gasoline, ultra-low sulfur diesel and ethanol at the Port of 
Harlingen by barge. The opportunity to import jet fuel via barge for 
the three International Airports located in the RGV is currently being 
explored. Container on barge is another opportunity being examined.
    The Port of Harlingen also exports grain, sorghum, ultra-low sulfur 
diesel and liquid fertilizer to Mexico. The Port of Harlingen also 
provided all of the roadway building materials and cement used by the 
wind turbine farm developers in the region resulting in a 300 percent 
increase in such tonnage in fiscal year 2012.
         what we need from the subcommittee in fiscal year 2014
    Maintenance dredging of this channel is a Federal responsibility. 
As deliberations on the Energy and Water Subcommittee on Appropriations 
commence, we would appreciate your help in securing the Corps 
capability of $2 Million so that this project can move forward and 
ensure that the Gulf Intracoastal Waterway--Port of Harlingen receive 
essential maintenance dredging at the federally authorized depth.
                                 ______
                                 
         Prepared Statement of the Red River Valley Association
    Mr. Chairman and members of the Committee, I am Dan York, RRVA 
President, and pleased to represent the Red River Valley Association, 
629 Spring St., Shreveport, Louisiana. Our organization was founded in 
1925 with the express purpose of uniting the citizens of Arkansas, 
Louisiana, Oklahoma and Texas to develop the land and water resources 
of the Red River Basin.
    The resolutions contained herein were adopted by the Association 
during its 88th Annual Meeting in Shreveport, Louisiana, on February 
21, 2013, and represent the combined concerns of the citizens of the 
Red River Basin area as they pertain to the goals of the Association. A 
summary of the civil works projects and requested funding is included 
in this testimony.
    The President's fiscal year 2014 budget included $4.826 billion for 
the civil works programs. The Administration fails to recognize the 
Corps' critical role as stewards of our Nation's water resources, and 
the vital importance of our water resources infrastructure to our 
economic and environmental well-being. The problem is also how the 
Administration distributes funds. A few projects received the full 
`Corps Capability' to the detriment of many projects that receive 
reduced or no funding. This funding level does not come close to the 
real needs of our Nation. A more realistic funding level to meet the 
existing needs of the civil works program is $6 billion for fiscal year 
2014. The traditional civil works programs remain at the low, 
unacceptable level as in past years. These projects are the backbone to 
our Nation's infrastructure for waterways, flood prevention, water 
supply, recreation and ecosystem restoration. We remind you that civil 
works projects are a true `jobs program' in that up to 85 percent of 
project construction funding is contracted to the private sector; 100 
percent of the construction, as well as much of the architect and 
engineering work. Not only do these projects provide jobs, but provide 
economic development opportunities for our communities to grow and 
prosper, creating permanent jobs. We encourage Congress to increase the 
`water' share of the total Energy and Water Bill closer to the $6 
billion Corps capability.
    We have great concerns over the issue of `earmarks'. Civil Works 
projects are not earmarks! Civil Works projects go through a process; 
reconnaissance study, feasibility study, benefit to cost ratio test, 
EIS, peer review, review by agencies, public review and comment, final 
Chief of Engineer approval, authorization by all of Congress in a WRDA 
bill and signed by the President. In the opinion of most people at the 
local level no other Federal program goes through such a rigorous 
approval process. Each justified project `stands alone', are proven to 
be of national interest and should be funded by project. For most 
projects there is local sponsor cost sharing during the feasibility 
study, construction and for O&M. Those who have contributed, in most 
cases--millions of dollars--to the process, must have the ability to 
have a say for their projects to get funded. That voice is through 
their Congressional delegation. We believe that earmarks are not in the 
national interest, but it does not pertain to the civil works program. 
For civil works it is an issue of priority of projects to be funded and 
who will determine that, OMB or Congress! We hope Congress takes back 
their responsibility to set civil works priorities and to determine how 
its citizens' tax dollars are spent.
    I would now like to comment on some of our specific requests for 
the future economic well being of the citizens residing in the four 
State Red River Basin regions.
    Navigation.--The J. Bennett Johnston Waterway is living up to the 
expectations of the benefits projected. We are extremely proud of our 
public ports, municipalities and State agencies that have created this 
success. This upward `trend' in usage will continue as new industries 
commence operations. A major German company, Benteler Steel/Tube, 
announced it will construct a $900 million pipe facility at the Caddo-
Bossier Port. The facility will have 675 permanent employees. This 
project is proof of the Waterway growth as is the fact that there are 
many more industries considering using our Waterway and locating at the 
public ports.
    We have a serious issue with the J. Bennett Johnston Waterway O&M 
in the President's budget. The Administration allocated $8,795,000 for 
fiscal year 2014. With 5 percent sequestration applied, it results in 
less funding than received in fiscal year 2013. This reduction from the 
$10,500,000 required for basic annual O&M needs will directly impact 
the ability to conduct maintenance dredging and the authorized 9 by 
200 channel will not be maintained. If the required funding level of 
at least $10.5 million is not appropriated the Waterway may actually 
shut down to all traffic and industry will see the Waterway as 
unreliable and choose alternative modes of transportation, impacting 
ports and jobs.
    The Inland Marine Transportation System (IMTS), an internal Corps 
organization, is implementing a `lock level of service' mandate. This 
mandate will determine the hours of operations at each lock based on 
annual commercial lockages. What is upsetting is that this mandate was 
devised internal to the Corps of Engineers with no input from industry 
or local sponsors. This mandate will impact the reliability of 
waterways creating a downward spiral of users insuring the failure of 
connecting waterways. The J. Bennett Johnston Waterway was authorized 
into law and required to operate 24 hours, 7 days a week, 365 days a 
year, with a 9 by 200 channel. We believe the Federal Government has 
an obligation to operate and maintain this Waterway as directed by law.
    Red River Navigation into SW Arkansas Feasibility Study.--This 
region of SW Arkansas and NE Texas continues to suffer major 
unemployment and this navigation project, although not the total 
solution will help revitalize the economy. Due to the time lapsed in 
the study the `freight rates' calculated a number of years ago must be 
re-evaluated. To date the local sponsor, Arkansas Red River Commission, 
has invested over $4 million, to cost share in this study. Since no 
funding has been appropriated for this study the Commission has 
provided $1 million to the Corps in `contributed funds' to conduct a 
full investigation to insure all benefits have been identified. This 
feasibility study has been ongoing for over 10 years and the Commission 
is making every effort to bring it to a successful conclusion. The 
Administration and Congress need to make the Federal contribution and 
the same commitment the local sponsor and State of Arkansas have made.
    Flood Prevention.--What will happen when we ignore our levee 
systems? We know the Red River levees in Arkansas do not meet Federal 
standards, which is why we have the authorized project, `Red River 
Below Denison Dam, TX, AR & LA'. Now is the time to bring these levees 
up to standards, before a major flood event.
    We continue to consider flood control a major objective and request 
you continue funding the levee rehabilitation projects ongoing in 
Arkansas. Five of eleven levee sections have been completed and brought 
to Federal standards. The Red River Levee District (AR) is prepared to 
provide lands, easements and rights of way for the next major 
rehabilitation of the Lafayette County levees.
    The levees in Louisiana have been incorporated into the Federal 
system; however, they do not meet current safety standards. These 
levees do not have a gravel surface roadway, threatening their 
integrity during times of flooding. It is essential for personnel to 
traverse the levees during a flood to inspect them for problems. 
Without the gravel surface the vehicles will cause rutting, which can 
create conditions for the levees to fail. A gravel surface will insure 
inspection personnel can check the levees during the saturated 
conditions of a flood.
    Bank Stabilization.--One of the most important, continuing 
programs, on the Red River is bank stabilization in SW Arkansas and 
North Louisiana under the authorized project--Red River Emergency Bank 
Protection. We must stop the loss of valuable farmland that erodes down 
the river and interferes with the navigation channel. In addition to 
the loss of farmland is the threat to public utilities such as levees, 
roads, electric power lines and bridges, as well as increased dredging 
cost in the navigable waterway in Louisiana. These bank stabilization 
projects are compatible with subsequent navigation into Arkansas and we 
urge that they be continued in those locations designated by the Corps 
of Engineers to be the areas of highest priority.
    Water Quality.--The Assistant Secretary of the Army (Civil Works), 
in October 1998, agreed to support a re-evaluation of the Wichita River 
Basin tributary of the Chloride Control Project. The re-evaluation 
report was completed and the Director of Civil Works signed the 
Environmental Record of Decision. The plan was found to be economically 
justified. Then the ASA (CW) directed that construction would not 
proceed until a local sponsor was found to assume 100 percent of the 
O&M for the project. The 2007 WRDA Bill included language that 
clarified that all aspects of this project will be at full Federal 
expense, to include O&M. Over the past years there has been a renewed 
interest by the Lugart-Altus Irrigation District to evaluate 
construction of Area VI, of the Chloride Control Project, in Oklahoma. 
They have obtained the support of many State and Federal legislators, 
as well as the Oklahoma Governor in support of a re-evaluation report.
    A private company, Good Earth Mechanics (GEM) has proposed a 
private venture to install `solar ponds' to generate base load, 
renewable energy. They are working with the US Air Force and US Army to 
secure long term power contracts. This initiative (no Government 
funding) could use all the salt water from the Texas and Oklahoma 
sources, which would greatly reduce the overall project cost. It is 
truly a win-win proposition.
    The western areas of Texas and Oklahoma are water deprived and 
sorely need the Chloride Control Project. The need for water quality 
and quantity will increase over time and this project will address 
those needs, as long as Federal funding is appropriated to keep the 
project moving ahead.
    Project Funding Requests.--Included in this testimony are tables 
displaying the civil works projects in the Red River Valley and the 
appropriation needs for fiscal year 2013.
    Thank you for the opportunity to present this testimony and project 
details of the Red River Valley Association on behalf of the 
industries, organizations, municipalities and citizens we represent 
throughout the four State Red River Valley region. The Civil Works 
program directly relates to national security by investing in economic 
infrastructure. If waterways are closed companies will not relocate to 
other parts of the country--they will move over seas. If we do not 
invest now there will be a negative impact on our ability to compete in 
the world market threatening our national security.

                      RED RIVER O&M PROJECTS ($000)
------------------------------------------------------------------------
                                               RRVA Fiscal    President
            Project              Fiscal Year    Year 2014    Fiscal Year
                                    2013         Request        2014
------------------------------------------------------------------------
DE Queen Lake, AR.............         1,870         3,393         1,902
Dierks Lake, AR...............         1,567         2,213         1,586
Gillham Lake, AR..............         1,463         1,437         1,735
Millwood Lake, AR.............         2,680         6,690         2,706
Bayou Bodcau Reservoir, LA....         1,041         1,891         1,204
Bayou Pierre, LA..............            24            36            23
Caddo Lake, LA................           216           522           207
Wallace Lake, LA..............           232           997           222
J. Bennett Johnston Waterway,          8,434        25,633         8,795
 LA...........................
    Basic Annual O&M..........  ............        12,230  ............
    Backlog Maintenance.......  ............        13,403  ............
Old River, LA (MR&T)..........         8,050        21,647         8,118
Broken Bow Lake, OK...........         2,425         7,025         5,704
Hugo Lake, OK.................         1,716         1,716         2,866
Pine Creek Lake, OK...........         1,053         1,053         1,279
Sardis Lake, OK...............         3,801         3,801         1,412
Waurika Lake, OK..............         1,616         1,616         1,340
Chloride Control, Area VIII,           1,529         1,529         1,591
 TX...........................
Denison Dam & Lake Texoma, TX.         7,137        13,837        11,227
    Basic Annual O&M..........  ............         6,393  ............
    Backlog Maintenance.......  ............         7,444  ............
Estelline Springs, TX.........            42            42            43
Lake Kemp, TX--Total Need.....           241           241           285
Pat Mayse Lake, TX............         1,148         2,421         1,004
Jim Chapman Lake, TX..........         1,736         4,553         1,758
Lake of the Pines, TX.........         3,529         8,848         3,400
Wright Patman Dam & Lake, TX..         3,513        12,888         4,511
------------------------------------------------------------------------

    Note.--Budget allocations shown do not include 5 percent sequester 
reductions.

    RED RIVER GENERAL INVESTIGATION (GI) & CONSTRUCTION GENERAL (CG)
                             PROJECTS ($000)
------------------------------------------------------------------------
                                Fiscal Year    RRVA Fiscal    President
                                    2013        Year 2014    Fiscal Year
                               Appropriation     Request     2014 Budget
------------------------------------------------------------------------
I. Studies (GI):
     1. Navigation into SW     .............           302  ............
     Arkansas: Feasibility...
     2. Red River Waterway,    .............           100  ............
     LA--12 Channel, Recon...
     3. Bossier Parish, LA...  .............           270  ............
     4. Cross Lake, LA Water   .............  ............  ............
     Supply Supplement.......
     5. SE Oklahoma Water      .............           500  ............
     Resource Study:
     Feasibility.............
     6. Washita River Basin,   .............           500  ............
     OK......................
     7. SW Arkansas Ecosystem  .............            47  ............
     Restoration: Recon Study
     8. Cypress Valley         .............           175  ............
     Watershed, TX...........
     9. Sulphur River Basin,   .............         1,000  ............
     TX......................
    10. Wichita River Basin    .............           100  ............
     above Lake Kemp, TX:
     Recon...................
    11. Red River Above        .............           100  ............
     Denison Dam, TX & OK:
     Recon...................
    12. Red River Waterway,    .............           100  ............
     Index, AR to Denison Dam
    13. Mountain Fork River    .............  ............  ............
     Watershed, OK & AR,
     Recon...................
    14. Walnut Bayou, Little   .............           100  ............
     River, AR...............
    15. Little River County/   .............           100  ............
     Ogden Levee, AR, Recon..
    16. Red River Waterway,    .............  ............  ............
     Index to Denison,
     Bendway.................
 
II. Construction General
 (CG):
    1. Red River Waterway: J.          2,000        22,000  ............
     B. Johnston Waterway, LA
    2. Chloride Control        .............         8,500  ............
     Project, TX & OK........
        Texas--7,500.........  .............         7,200  ............
        Oklahoma--800........  .............         1,300  ............
    3. Red River Below                    90        18,000  ............
     Denison Dam; AR & LA....
        a. Bowie County        .............  ............  ............
         Levee, TX...........
    4. Red River Emergency     .............        20,000  ............
     Bank Protection.........
    5. McKinney Bayou, AR,     .............  ............  ............
     PED.....................
 
III. Continuing Authority
 Program (CAP):
    1. Big Cypress Valley      .............  ............  ............
     Watershed, TX: Section
     1135....................
    2. Palo Duro Creek,        .............           100  ............
     Canyon, TX: Section 205.
    3. Millwood, Grassy Lake,  .............           100  ............
     AR: Section 1135........
    4. Miller County Levee,    .............  ............  ............
     AR, Sec 1135............
------------------------------------------------------------------------

    Grant Disclosure.--The Red River Valley Association has not 
received any Federal grant, sub-grant or contract during the current 
fiscal year or either of the two previous fiscal years.
    Please direct your comments and questions to our Executive 
Director, Richard Brontoli, E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f3d2a2b3d26392a3d392e0f27203b222e2623612c2022">[email&#160;protected]</a>, P.O. Box 
709, Shreveport, LA 71162.
                                 ______
                                 
     Prepared Statement of the Yazoo-Mississippi Delta Levee Board
    This is a reminder to the U.S. Senate Appropriations Subcommittee 
on Energy and Water Development of the Mississippi River and 
Tributaries (MR&T) system performance in 2011and 2012. The investment 
protected by the MR&T system during the 2011 flood was $234 billion 
with cumulative damages prevented by the MR&T system being $612 billion 
and a return on Federal investment of 44 to 1. These prevented damages 
do not include the return for low water benefits. The hydraulic 
improvements made by the construction of dikes, cutoffs and channel 
improvements that allowed a record flood by volume to flow at a lower 
elevation, are the same improvements that allowed barge traffic to move 
during the near record lows experienced throughout the Mississippi 
River in 2012. Because of these facts we respectfully request an 
appropriation in the sum of $500 million for the Mississippi River and 
Tributaries Project.
    First, let me thank the Congress for the support and funding you 
have provided in the past. This funding proves your awareness of the 
importance of flood control projects throughout the Mississippi River 
Valley.
    The Mississippi River and Tributaries Project was authorized 
following a record flood in 1927 that inundated more than 26,000 square 
miles of the Mississippi River Valley. Over 700,000 people were left 
homeless and many lives were lost. Most, if not all, East-West commerce 
was stopped and it adversely affected the economy and the environment 
of our Nation. After that devastating event Congress in its infinite 
wisdom passed a bill and established the Mississippi River and 
Tributaries Project and authorized the U. S. Army Corps of Engineers to 
develop a plan to prevent such a disaster in the future. This project 
currently is a separate line item in the budget. To remove it will 
destroy the continuity of this high value and much needed project.
    To date the MR&T Project has prevented flood damages and provided 
other benefits resulting in a current benefit/cost ratio of over $44 to 
$1. Truly this is a wise investment for our Nation. Likewise, countless 
lives have been spared due to the construction of this great project. 
Also, our Nation receives nearly one billion dollars of navigational 
benefits each year due to this project. It is readily seen this project 
had merit from the beginning and continues to reward the citizens not 
only of the valley itself but the citizens of the entire Nation. It is 
a wise investment for this country and it is good for our economy. It 
will be a vital link to the defense of our Nation in the event of an 
attack by our enemies. This project must be targeted for swift 
completion and then properly maintained. What an investment for our 
great Nation this project has been! Find any other project of any 
nature which approaches this ratio.
    The performance of the comprehensive Mississippi River and 
Tributaries system and the Ohio Valley reservoir system during the 2011 
flood on the lower Mississippi River validates the wise investment the 
Nation made to prevent another calamitous natural disaster like the 
1927 flood, the devastating event that changed America and forcibly 
unified its people to support protection of lives and property from the 
fury of the river. The MR&T system performed as designed, despite 
rainfall exceeding 600 to 1,000 percent of the normal average rainfall 
in a two-week period from April 21-May 3 over a significant portion of 
six States that coincided with the arrival of the upper Mississippi 
spring snowmelt crest. The significant flood event established many new 
record discharges and stages along the lower Ohio and Mississippi 
rivers. Unlike the 2011 flood, the Mississippi River during the 
benchmark and calamitous Great Flood of 1927 inundated most of the 
alluvial valley. Like the toppling of a series of dominoes, one 
overmatched levee after another burst under the unprecedented pressure 
exerted by the swollen river.
    At a time when we need to stimulate our economy, at a time that 
safety from terrorist activities needs to be enhanced and at a time 
that many in our Nation are concerned about cleaner air, cleaner water, 
etc., we have a great opportunity to meet those needs. We must make 
sound investments into our infrastructure which will give back more 
monies to the taxpayers of this country than was invested while at the 
same time increasing our defense capabilities should our Nation be 
attacked from an outside force.
    Local interests have done their part in providing rights of way, 
roads, utilities and the like. Our Government now needs to fulfill 
their obligatory part of the project and bring it to completion as 
quickly as possible.
    We believe the Corps could adequately use 500 million dollars each 
year for maintenance and construction within the MR&T. We realize there 
are budgetary restraints this year and respectively request Congress to 
approve adequate funding for maintenance and construction for the MR&T. 
The MR&T improvements I have talked about thus far have been the 
benefits for flood control. However, these benefits are also realized 
during the low flow event currently being experienced on the 
Mississippi River. The hydraulic improvements that allowed a record 
flood event to pass at a 0.8 foot lower elevation in 2011 than in 1937, 
also allow barge traffic and a near record low event experienced in 
2012. If it were not for the MR&T system improvements barge traffic 
during the 2012 low water event would have been nonexistent.
    We thank you again for your understanding of our needs and the 
importance of the MR&T system by not allowing FEMA to charge mandatory 
flood insurance as defined below:

SEC. 107. MANDATORY COVERAGE AREAS.
    (a) Special Flood Hazard Areas.--Not later than 90 days after the 
date of enactment of this Act, the Director shall issue final 
regulations establishing a revised definition of areas of special flood 
hazards for purposes of the National Flood Insurance Program.
    (b) Residual Risk Areas.--The regulations required by subsection 
(a) shall--
          (1) include any area previously identified by the Director as 
        an area having special flood hazards under section 102 of the 
        Flood Disaster Protection Act of 1973 (42 U.S.C. 4012a); and
          (2) require the expansion of areas of special flood hazards 
        to include areas of residual risk, including areas that are 
        located behind levees, dams, and other man-made structures.
    (c) Mandatory Participation in National Flood Insurance Program.--
          (1) In general.--Any area described in subsection (b) shall 
        be subject to the mandatory purchase requirements of sections 
        102 and 202 of the Flood Disaster Protection Act of 1973 (42 
        U.S.C. 4012a, 4106).
          (2) Limitation.--The mandatory purchase requirement under 
        paragraph (1) shall have no force or effect until the mapping 
        of all residual risk areas in the United States that the 
        Director determines essential in order to administer the 
        National Flood Insurance Program, as required under section 19, 
        are in the maintenance phase.

    Thank you for understanding the tremendous negative impact this 
piece of legislation would have had on the entire Mississippi River 
Valley. Billions of dollars already spent on flood control structures 
would be negated because of needless MANDATORY flood insurance 
premiums. Please remember the 1928 flood control act recognizes the 
investment of the local people by initial construction and taxation of 
themselves for maintenance. This investment was over 200 million 
dollars in 1928 and totals more than 17 billion dollars today. Making 
the total investment in the MR&T over 30 billion dollars. Because of 
this, it is still necessary to discuss the new policies being 
implemented by the Federal Emergency Management Agency in their Map 
Modernization Program.
    The policy creates a New Zone ``X'' (shaded) designated area. This 
new designation shows all areas behind a levee as an unsafe place to 
live and recommends, among other things, an evacuation plan and flood 
insurance.
    This designation renders all work done by local and Federal 
organizations for the last 100 years, useless. Even if our levees are 
Federal Levees and have received an outstanding maintenance award 
through the U.S. Army Corps of Engineers inspection process, this Zone 
``X'' (shaded) designation will be placed on all new flood maps. This 
will needlessly destroy economic development for over 22,000,000 acres 
of land in this country. Please put a stop to this new Zone ``X'' 
(shaded) designation. Please do not use a ``one size fits all'' 
approach and place false fear in the minds of people living behind 
levees. The insurance industry would love nothing more than the ability 
to collect flood insurance premiums without the possibility of paying 
claims because of the hard work of the U.S. Army Corps of Engineers and 
local levee and drainage districts across this country.
    With the tragedy that struck the Gulf Coast and East Coast, we must 
now turn our attention to the future and attempt to make certain that 
at least the flooding does not take place again. We can prevent that; 
the Dutch, the English and the Italian have done it and so can we if we 
treat flood control as something that we must do. The citizens of this 
great Nation deserve it.
    There are four anomalies of nature that cause death and destruction 
to our Nation. They are (1) earthquakes, (2) hurricanes, (3) tornadoes 
and (4) floods. The first three we can do very little if anything about 
except to prepare for the worst. We can build protection against 
floods, against the ``maximum probable flood'', one that has an 
``improbable occurrence but nevertheless a remotely possible one''.
    In order to provide such protection we believe that three things 
must be done. First, the environmental laws, or at least the way they 
are interpreted for flood control projects, must be changed or we stand 
to lose more lives and have another absolute environmental catastrophe 
such as the one we have witnessed in New Orleans and along the Gulf 
Coast. Second, cancel all cost-sharing for flood control projects 
unless we do intend to only protect those that can afford it and ignore 
those that can not. Third, relax the requirements for the benefit to 
cost ratio for flood control projects for one reason, it is impossible 
to assign a dollar value to a human life. It is our opinion that these 
things must be done, for without flood control, nothing else really 
matters. I close with a simple reminder. The MR&T system is not 
complete and therefore will not pass the Project Design Flood! Thank 
you for your leadership and the resulting 100's of billions of dollars 
averted because you supported and funded the greatest civil works 
project on the planet . . . the MR&T!

                          DEPARTMENT OF ENERGY

 Prepared Statement of the American Association of Petroleum Geologists
    To the chair and members of the subcommittee: Thank you for this 
opportunity to provide testimony on the importance and need for strong 
Federal R&D efforts in the fields of oil and natural gas, coal, and 
geothermal technologies. These activities reside in the U.S. Department 
of Energy's fossil energy program (oil, natural gas, coal) and energy 
efficiency and renewable energy program (geothermal). They are an 
essential investment in this Nation's energy security.
    The American Association of Petroleum Geologists (AAPG) is the 
world's largest scientific and professional geological association. The 
purpose of AAPG is to advance the science of geology, foster scientific 
research, and promote technology. AAPG has over 38,000 members around 
the world, with nearly two-thirds living and working in the United 
States. These are the professional geoscientists in industry, 
government and academia who practice, regulate and teach the science 
and process of finding and producing energy resources from the Earth.
    AAPG strives to increase public awareness of the crucial role that 
geosciences, and particularly petroleum geology play in energy security 
and our society.
    You are certainly aware of how oil and gas from shales has quickly 
boosted domestic energy production, adding well-paying jobs, 
stimulating manufacturing and enhancing U.S. energy security. This 
energy renaissance would not have been possible without fossil energy 
R&D, started in the 1970s at the DOE's predecessor agency, the Energy 
Research and Development Administration (ERDA).
    Methane hydrates could well represent the next energy frontier. 
Methane is the predominant component of natural gas and hydrates in 
artic sediments and in sediments of the Outer Continental Shelf hold 
vast quantities of this potential resource. The DOE fossil energy 
program began research on methane hydrates in 1997, when methane 
hydrates were only a scientific curiosity. By the winter of 2011-2012, 
the DOE, in partnership with ConocoPhillips and Japan Oil, Gas and 
Metals National Corporation (JOGMEC), successfully completed a research 
well on the Alaska North Slope to produce experimental quantities of 
methane from subsurface hydrates.
    Building on the lessons learned at the Alaska well, Japan 
successfully extracted methane from hydrate deposits offshore Japan in 
early March of this year. Funding of the DOE methane hydrate program at 
an annual level of $40 to $50 million would help move this novel, 
potential energy source toward commercialization. U.S. scientists lead 
the world in scientific understanding of this resource and continued 
Federal R&D support will enable us to remain at the forefront of 
developing this novel resource.
    What is frequently misunderstood, however, is that the Federal 
energy R&D investment cannot be solely focused on new and alternative 
energy sources. Growing domestic production from shales, is resulting 
in on-going improvements in efficiency and environmental safety. But 
fully realizing the potential of these resources for the benefit of 
U.S. consumers requires additional scientific insights and 
technological breakthroughs. After all, our Nation is not facing a 
choice between existing and new energy sources, although that is often 
how the energy debate is framed. Instead oil, natural gas, and coal 
currently supply 82 percent of the Nation's energy. These resources are 
the foundation of our energy future. Upon this foundation we are now 
developing and deploying new and alternative energy sources.
    Our Nation's R&D policies must recognize the need to keep this 
foundation strong while simultaneously investing in the energy sources 
of the future.
Oil and natural gas technologies program
    AAPG strongly urges increased funding for the DOE oil and natural 
gas technologies programs. They are regularly either targeted for 
elimination or funded at levels insufficient to conduct necessary field 
experiments. This is ironic considering oil and natural gas deliver 62 
percent of our Nation's energy.
    Oil supplies the overwhelming volume of all transportation fuels. 
Natural gas heats homes and businesses, generates electricity, is a 
chemical feedstock, and is emerging as a potential transportation fuel. 
Supplying the oil and natural gas consumed today and in the future 
requires significant technological advancements.
    Several commonly overlooked trends in the oil and natural gas 
sectors support a Federal role in oil and natural gas technologies R&D:
    1.  The independent oil and gas producer is responsible for finding 
and producing most U.S. oil and natural gas resources. According to the 
Independent Petroleum Association of America (IPAA), a trade 
association, independent producers produce 54 percent of the Nation's 
oil, 85 percent of the Nation's natural gas, and develop 95 percent of 
the Nation's oil and natural gas wells. The median-sized independent 
producer is the epitome of American small business.
    2.  Independents typically work on projects that are too small for 
vertically integrated ``major'' oil and gas companies to develop 
commercially. Technology is vitally important for locating these 
resources underground, but these producers do not have the capacity to 
conduct independent research.
    3.  Increasingly domestic oil and natural gas production is coming 
from non-traditional (unconventional) resources, such as the Marcellus 
Shale of Appalachia or the Bakken formation of the Williston Basin. The 
Monterey Shale of California is a new, huge but geologically unique 
resource that will require additional scientific study and new 
technologies to develop. These resources hold the key to American 
energy security, but their development requires significant R&D 
investment.
    4.  Federal R&D has historically provided support for the Nation's 
universities and colleges, which have proven to be a rich source of 
technological innovation. But, as Federal support for oil and natural 
gas technology development has waned, so has the ability to conduct 
this type of research and train the next generation of U.S. scientists 
and engineers. There is a serious workforce shortage rapidly 
approaching both industry and government.
    The goal of a robust Federal R&D program in oil and natural gas 
technologies is to enable and encourage the environmentally responsible 
development of the Nation's petroleum resources on behalf of the 
American people. This includes conventional oil and natural gas, non-
traditional resources, and emerging resources, such as methane from 
methane hydrates, which according to a 2010 study by the National 
Research Council ``could help to provide greater energy security for 
the United States and to help address future energy needs globally.''
    We request the Subcommittee on Energy & Water Development Agencies 
appropriate $100 million for oil and natural gas technology programs in 
the Department of Energy's Office of Fossil Energy to support research 
projects that target increased production of domestic oil and natural 
gas resources. This funding recommendation assumes that, in addition to 
the appropriation, $50 million per year funding for the Research 
Partnership to Secure Energy for America will continue.
Coal program
    The Nation's coal resource is essential to U.S. energy security. 
AAPG supports research and development funding for coal, including 
clean coal technologies such as carbon capture and sequestration. AAPG 
supports $276 million for these activities, the President's fiscal year 
2013 request.
    Again, these investments must be balanced. In evaluating the DOE 
coal program, I urge you to review the findings of the National 
Academy's report entitled Coal: Research and Development to Support 
National Energy Policy, released in June 2007. The study finds that 
while there are significant uncertainties in U.S. coal reserve and 
resource estimates, there is sufficient coal at current consumption to 
last for more than 100 years.
    However, there is a real need for more ``upstream'' coal research 
to increase our understanding of the Nation's resource base. The study 
group observed that presently over 90 percent of Federal R&D spending 
for coal is on the ``downstream'' side, focused on utilization, carbon 
capture and sequestration, and transport and transmission. Only 10 
percent goes to resource and reserve assessment, mining and processing, 
environment/reclamation, and safety and health.
Geothermal energy technologies program
    Geothermal energy is an important alternative energy resource that 
provides base-load power to the Nation's electrical grid. Significant 
expansion of geothermal power production may be possible through the 
development of enhanced or engineered geothermal systems, but 
developing and proving these technologies requires R&D investment.
    AAPG supported the nearly $400 million for geothermal energy R&D 
and deployment in the American Reinvestment and Recovery Act of 2009. 
AAPG supports $65 million for the DOE geothermal program, the 
President's fiscal year 2013 budget request.
Summary
    Thank you for the opportunity to present this testimony to the 
subcommittee. Our Nation has the resources and capacity for a bright 
energy future. Ensuring this future requires prudent investment in R&D 
to deliver the science and technology needed to supply the conventional 
energy sources we will rely on in coming decades, and the breakthroughs 
in new and alternative energy sources that will power the future.
    If you have any questions about AAPG or this testimony, please 
contact Edith Allison, the director of our policy office in Alexandria 
(e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1075717c7c79637f7e50717160773e7f6277">[email&#160;protected]</a>).
                                 ______
                                 
          Prepared Statement of the American Physical Society
To: U. S. Senate Energy and Water Development Appropriations 
        Subcommittee

From: Executive Committee, Division of Particles and Fields, APS

    We write on behalf of the professional society of high energy 
physics, the Division of Particles and Fields (DPF) of the American 
Physical Society (APS). The Division of Particles and Fields has over 
3500 members and is one of the largest Divisions of the American 
Physical Society. We strongly endorse the recent testimony presented to 
your committee by the Executive Committee of the Fermi National 
Accelerator Laboratory Users Organization in support of research in our 
field.
    The declining budgets in the High Energy Physics program of the 
Department of Energy's Office of Science will have devastating effects 
in our field that will be felt for decades. They will undermine our 
Nation's long-term leadership in fundamental science, our ability to 
capitalize on far-reaching technological innovations that have a 
critical effect on our economic growth, and our ability to train a new 
generation of the best and brightest scientists in the world who will 
contribute to our country in many different ways.
    We urge your committee to support fundamental science and sustain 
funding to our high energy physics research program.

            Sincerely,

    The Executive Committee of the Division of Particles and Fields.

                    Jonathan L. Rosner, Chair; Ian Shipsey, Chair-
                            elect; Nicholas Hadley, Vice-Chair; Pierre 
                            Ramond, Past Chair; Howard Haber, 
                            Secretary/Treasurer; Robert H. Bernstein; 
                            Marjorie Corcoran; Jonathan Feng; Yuri 
                            Gershtein; Lynne Orr; Sally Seidel; and 
                            Nikos Varelas.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists (ASPB), we 
submit this statement for the official record to support the 
President's request of $5.152 billion for the Department of Energy 
(DOE) Office of Science for fiscal year 2014. Our testimony highlights 
the importance of sustained investments in biology research-
particularly plant biology research, which is a major backbone for 
enhanced bioenergy production-as the Nation seeks to address energy 
security and other vital issues.
    ASPB recognizes the difficult fiscal environment our Nation faces, 
but we believe investments in scientific research constitute critical 
steps toward economic recovery. We would also like to thank the 
subcommittee for its consideration of this testimony and for its 
support for the fundamental research mission of the DOE Office of 
Science.
    ASPB is an organization of approximately 4,500 professional plant 
biology researchers, educators, graduate students, and postdoctoral 
scientists with members across the Nation and throughout the world. A 
strong voice for the global plant science community, our mission-
achieved through work in the realms of research, education, and public 
policy-is to promote the growth and development of plant biology, to 
encourage and communicate research in plant biology, and to promote the 
interests and growth of plant scientists in general.
Fuel, Food, Environment, and Health: Plant Biology Research and 
        America's Future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are the primary producers on which 
most life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of domestic fuel security and 
environmental stewardship; the continued and sustainable development of 
better fuels, foods, fabrics, pharmaceuticals, and building materials; 
and in the understanding of foundational biological principles that 
underpin improvements in plant growth and home-grown energy sources for 
all Americans.
    In particular, plant biology is at the center of numerous 
scientific breakthroughs in the increasingly interdisciplinary realm of 
alternative energy research. For example, discoveries will enable 
energy crops that are more drought and pest tolerant, thereby greatly 
boosting yields. Bioenergy research encompasses fundamental and applied 
plant biology, engineering, chemistry, and physics, representing 
critical frontiers in both basic biofuels research and bioenergy 
production. Similarly, with the increase in plant genome sequencing and 
functional genomics, the interface of plant biology and computer 
science has become essential to our understanding of complex biological 
systems, ranging from single cells to entire ecosystems. This research 
is critical for our future in bioenergy production.
    Despite the fact that foundational and mission-oriented plant 
biology research-the kind of research DOE funds-underpins vital 
advances in practical applications in energy, health, and the 
environment, plant scientists have had to leverage modest Federal 
funding in order to understand the basic functions and mechanisms of 
plants. Strong investments in plant biology research are important 
considering the significant positive impact crop plants have on the 
Nation's economy and in addressing some of our most urgent challenges, 
including energy and food security.
    To address these future challenges and how they might be mitigated 
through investments in plant biology research, ASPB organized a two-
phase Plant Science Research Summit in September 2011 and January 2013. 
With support and funding from DOE, the National Science Foundation, the 
U.S. Department of Agriculture, and the Howard Hughes Medical 
Institute, the Summit brought together representatives from across the 
full spectrum of plant science research to develop a ten-year consensus 
plan to fill critical gaps in our understanding of plant biology to 
address the grand challenges we face. As a research community, our 
vision is to create plant systems that are flexible and adaptable to 
new and existing challenges by increasing the predictive and synthetic 
abilities of plant biology. In achieving these goals, the plant science 
research community will make significant contributions to:
  --Exploring, conserving, and utilizing our natural resources;
  --Protecting, maintaining, and improving energy crop productivity; 
        and
  --Creating new plant-inspired industries.
    ASPB expects to publish a report from the Plant Science Research 
Summit in spring 2013. This report will further detail the plant 
science community's priorities and the key initiatives needed to 
address our grand challenges.
Recommendations
    Because the ASPB membership has extensive expertise and 
participation in the academic, industry and government sectors, ASPB is 
in an excellent position to articulate the Nation's plant science 
priorities as they relate to fundamental plant biology and, 
specifically, with regard to recommendations for bioenergy research 
funding through DOE's Office of Science.
    Within the Office of Science, the programs in Biological and 
Environmental Research (BER) and Basic Energy Sciences (BES) are 
crucial to a mechanistic understanding of the most fundamental 
biological processes and how they may be adapted and applied in 
developing renewable energy capabilities. For this reason, ASPB is 
supportive of the President's requests for BER and BES. Sustained 
funding for these programs is vital as the discoveries made in these 
areas will ultimately be the foundation for the next fuels and 
technologies we use in our daily lives.
    In addition:
  --We commend the DOE Office of Science, through its programs in BES 
        and BER, for funding the Bioenergy Research Centers and the 
        Energy Frontier Research Centers. These centers provide a model 
        for collective science innovation that complements DOE's 
        essential investment in individual investigator and small group 
        science. In addition to continued investments in these centers, 
        ASPB strongly encourages additional funding for the DOE Office 
        of Science that would specifically target funding for 
        individual or small-group grants for bioenergy and plant growth 
        research.
  --Photosynthetic research is one clear example of an interface 
        between the physical sciences and biology. The DOE Office of 
        Science has been the major source of funding for fundamental 
        studies of photosynthesis, which is the primary source of 
        chemical energy on the planet. However, the current funding 
        available for photosynthetic research is not commensurate with 
        the central role that photosynthesis plays in energy capture 
        and carbon sequestration. Hence, ASPB calls for the Office of 
        Science to expand its research portfolio in the area of 
        photosynthesis and carbon capture.
  --Considerable research interest is now focused on the processing of 
        plant biomass for energy production. Fundamental discoveries 
        regarding the genes that control plant growth and enable plant 
        growth in response to stresses, including drought, are needed 
        to secure our energy future. If biomass crops, including woody 
        plants, are to be used to their fullest potential, extensive 
        effort must be expended to improve our understanding of their 
        basic biology and development, as well as their agronomic 
        performance and conversion efficiency in processing fixed 
        carbon to fuels and high-value co-products. Therefore, ASPB 
        calls for DOE to support research targeted at efforts to 
        increase the utility and agronomic performance of bioenergy 
        feedstocks, both in the field and for their end users in the 
        bioeconomy.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. For more information about the 
American Society of Plant Biologists, please see www.aspb.org.
                                 ______
                                 
            Prepared Statement of Bob Lawrence & Associates

    The Status and Needs of Advanced Transmission Conductors, Power 
                    Electronics, and Grid Components

The United States Electric Grid
    Madam Chairman and members of the subcommittee: We thank you for 
the opportunity to present this Outside Witness Testimony on behalf of 
our company, Bob Lawrence & Associates, Inc., located in Alexandria, 
Virginia. Our testimony discusses the present status of the American 
Electric Power Grid and the high degree of promise for research 
addressing transmission conductors, power electronics, and 
superconducting grid component options. We recommend $21 Million within 
the DOE Office of Electricity Delivery and Energy Reliability (OE) for 
fiscal year 2014 to address these key areas of research.
    Presently, the United States Electric Power Grid contains many 
segments which are constrained or congested. In the coming years, 
electric use will continue to increase, further exacerbating the 
problem. As the demand for higher quality electricity continues to 
grow, along with the need to better integrate renewable resources, more 
sophisticated transmission technologies and power system understanding 
will be required to assure the reliability and security of the power 
grid.
    The best official Government description of this situation and the 
potential solutions appears in the mission statement for the Office of 
Electricity Delivery and Energy Reliability (OE) within the 2012 
Congressional Budget Request. This mission statement was meant to lead 
a national effort to modernize the electric grid. Modernization of the 
electric grid encourages three overarching benefits:
  --facilitating a greater adoption of variable and intermittent 
        renewable resources; energy efficient buildings; appliances; 
        industrial equipment; and electric vehicles;
  --Improving the energy efficiency of the electric transmission and 
        distribution system; and, 3) enhancing energy security by 
        increasing resilience to electric supply disruptions.
    OE's 2012 funding request supported the development of 
technologies, tools, and techniques that could increase grid 
flexibility, enable a range of generation resources, maintain grid 
reliability and security in the face of increasing complexity and 
demand, and increase grid efficiency to minimize cost and energy 
consumption. The request continued support for State and regional 
partners to facilitate grid modernization and new transmission, and 
worked to enhance protection of the energy infrastructure against 
physical and cyber disruptions, and quickly restore energy when 
disruptions would occur.
    Low-level transmission congestion is very common. Broadly speaking, 
there are three ways to mitigate congestion where it is significant 
enough to merit remediation. These are:
  --reduce electricity demand in the congested area through energy 
        efficiency and demand management programs;
  --build more generation capacity close to the demand area; and
  --build additional transmission capacity so as to enable more 
        electricity to be delivered from distant generators. Electric 
        system planners frequently find that a combination of the three 
        approaches is most desirable.

(http://energy.gov/oe/services/electricity-policy-coordination-and-
implementation/transmission-planning/2012-national)
National Electric Transmission Congestion Study
    Section 216(a) of the Federal Power Act, as amended by the Energy 
Policy Act of 2005, directs the U.S. Department of Energy (DOE) to 
conduct a study every 3 years on electric transmission congestion and 
constraints within the Eastern and Western Interconnections. The 
American Reinvestment and Recovery Act of 2009 (Recovery Act) further 
directs the study to include an analysis of significant potential 
sources of renewable energy that are constrained by lack of adequate 
transmission capacity. Based on this study, and comments from States 
and other stakeholders, the Secretary of Energy may designate any 
geographic area experiencing electric transmission capacity constraints 
or congestion as a National Interest Electric Transmission Corridor 
(National Corridor). DOE has published studies from 2006 and 2009; the 
2012 study is being prepared. The studies conclude:
    ``Despite widespread agreement on the strategic importance of our 
transmission infrastructure, there is no comprehensive, consistent 
information on transmission usage and new transmission investment. In 
particular, there are no uniform reporting requirements. Substantial 
data are available from the regions with organized markets (CAISO, ISO-
NE, MISO, PJM, NYISO, SPP), but much less are available from the non-
market regions, which cover at least 1/3 of the Nation geographically. 
Data from the regions with organized markets are often not comparable. 
Each RTO and ISO has its own definitions, practices, and formats for 
calculating and publishing LMPs and congestion costs. The RTOs and ISOs 
change their footprints and market designs from time to time, making 
trend assessment more difficult.
    The Department seeks discussion with other Government agencies, 
utilities, and others on several possible actions to improve 
transmission data. Including work with FERC, NERC, and EIA to define 
and collect consistent information on transmission construction, 
utilization, reliability, and operating practices, and to make 
aggregated information publically available.''
Main Grid elements to be addressed: Conductors and Power Electronics 
        (PE)
    During the late 1990's, 3M scientists investigating potential new 
uses for metal-matrix composites focused their attention on developing 
a substitute for the steel core wires used in conventional conductors 
used to transmit electrical power over high-voltage lines. Steel was 
the standard for utility transmission for nearly a century, but it 
incurred limitations due to its weight and the rate of sag under high 
temperatures.
    In 1999, a prototype of 3M Aluminum Conductor Composite Reinforced 
(ACCR), showed to be substantially lighter than steel and possessed the 
capability to be installed within existing infrastructure. The new core 
upgraded the line's capacity substantially, doubling it in many cases, 
and significantly reducing the sag potential. The core also 
demonstrated the durability and longevity of traditional steel core 
conductors, even when operated continuously at high temperatures.
    Because 3M ACCR can as much as double transmission capacity on 
existing lines, often without rebuilding towers or expanding rights-of-
way, the electric power industry has embraced it as an efficient, 
reliable, and cost effective way to reduce overloading and increase 
transmission capacity. In 2011, 3M celebrated the production of its 
1,000th mile of ACCR conductor. Today, this number is over 2000 miles. 
More than 30 utilities, in a dozen nations on four continents, adopted 
the technology, helping to make these milestones possible. And, with 
the growing need for a robust grid to accommodate new uses such as 
renewable and electric vehicles at a high level of reliability, 3M 
anticipates that its breakthrough overhead conductor will soon find use 
in a rapidly expanding range of applications. The point here is that 
this conductor is a ``first of its kind,'' and research needs to be 
done on other similar options which can improve conductors even more! 
There are huge benefits for the country here!
    Power Electronics (PE), according to DOE, will play a critical role 
in transforming the current electric grid into the next-generation 
grid. Existing silicon-based PE devices enable electric grid 
functionalities such as fault-current limiters and converters. Devices 
include switches, surge controllers, VAR controllers, and flow 
controllers. Solid-state wide bandgap (WBG) semiconductor electronics 
are envisioned to improve the reliability and efficiency of the next-
generation grid substantially. VAR controllers can take the place of 
actual generators which are used to create or control reactive power. 
The ultimate goals of advanced Power Electronics include: enhanced grid 
capacity; increased reliability; and cleaner frequency with fewer 
harmonics.
    Improvements in both power electronics (PE) systems and the devices 
on which they are based, will provide important components in 
developing a smart grid and facilitating the integration of renewable 
energy sources into the electric grid. Advanced PE devices and systems 
will allow for increased power flow control and increased reliability 
of the electronic power system. They will also allow for precise and 
rapid switching of electric power to support long-distance transmission 
and advanced distribution topologies.
    Currently, however, Si based semiconductors cannot handle required 
power levels and switching frequencies of next generation utility 
infrastructure. To address these issues, wide band gap (WBG) materials 
are needed; the preferred options being SiC, GaN, and Diamond, with 
Diamond being a far future option. OE's Smart Grid Research and 
Development Multi-Year Program Plan explains that PE devices based on 
these WBG semiconductor materials could increase the reliability and 
efficiency of the next generation electric grid. The materials offer 
the potential for sustaining higher switching speeds and frequencies, 
higher blocking voltages, better thermal conductivities, and higher 
junction temperatures than traditional Si-based equipment. Devices and 
components based on WBG materials are expected to substantially improve 
power flow, power switching efficiency, and reliability with reduced 
size and weight compared to Si.
    Power electronics was not appropriated any money in 2010, but 
requested $9.72M for 2012.
High Temperature Superconductivity (HTS) Options
    Superconductivity refers to the ability of a material to conduct 
electricity with no resistance. Resistance-free superconductivity 
normally occurs in very limited combinations of elements, at the 
temperature of liquid helium or hydrogen, approaching absolute zero, or 
0 Kelvin (K). In April 1986, 75 years following the initial discovery 
of superconductivity, the term High-Temperature Superconductivity (HTS) 
was first used when there was discovered a new, superconducting family 
of cuprate-perovskite ceramic materials. These materials exhibited 
superconducting properties above the boiling point temperature of 
liquid nitrogen, 77 K. These properties, when incorporated into the 
upgrading of today's electric grid, have the promise of providing huge 
advantages over present technology. Next to copper wire, HTS wires can 
carry five to 20 times more current in the same unit area while 
reducing the amount of energy lost by 75-97 percent (depending on the 
current).
    In 1986, the HTS properties were discovered in small, centimeter-
squared wafers. Today, superconducting cables are made in kilometer 
lengths, and all the modern countries of the world have superconducting 
research programs. Transformers, fault current limiters, and cables are 
made from HTS. Inexplicably, the Department of Energy has now 
terminated the program. Wrong decision. This program has, consistently, 
produced dramatically improving results and must be reinstated.
    We thank you for the opportunity to present this testimony.
                                 ______
                                 
      Prepared Statement of the Coal Utilization Research Council
    Introduction and Importance of Coal.--This statement is submitted 
on behalf of the membership of the Coal Utilization Research Council 
(CURC).\1\ Continued and expanded utilization of America's coal 
resources, in an environmentally responsible manner, is in the public 
interest. Affordable power from coal has enabled the economic and 
social development of this country, allowing people to live longer, 
healthier and more productive lives. The availability and use of coal 
has guaranteed fuel options for US electricity generation, contributed 
to a healthy competition among fuel sources, and assured electricity 
consumers of affordable, reliable power even during times of volatile 
price swings by other fuel sources. Coal is also a promising resource 
for the production of transportation fuels and chemical feed stocks. 
Most importantly, our vast and inexpensive coal resources are an 
important source of jobs and economic growth. While every energy 
resource has its own set of advantages and challenges, coal has a long 
history of success in meeting its challenges through the application of 
technology; the dramatic reduction in criteria pollutant emissions 
while coal use has nearly doubled since the 1970's is evidence of the 
important role of technology. With a continued focus upon technology 
development and deployment, coal will remain a reliable, affordable and 
environmentally competitive resource to support our growing economy, 
and the key to successful technology development is (1) an informed 
public that understands the benefits of coal use, (2) enhanced levels 
of funding targeted to specific technology areas, and (3) a regulatory 
and public policy framework that supports coal use.
---------------------------------------------------------------------------
    \1\ CURC is an organization of coal-using utilities, coal 
producers, equipment suppliers, universities and institutions of higher 
learning, and several State government entities interested and involved 
in the use of coal resources and the development of coal-based 
technologies (see www.coal.org).

------------------------------------------------------------------------
                                            Thousands (US)
                                                Dollars
                                        ----------------------  Percent
                                           Fiscal     Fiscal     Change
                                         Year 2013  Year 2014
------------------------------------------------------------------------
Energy Efficiency & Renewable Energy     1,820,713  2,775,700        34%
 (EERE)................................
Fossil Energy R&D......................    536,939    429,275       -25%
    CCS & Power Systems (Coal) R&D.....    370,650    276,631       -34%
Nuclear Energy.........................    770,075    740,460        -4%
------------------------------------------------------------------------

    CURC fiscal year 2014 Budget Recommendation.--While the President 
has endorsed an ``all of the above'' approach to energy, the fiscal 
year 2014 budget request does not reflect this endorsement. The 
President proposes to cut the DOE Coal R&D budget by 34 percent ($94 
million) below previously appropriated amounts while dramatically 
increasing the EERE budget. CURC is recommending that the Coal R&D 
program be increased by $130 million over the President's request. This 
proposed increase will allow for development of technologies that can 
be applied to both the existing and new fleet of coal power plants, as 
well as industrial coal processes. The successful development of these 
technologies will ensure the continued utilization of coal in the near- 
and mid-term, and with investments in breakthrough technologies, will 
enable the use of our country's vast coal resources well into the 
future.
    The Roadmap.--Members of CURC, together with the Electric Power 
Research Institute (EPRI), have developed a Technology Roadmap 
(Roadmap) that defines the research, development and demonstration 
(RD&D) necessary to ensure that the benefits of coal utilization in the 
U.S. continue into the future. Implementation of the Roadmap 
recommendations is expected to result in coal-based power plants in 
2025 that continue to provide affordable electricity that is 
competitive with natural gas and other fuels, but with CO<INF>2</INF> 
emissions rates that are 75 percent less than today's new natural gas-
based power plant. Additional benefits include the development of more 
cost-effective and highly efficient technologies that will result in 
aggressive emissions reductions and vastly improved water and by-
product management.
    CURC Recommendations to the fiscal year 2014 Coal Budget Request.--
CURC endorses the goal of the President's budget request to continue 
development of cost-effective technology to capture and use or store 
CO<INF>2</INF>. However, the fiscal year 2014 Coal R&D budget is too 
singularly focused on the development of carbon capture and 
sequestration (CCS). The program should be more balanced to address the 
several critical technology areas important to continued coal use in 
the U.S. For example, the program should also focus on technology needs 
applicable to both the existing and new fleet of coal power plants by 
addressing improved efficiency, reliability, water management, and 
flexibility in generation (the program currently lacks any emphasis on 
needs relevant to the existing fleet except for CO<INF>2</INF> 
capture). In addition, the program should support ``breakthrough'' 
technology R&D across all program areas resulting in revolutionary 
approaches to converting coal to useful energy and products 
(programmatic recommendations for breakthrough technology R&D are 
described below in more detail). And finally, CURC recommends that the 
program explore ways to utilize CO<INF>2</INF> as a marketable 
commodity beyond enhanced oil recovery.
    Specific CURC Funding Recommendations.--CURC's recommendations are 
made to the DOE Coal R&D programs described in the fiscal year 2014 
Fossil Energy budget request. And, our recommended changes are keyed to 
the R&D activities described in the Roadmap, including recommendations 
that address the existing fleet and breakthrough technologies.
Advanced Energy Systems
  --Advanced Combustion.--CURC recommends a total of $45 million for 
        the Advanced Combustion program (an increase of $31 million 
        over the request). Of this increase, $11 million is recommended 
        to further support novel chemical reactions and alternative 
        combustion methods that produce CO<INF>2</INF> as a matter of 
        process and not through the application of separate processes 
        requiring additional equipment. Examples of these methods 
        include chemical looping and pressurized oxy-combustion. 
        Further, breakthrough technology development should be 
        supported and focus on highly efficient processes such as waste 
        heat recovery and integration, advanced thermal cycles, 
        alternative process configurations and new working fluids for 
        power generation. $20 million is recommended for the initiation 
        of an advanced ultrasupercritical (A-USC) materials component 
        test facility to assess, under real operating conditions, the 
        advanced materials necessary to support the high temperature 
        and pressure conditions of a new generation of power plant 
        technologies. R&D activities for A-USC materials have been 
        zeroed out in the President's budget (previously funded in the 
        cross-cutting program). A-USC materials support highly 
        efficient power platforms that result in less coal used and 
        also result in reduced emissions of both criteria pollutants 
        and CO<INF>2</INF>. India, China, Japan, and Europe all have 
        nationally funded programs for development of A-USC. If the 
        U.S. is to supply its own power generation industry and also 
        become competitive in a very large global market, then the test 
        facility is essential to development of materials and 
        fabrication techniques that will enable U.S. suppliers to 
        provide these manufactured products to domestic users as well 
        as export these components and know-how abroad.
  --Gasification.--CURC recommends $33 million for the Gasification 
        program (an increase of $10 million over the request). This 
        funding increase is designed to support Roadmap- identified 
        improvements to both cost and performance for power (IGCC) and 
        polygeneration (power plus chemicals). We recommend the funding 
        increase support development of new concepts that can 
        substantially cut IGCC cost; scale-up of promising higher 
        efficiency shift catalysts that have been tested at the 
        National Carbon Capture Center; increase operating flexibility 
        and fast ramp capabilities to support increasing renewable 
        energy penetration; accelerate scale up of air separation 
        technologies; and field pilot foul-resistant heat exchanger 
        materials and configurations.
  --Turbines.--CURC recommends $14 million (an increase of $3 million) 
        to complete Phase II hydrogen turbine development, in 
        preparation for anticipated market opportunities justifying 
        investments in detailed design and development of new hydrogen 
        turbines. We also recommend the increase to support 
        breakthrough technology development such as high temperature 
        turbines, pressure rise combustion, and oxy-combustion 
        turbines.
  --Coal and Coal Biomass to Liquids.--CURC recommends $5 million for 
        this program (which was zeroed out) to improve cost and 
        efficiency of coal-to-fuels technology implementation. With CCS 
        and biomass, coal fuels will have a lower carbon footprint than 
        petroleum-based fuel and also enable the beneficial use of 
        captured CO<INF>2</INF> for EOR. This program will help to 
        establish U.S. leadership in the growing and highly competitive 
        global gasification market.
    Cross Cutting Research.--CURC recommends $46.35 million for the 
Cross Cutting Research program (an increase of $28.05 million over the 
request). Included in this recommendation is $16 million to initiate a 
breakthrough technology program (in addition to those breakthroughs 
recommended in other programs) that is focused on novel approaches to 
converting coal to useful energy and products, such as 
nanotechnologies, bioprocesses and new materials. The modeling effort 
being conducted by the National Risk Assessment Program (NRAP) should 
be increased by $5.65 million, a program vital to the success of carbon 
sequestration. CURC recommends $12 million for DOE to initiate a water 
management program. Funds should focus on ensuring continued coal plant 
operation and R&D to address water withdrawal and consumption, in- 
plant management, water discharge, management of chemical species that 
come from new and modified emission controls, and multimedia impacts. 
Finally, $4.0 million should be retained for university training and 
research. This program is important to the development of talent and is 
a strong source of scientific innovation.
    Carbon Capture.--CURC applauds the Administration for recognizing 
the management of CO<INF>2</INF> emissions is not limited to coal 
through the proposed $25 million ``prize'' to be awarded to a natural 
gas combined cycle (NGCC) power project that demonstrates 
CO<INF>2</INF> capture. However, if the Administration wants to be 
successful in this effort, the requested amount is woefully inadequate 
to demonstrate commercial operation of CCS. Second, CURC recommends 
that any funding for NGCC capture of CO<INF>2</INF> be in addition to--
and not taken out of--funds for Coal R&D.
  --Post-Combustion.--CURC is requesting no change to the proposed 
        budget of $75 million.
  --Pre-Combustion.--CURC is requesting no change to the proposed 
        budget of $12 million. CURC is in alignment with programmatic 
        direction and the proposed funding levels for pre- and post-
        combustion capture.
    Carbon Storage.--Demonstrating and preparing for large-volume 
sequestration will alleviate a large area of concern for regulators and 
the public. It is critical that the ongoing research is brought to 
conclusion and that the next steps are taken for qualifying storage-
ready sites. The Regional Carbon Sequestration Partnerships (RCSP) are 
preparing for large scale injection of CO<INF>2</INF>. In order to 
continue their planned activities with no delays, CURC recommends an 
additional $16.5 million for the RCSP. CURC also recommends $50 million 
to support a new ``carbon storage site certification program''. As 
explained in the Roadmap, this program is intended to characterize and 
qualify 5 regionally-diverse sites at a scale that each can accept 50 
million tons of CO<INF>2</INF> at a rate of 5 million tons per year. 
This activity will support a future commercial industry capable of 
CO<INF>2</INF> storage. CURC also recommends $14.5 million for storage 
technology development; $6.6 million for monitoring; and $1 million to 
support advanced CO<INF>2</INF> compression development, an activity 
not currently supported in the President's budget.

----------------------------------------------------------------------------------------------------------------
                                                                                Percent
                                                                                Changes
                                                        Fiscal      Fiscal      Fiscal       CURC       Change
 CCS and Power Systems (All figures in $ Thousands)    Year 2013   Year 2014   Year 2013    Fiscal       from
                                                          CR        Request    v. Fiscal   Year 2014    Request
                                                                               Year 2014
----------------------------------------------------------------------------------------------------------------
Carbon Capture......................................      69,320     112,000         62%      87,000     -25,000
    Post-Combustion Capture.........................          --      75,000  ..........      75,000          --
    Pre-Combustion Capture..........................          --      12,000  ..........      12,000          --
    Natural Gas CCS Prize...........................          --      25,000  ..........  ..........  ..........
Carbon Storage......................................     116,116      61,100        -47%     139,300      78,200
    Regional Partnerships...........................          --      40,500  ..........      57,000      16,500
    Geologic Storage................................          --       5,500  ..........      14,500       9,000
    MMV.............................................          --       4,900  ..........       6,600       1,700
    Carbon Use and Reuse............................          --         500  ..........         500           0
    Carbon Sequestration Sciences...................          --       9,700  ..........       9,700           0
    Carbon Storage Certification \1\................  ..........          --  ..........      50,000      50,000
    Advanced Compressor \1\.........................  ..........          --  ..........       1,000       1,000
Advanced Energy Systems.............................     100,554      48,000        -52%      97,000      49,000
    Advanced Combustion Systems.....................          --      14,000  ..........      45,000      31,000
        High Performance Materials \1\..............  ..........  ..........  ..........      20,000      20,000
    Gasification Systems............................          --      23,000  ..........      33,000      10,000
    Hydrogen Turbines...............................          --      11,000  ..........      14,000       3,000
    Coal Fuels & Liquids............................          --  ..........  ..........       5,000       5,000
    Fuel Cells......................................          --  ..........  ..........           0           0
Cross-cutting Research..............................      49,435      20,500        -59%      46,350      28,050
    Plant Optimization Technology...................          --       6,800  ..........           0      -6,800
    Coal Utilization Science........................          --       8,700  ..........          --          --
        --NRAP......................................          --       4,350  ..........      10,000       5,650
        --CCSI......................................          --       4,350  ..........       4,350           0
    Energy Analyses.................................          --         900  ..........          --          --
    University Training Research....................          --       2,800  ..........       4,000       1,200
    International Activities........................          --       1,400  ..........          --          --
    Water Management \1\............................  ..........  ..........  ..........      12,000      12,000
    Breakthrough Technology R&D \1\.................  ..........  ..........  ..........      16,000      16,000
NETL Coal R&D.......................................      35,225      35,011  ..........      35,011      35,011
                                                     -----------------------------------------------------------
      PROGRAM TOTAL.................................     370,650     276,631        -34%     404,661     130,250
----------------------------------------------------------------------------------------------------------------
\1\ CURC-EPRI Roadmap Program and does not have comparable DOE program.

                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors
    The Coalition of Northeastern Governors (CONEG) is pleased to share 
with the Subcommittee on Energy and Water Development this testimony on 
fiscal year 2014 appropriations for the Department of Energy (DOE). 
Specifically, the governors request fiscal year 2014 funding of no less 
than the current levels for DOE's Office of Energy Efficiency and 
Renewable Energy, including at least $50 million for the State Energy 
Program and at least $174 million for the Weatherization Assistance 
Program, as well as current funding for the Office of Science and ARPA-
E. In addition, the governors request at least $105 million for the 
Energy Information Administration, and sufficient funding for 
maintenance and operation of the Northeast Home Heating Oil Reserve.
    The governors recognize the fiscal challenges confronting Congress 
this year. Continued adequate Federal funding for these energy programs 
and initiatives is crucial to improving the Nation's energy security 
and independence while helping businesses and households across the 
Nation reduce their energy costs. Maintaining funding for the programs 
of the Office of Energy Efficiency and Renewable Energy and the Office 
of Science is a sound investment that strengthens the foundation of the 
U.S. economy by creating new products and new jobs.
Office of Energy Efficiency and Renewable Energy
    The governors request no less than the current level of funding for 
the Office of Energy Efficiency and Renewable Energy (EERE). The Office 
works in partnership with State and local governments, industry, 
universities and manufacturers to advance research into and greater use 
of energy efficiency and renewable energy technologies throughout the 
U.S. economy. These partnerships include such programs as building 
technologies that allow businesses and households to reduce their 
energy use and energy bills; the SunShot Initiative to help develop 
solar technologies that can be cost-competitive without public 
subsidies; and the EV Everywhere initiative to accelerate the 
development of clean energy transportation technologies that can lessen 
the use of foreign petroleum and reduce emissions from vehicles. EERE 
invests in next generation advanced manufacturing technologies to 
enhance the competitiveness of the U.S. manufacturing sector; and it 
leads a network of researchers to develop energy technologies for the 
cost-competitive generation of electricity from clean renewable sources 
such as solar, wind, biomass and water.
State Energy Program
    The CONEG governors request at least $50 million for the State 
Energy Program (SEP) in fiscal year 2014 with these funds provided as 
base SEP formula funding. This level of base funding is critical for 
the SEP to continue the successful State-Federal-private sector 
partnerships for many energy efficiency and conservation programs. The 
base SEP program is particularly important to smaller States since it 
allows them to significantly enhance the effective delivery of energy 
efficiency, conservation and renewable energy initiatives, and to 
leverage non-Federal resources with Federal funds.
    This modest Federal investment produces proven, measurable benefits 
toward achieving key national energy security and economic goals. The 
56 State and territory energy offices use SEP funds, along with 
significant leveraged State and private sector funds, to implement 
vital energy efficiency, renewable energy, and alternative energy 
demonstrations in energy end-use sectors such as buildings, industry, 
agriculture, transportation and power generation. SEP funds are also 
vital to States as they work with other State-Federal-local agencies 
and the private sector to prepare for natural disasters and to protect 
and strengthen critical energy infrastructure.
    Each State uses SEP funds to carry out a wide variety of activities 
most appropriate for its unique energy profiles and requirements. The 
program provides meaningful economic benefits to business and consumers 
while supporting national environmental policy. Energy efficient 
retrofits and installation of solar systems on State buildings have 
saved taxpayers thousands of dollars in energy costs and have reduced 
carbon emissions. Creation and implementation of State energy 
efficiency building codes reduce energy use and costs for businesses 
and residents across the country. These funds also support initiatives 
to provide energy audits to businesses and households, and to provide 
public outreach and education to local residents, small businesses, 
farmers, and others to make them aware of opportunities to reduce 
energy consumption and energy bills. Using SEP funds, States also work 
with the private sector to showcase new clean technologies and to 
invest in renewable energy projects.
    The SEP program yields proven energy and economic benefits. The 
most recent Oak Ridge National Laboratory cost-benefit analysis of the 
program found that every $1 in SEP funding yields $7.22 in annual 
energy cost savings, $10.71 in leveraged funding, and annual energy 
savings of 1.03 million source BTUs. The DOE estimates that, based on 
recent appropriations levels, the SEP program results in an annual 
energy cost savings of $300 million.
Weatherization Assistance Program
    The CONEG governors request at least $174 million in fiscal year 
2014 for the Weatherization Assistance Program (WAP) which is an 
effective tool, immediately and long term, to alleviate the energy 
burden of low-income households by making their homes more energy 
efficient, safer and healthier. This level of funding is the minimum 
needed for the program to continue to carry out its mission of reducing 
the energy costs for low-income families, particularly for the elderly, 
people with disabilities, and children, by improving the energy 
efficiency of their homes while ensuring their health and safety. With 
approximately 38 million households eligible for assistance and 7.3 
million served, the need for weatherization assistance is great, and 
much work lies ahead. Adequate funding for WAP is important in the 
Northeast where many low-income homes must heat with delivered fuels 
and cannot be served by existing utility-sponsored energy efficiency 
programs.
    Low-income households pay a disproportionate share of their income 
on energy bills, often spending more than 19 percent of annual income 
on home energy compared to just 4 percent for all other households. WAP 
funding is provided to all 50 States, the District of Columbia, U.S. 
territories and Indian tribal governments to manage a network of local 
weatherization providers that make cost-effective improvements to about 
100,000 low-income households annually, permanently reducing energy 
costs for these vulnerable families.
    Cost-effective weatherization measures are tailored to specific 
homes and climates. Some of these measures include simple yet effective 
services such as installing insulation, sealing ducts, tuning and 
repairing heating and cooling systems, and client education. The 
program uses advanced technologies and diagnostic equipment to develop 
a comprehensive cost-effective strategy to maximize energy and dollar 
savings. This ``whole house'' approach incorporates energy efficiency 
measures for a household's heating and cooling systems, electrical 
system, and appliances. The program has become a leader in advancing 
these successful energy efficiency and diagnostic technologies, many of 
which have been adopted in the private sector and made available to the 
general public. Weatherization programs have demonstrated success in 
reducing the primary heating fuel use by an average of 23 percent per 
household. The U.S. Department of Energy estimates that depending on 
fuel prices, the annual energy bill of households receiving 
weatherization services is reduced by an average of $437.
    The program also has significant energy security and environmental 
benefits, making significant contributions to the goal of reducing the 
Nation's reliance on imported fuels. According to the National 
Association for State Community Service Programs (NASCSP), 
weatherization measures reduce national energy demand by the equivalent 
of 18 million barrels of oil per year. For a home heated with natural 
gas, weatherization results in the mitigation of approximately 1.16 
metric tons of carbon dioxide per year. The environmental benefits are 
even greater for those homes heating with fuel oil.
    The non-energy benefits of the program are also substantial. 
Weatherization services increase the health and safety of low-income 
homes by detecting carbon monoxide and gas leaks in tested equipment, 
replacing unsafe equipment, and checking for moisture damage. The 
improvements enhance household safety, and lower energy costs lessen 
the potential for utility arrearages and service shut-offs. The program 
also fosters significant investments in local economies by creating 
jobs, offering professional training, and making housing more 
affordable in communities across the Nation. For every $1 invested, WAP 
returns $2.51 in benefits, including $1.80 in energy savings, according 
to DOE.
Office of Science
    The CONEG governors request no less than current funding levels for 
the Office of Science. The basic research conducted and sponsored by 
the Office is vital to strengthening the Nation's leadership in 
science, and maintaining and enhancing U.S. competiveness in the 
international field of scientific research. Basic research is a 
foundation to advancing the efficient production, delivery and use of 
energy throughout the Nation's economy. For example, the Office of 
Basic Energy Sciences has established 46 Energy Frontier Research 
Centers (EFRCs) involving universities, national laboratories, 
nonprofit organizations, and for-profit entities to integrate the 
expertise and talent of the Nation's leading scientists to conduct 
research toward meeting the critical energy challenges of strengthening 
the Nation's energy security and protecting the global environment. 
Energy Innovation Hubs are integrated research centers that facilitate 
the collaboration of top scientists from academia, industry, and 
government to accelerate the path of critical energy technologies from 
basic laboratory research to pre-deployment of new technologies.
Advanced Research Projects Agency--Energy
    The CONEG governors request no less than current funding levels for 
Advanced Research Projects Agency--Energy (ARPA-E). Innovation in 
energy technologies is vital to achieve the goal of reducing the 
Nation's reliance on imported energy sources through the development 
and delivery of environmentally sound domestic energy and the creation 
of diverse, clean, sustainable and affordable energy portfolios. ARPA-E 
was created to accelerate research and development on high-risk, high-
reward energy technologies. This transformative R&D is done in 
partnership with industry and academia, focusing on innovative 
breakthrough technologies for the generation, storage, distribution, 
and use of energy. ARPA-E strives to maximize speed and efficiency, and 
its management principles and practices have been recognized by 
government and industry.
Energy Information Administration
    The governors request at least $105 million in fiscal year 2014 
funding for the Energy Information Administration (EIA). As the 
independent statistical arm of the Department of Energy, EIA is the 
leading source for reliable impartial data, analyses and forecasts on 
U.S. energy production, demand, consumption, imports and prices. EIA's 
workload has greatly increased as national and global energy markets 
undergo dynamic change, and as emerging technologies change the 
landscape of energy production and delivery. These changes have made 
the comprehensive, timely, objective information and analyses provided 
by EIA more vital than ever to State and Federal policy makers as they 
develop critical energy, economic, security, and environmental 
strategies. For example, changes in natural gas markets and in 
environmental requirements for distillate fuels can affect the 
logistics chains that provide products to the Northeast, a region that 
is particularly vulnerable to supply disruptions and price volatility. 
EIA's close monitoring of market developments and the accurate and 
timely price and supply data in EIA's State heating oil and propane 
survey allows decision-makers to act quickly in the event of a supply 
disruption. EIA also collects, analyzes and distributes a wide range of 
information to help consumers make informed household decisions, 
understanding the interaction between energy, the economy and the 
environment.
Northeast Home Heating Oil Reserve
    The CONEG governors request sufficient fiscal year 2014 funding for 
maintenance and operation of the Northeast Home Heating Oil Reserve. 
The Northeast is uniquely dependent on home heating oil. Over 25 
percent of northeast homes use fuel oil for heating. These homes 
account for over 80 percent of residential heating oil use nationwide, 
making the region particularly vulnerable to the effects of supply 
disruptions and price volatility.
    In the event of a supply disruption, the Reserve provides a buffer 
that allows additional time for supplies to reach the region. Reserve 
locations are strategically placed throughout the region to respond 
rapidly and efficiently to any emergency supply interruption.
                                 ______
                                 
          Prepared Statement of the Edison Electric Institute
    The Edison Electric Institute (EEI) respectfully submits this 
written testimony for the record to the House Appropriations 
Subcommittee on Energy and Water Development. We appreciate this 
opportunity to share our views on some of the Department of Energy's 
(DOE) programs for the fiscal year 2014.
    EEI is the association of U.S. shareholder-owned electric 
companies. Our members serve 98 percent of ultimate electricity 
customers in the shareholder-owned segment of the industry and 
represent approximately 70 percent of the U.S. electric power industry.
Fuel Diversity is Critical
    Embracing a diverse and balanced energy portfolio is crucial to 
affordable, reliable electric service. Electric companies use a variety 
of fuels to generate electricity, and tend to use the fuels that are 
most cost-effective and readily available in their region. 
Consequently, EEI has long advocated for an ``all of the above'' energy 
policy.
    The electric power sector is the most capital-intensive industry in 
the United States and employs more than 500,000 workers. The 
investments utilities make in electricity infrastructure are an 
excellent source of job creation throughout the country. Last month, 
the Bipartisan Policy Center's (BPC) Strategic Energy Policy Initiative 
released its policy recommendations for the 113th Congress. On the 
topic of job creation, the BPC concluded:
        ``Energy is the lifeblood of the U.S. economy. All energy 
        resources-energy efficiency, oil, gas, coal, nuclear, and 
        renewable-are responsible for supporting economic growth and, 
        in turn, employment throughout the economy. The country is 
        dependent on the energy sector's skilled workforce to maintain 
        the reliability and affordability of current energy systems. In 
        the future, the energy-sector skilled workforce will be the 
        lynchpin that will enable the country to achieve future public 
        policy goals with respect to energy, the economy, and the 
        environment as the next generation of energy technologies is 
        developed and deployed.'' [Bipartisan Policy Center, 
        ``America's Energy Resurgence: Sustaining Success, Confronting 
        Challenges,'' February 2013, p.6.]
    As noted by the BPC report, electricity is a vital part of the 
infrastructure upon which our economy runs. In fact, industries and 
resources that run on electricity now account for 60 percent of our 
gross domestic product (GDP). These same segments account for 85 
percent of GDP growth.
    In formulating a fiscal year 2014 budget that addresses our 
Nation's economic, environmental and security goals, EEI respectfully 
requests that the subcommittee direct adequate resources towards these 
critically important ``all of the above'' activities.
Expansion and Improvement of the Electric Grid
    Working with the Department of Energy's Grid Tech Team (GTT), 
electric utilities have made steady progress in upgrading their 
customers' analog electric meters with digital smart meters. According 
to the Institute for Electric Efficiency (IEE), nearly 36 million smart 
meters had been installed across the United States, equivalent to a 
third of all households, as of May 2012. This is an increase from about 
a quarter of all households with smart meters in September 2011. To 
date, 22 electric utilities in 16 States have smart meters installed 
system-wide. By 2015, more than half of all U.S. households are 
expected to have a smart meter.
    According to the BPC's Electric Grid Initiative recommendations of 
February 15, 2013, DOE's research and development (R&D) portfolio 
should continue to emphasize the relevance of smart meters to the 
development of a more efficient grid. EEI agrees with this objective. 
More broadly, Congress should continue its support for DOE deployment 
of advanced grid technologies and complete the lessons learned from its 
ongoing public-private deployment efforts. With subcommittee support, 
DOE has already taken a number of steps in this area, including the 
establishment of the Smart Grid Information Clearinghouse, as well as 
case studies of specific projects. EEI urges strong support for funding 
that builds on these successes.
Electric Transportation
    Electricity has the ability to transform the transportation sector, 
reducing our country's dependence on imported oil and improving our 
energy security. Plug-in electric vehicles (PEVs) and plug-in hybrid 
electric vehicles (PHEVs) make sense for a number of reasons, but one 
of them is that electricity costs about $1 per gallon equivalent. High 
gasoline prices are not typical for winter-U.S. demand usually climbs 
when the weather warms up-but this year the national average price of a 
gallon of gasoline jumped 49 cents in January and February, the 
steepest increase ever seen for the first 2 months.
    In the United States, the transportation sector imports over 40 
percent of its petroleum. In 2011 alone, we sent more than $330 billion 
oversees to purchase foreign oil. A February 2013 energy blueprint 
released by Senator Lisa Murkowski (R-AK), entitled Energy 20/20: A 
Vision for America's Energy Future, heralds sustained DOE investment in 
research and development of advanced vehicle technologies as ``a chance 
for our country to diversify our fuel mix and break our dependence on 
foreign oil-and achieve energy independence from OPEC imports by 
2020.''
    Importantly, transportation electrification opportunities are not 
confined just to passenger vehicles. In fact, over the next 20 years, 
it will be the commercial sector that drives growth, spurred by 
increasing electrification opportunities across a broad spectrum of 
industrial applications: shipyard cranes, warehouse forklifts, fleet 
vehicles, and any fueled application that can be converted to an 
electric motor.
Fossil Energy
    EEI urges the subcommittee to ensure that fossil energy research, 
development and demonstration (RD&D) receive as much funding as 
possible under existing tight budget constraints. We further urge 
maintenance of the Section 1703 DOE loan guarantee that was established 
with bipartisan support as part of the Energy Policy Act (EPAct) of 
2005. As noted in Senator Murkowski's Energy 20/20 report, the Section 
1703 program ``allows appropriations to cover credit subsidy costs, but 
in practice applicants have largely decided to self-pay these 
amounts.'' Moreover, ``not a single loan guarantee has been closed 
under 1703.''
    EEI urges strong funding support for development and deployment of 
carbon capture utilization and storage (CCUS) integrated with 
electricity production. EEI member companies have invested hundreds of 
millions of dollars in first-of-a-kind demonstration projects that 
begin the process of integrating CCUS with electricity generation. 
AEP's Mountaineer Plants, privately funded by AEP and partners at more 
than $100 million, started operation of a 20-megawatt (MW) project in 
September 2009, ceasing injection of carbon dioxide (CO<INF>2</INF>) in 
May 2011, and currently performing post-injection monitoring. Southern 
Company's Plant Barry, a 25-MW project, began operations at the end of 
August 2012. Plant Barry is the result of a successful public-private 
partnership spearheaded by Southern Company and its project partners, 
including the Department of Energy. The total cost of Southern's 
demonstration project is more than $111 million.
    However, CCUS integrated with electricity production has not yet 
been demonstrated at commercial scale. CCUS has the potential to reduce 
greenhouse gas emissions associated with using fossil fuels only if 
certain economic, technical, regulatory and legal challenges are first 
resolved. Efforts to drive CCUS deployment forward must focus on 
alleviating these challenges as well as facilitating utility-scale 
demonstrations.
    In addition to coal, EEI strongly advocates for adequate funding of 
policies that allow ready access to affordable natural gas for electric 
generation, including environmentally responsible development of shale 
resources by the gas industry throughout the United States. Natural gas 
is an increasingly important source for electric generation, especially 
given its availability and low prices. As a result, our industry is a 
strong proponent of developing our natural gas resources.
Nuclear Energy
    Given that nuclear energy is the Nation's largest source of carbon-
free electricity production, and that construction of new plants will 
create tens of thousands of jobs, EEI urges strong support for the 
nuclear power loan guarantee program. Under DOE's implementation, 
participating borrowers pay the entire credit subsidy costs, making 
this program different from other loan programs administered by the 
Department.
    EEI strongly supports nuclear R&D, including funding for the 
acceleration of technology development and commercialization of small 
modular nuclear reactors (SMRs). Due largely to their economy of mass 
production and reduced siting costs, SMRs could comprise a future share 
of the electricity generation mix.
    Should the Administration's budget submission, expected April 8, 
call for reinstatement of the uranium enrichment decontamination and 
decommissioning tax, EEI respectfully requests the subcommittee to 
reject this proposal. As stated in prior testimony, our industry has 
already met its financial obligations while the Federal Government 
failed to pay its required share of the cleanup funds. EEI appreciates 
the support of the subcommittee in opposing this tax in past years.
Energy Efficiency
    Electric utilities are by far the largest providers of energy 
efficiency in the U.S., responsible for 86 percent of the total 
customer-funded electricity efficiency expenditures nationwide. As a 
result of both new efficiency programs and the continuation of existing 
ones, total energy savings in 2011 were enough to power 9.3 million 
U.S. homes for 1 year. These programs also avoided the generation of 75 
million metric tons of CO<INF>2</INF>.
    EEI supports continued essential funding for DOE energy efficiency 
programming. Over the next decade, we expect customer-funded energy 
efficiency budgets, expenditures and savings will continue to grow and 
budgets will exceed $14 billion by 2025, up from $7 billion in 2012.
Transmission Siting and Permitting
    New electric transmission is needed for enhanced reliability, to 
serve regional markets, and to deliver electric power from renewable 
energy projects. EPAct 2005 included provisions to improve the siting 
and permitting of transmission lines on Federal lands. Unfortunately, 
those improvements have not achieved their full potential as quickly as 
needed, and a few provisions have been either undermined or delayed by 
the courts.
    In October 2011, the Administration established the Rapid Response 
Team for Transmission (RRTT) to find ways to facilitate and expedite 
review of proposed transmission line projects on Federal lands. DOE was 
integral to the establishment of the RRTT and a crucial participant in 
its work. EEI has been actively involved in the work of the RRTT. Last 
year, we provided training materials at the request of DOE. More 
recently, EEI has provided input to the agenda for the upcoming April 
16, 2013, stakeholder conference on siting and permitting of 
transmission infrastructure.
    The ultimate goal of the RRTT is to implement institutional changes 
in the way transmission is sited and permitted. Seven pilot projects 
were chosen in 2011 to identify opportunities for streaming reviews and 
improving agency coordination, and the RRTT completed site visits to 
all pilot projects in 2012. From these visits, DOE and the RRTT will 
develop a list of systemic changes needed to improve Federal siting and 
permitting. We urge adequate funding of this important activity.
                                 ______
                                 
    Prepared Statement of Electric Drive Transportation Association
    The Electric Drive Transportation Association (EDTA) is the cross-
industry trade association promoting the advancement of electric drive 
technology and electrified transportation. We are writing regarding the 
fiscal year 2014 request for the Department of Energy's programs that 
advance electric drive technologies, including the Vehicle Technologies 
and Hydrogen and Fuel Cell Technologies Programs.
    Our members represent the entire value chain of electric drive, 
including vehicle, battery, and component manufacturers, utilities and 
energy companies, smart grid and charging infrastructure developers. 
Collectively, we are committed to realizing the economic, national 
security, and environmental benefits of displacing oil with hybrid, 
plug-in hybrid, battery, and fuel cell electric technologies.
    Transportation is responsible for 71 percent of the Nation's total 
petroleum use and 33 percent of total carbon emissions. Almost half of 
the United States' petroleum needs are met with imported products, at a 
cost of $451 billion in 2012. Over the longer term, increasing global 
demand will put upward pressure on oil prices, which has adverse 
implications for the U.S. economy. It's estimated that every $10 per 
barrel increase costs the economy approximately $75 billion.
    The reliance of the U.S. transportation sector on a singular 
commodity, whose price is set in the global market, and whose 
availability is subject to significant geopolitical uncertainty, poses 
an unacceptable threat to U.S. energy and economic security. 
Development of domestic alternatives enhances energy security and 
protects consumers and the economy from price volatility, while 
increasing U.S. competitiveness in advanced technology and 
manufacturing.
    Recently released studies by the National Research Council (NRC) 
and the Transportation Energy Futures Project (a collaboration between 
the Department of Energy, National Renewable Energy Laboratory and the 
Argonne National Laboratory) found that large scale (80 percent) 
reductions in petroleum use and greenhouse gas emissions were possible 
by 2050 with a portfolio approach to technology that includes hybrid, 
plug-in and fuel cell electric vehicles.
    In addition, both reports found that near, medium and longer term 
policy efforts will have to be utilized to enable transportation 
changes today and pave the way for next generation technologies. EDTA 
agrees Federal policies advancing alternative transportation need to 
include programs that accelerate adoption and deployment of vehicles 
and infrastructure, as well as programs aimed at what the NRC study 
calls ``long view'' research and development.
    The establishment of a 10-year research and development effort on 
the lines of the Clean Energy Trust proposed in the Administration's 
fiscal year 2014 budget request would provide the consistent and 
sustainable resources necessary to achieve these ambitious goals for 
petroleum use and emissions reductions.
    We support the requested increases for advanced technology vehicle 
research and development programs, which are leveraging private sector 
investments to promote innovation in transportation. In collaboration 
with the diverse stakeholders of the electric drive industry, the 
Vehicle Technologies programs are helping to accelerate technology 
breakthroughs, promoting investment in advanced vehicle supply chains 
and facilitating deployment of electric drive vehicles and 
infrastructure. In particular, we support the requested increases for 
Batteries and Electric Drive Technology and for Vehicle and Systems 
Simulation & Testing activities, which include wireless charging, 
systems integration, and codes and standards for communication with the 
grid.
    In keeping with the NRC and Transportation Energy Futures Project 
studies' findings that a portfolio of technologies are needed to 
achieve large scale petroleum and emissions reductions, we would also 
recommend greater parity in funding across the Department's electric 
drive vehicle research and development programs. Along with battery 
electrics, fuel cell vehicles (cars, trucks and non-road vehicles) are 
indispensable ``zero emission/zero petroleum'' options in the 
alternative fuel transportation portfolio. The industry is meeting 
aggressive cost, performance and deployment milestones as it pushes 
toward light duty vehicle commercialization in 2015.
    In its fiscal year 2013 report, the Committee endorsed the work of 
the Fuel Cell Technologies program, including Technology Validation 
activities ``focused on passenger vehicle and hydrogen infrastructure 
applications'' as well as hydrogen fuels R&D, and Market Transformation 
activities ``for cost-shared advanced demonstration and deployment of 
early market stationary power and motive applications...'' We ask that 
the committee continue that support, in particular in the areas of 
vehicles and infrastructure deployment activities and in early market 
development, including education, validation and enabling activities, 
at levels sufficient to enable the industry to build on technology and 
market achievements to meet 2015 commercialization targets.
    EDTA supports the EV Everywhere Grand Challenge, which will reduce 
vehicle costs and increase range and charging capabilities of plug-in 
electric vehicles. The program includes the voluntary Workplace 
Charging Challenge, in which EDTA participates, promotes private 
investment in electric drive infrastructure by encouraging employers to 
provide charging options for their employees.
    As the Transportation Energy Futures report emphasizes, there are 
also necessary technology and efficiency gains to be made in the medium 
and heavy duty fleet. Electric drive in the commercial and transit 
fleet provides substantial fuel and emissions reductions, while also 
providing savings to operators in maintenance. We ask that the 
Committee provide meaningful resources for medium and heavy duty 
program activities, including working with industry partners to advance 
electrification and greater cooperation with regulatory agencies, such 
as the Environmental Protection Agency to ensure that compliance 
testing advances in tandem with regulated technologies.
    Finally, we strongly support the DOE's current and proposed Vehicle 
Deployment programs, including the Clean Cities program's work with 
local and regional coalitions to expand deployment of electric drive 
vehicles (hybrid, plug-in hybrid, battery, and fuel cell electric 
vehicles), other alternative fuel vehicles, and recharging/fueling 
infrastructure as a path to increased energy security.
    With difficult choices to be made in allocating constrained 
resources, we respectfully ask that the Committee recognize the energy 
security imperative of diversifying our transportation fuels. Working 
with the private sector, the Department of Energy's vehicle programs 
are critical to providing today's and tomorrow's electric drive 
alternatives to oil.
    We thank you for your consideration.
                                 ______
                                 
      Prepared Statement of the Environmental Defense Action Fund
    My name is Elizabeth Thompson and I am the President of the 
Environmental Defense Action Fund. I would like to thank Chairwoman 
Feinstein and Ranking Member Alexander for this opportunity to provide 
written testimony to the Subcommittee on Energy and Water Development. 
On behalf of the Environmental Defense Fund (EDF) I urge your support 
for an important new initiative to advance energy efficiency policies 
and measures to dramatically reduce America's energy waste. Please 
support funding for the ``Race to the Top for Energy Efficiency and 
Grid Modernization'' in your work on the fiscal year 2014 Energy and 
Water Development Appropriations bill.
    EDF's mission is to preserve the natural systems on which all life 
depends. Guided by science and economics, we find practical and lasting 
solutions to the most serious environmental problems--including 
America's wasteful energy consumption. We believe Race to the Top is 
one of those solutions.
    In his State of the Union address, the President set a goal to cut 
energy waste in half over the next 20 years. To that end, the 
President's Budget Request for fiscal year 2014 provides $200 million 
for ``the Race to the Top'' initiative. Modeled after the successful 
Education Race to the Top, this effort will challenge States and 
utilities to develop innovative new policies that would advance energy 
productivity. This voluntary initiative allows States the flexibility 
to pursue ideas that make sense for their circumstances and economic 
conditions. By allowing States the opportunity address their energy 
needs by their unique design, the programs will allow the States to be 
the nursery of new ideas which can then be shared with other States to 
further energy savings.
    We recognize that the Federal Government faces significant budget 
challenges. For this reason the ``Race to the Top'' would provide 
merely the seed money for innovative thinking, pushing policymakers and 
program managers in the States to design new policies that will drive 
energy efficiency, smart grid, and demand response. These limited funds 
will drive innovative policies that will help States best-used their 
program dollars--further leveraging these funds. By providing the 
initial funding for innovation, and additional support to those with 
winning proposals, the ``Race to the Top'' will be able to drive 
innovation at minimal cost, sending resources to the States who know 
best how to save energy in their borders.
    EDF believes that energy efficiency is vital to our economic growth 
and international competitiveness. Thank you for providing this 
opportunity to submit testimony. We would also appreciate the 
opportunity to brief you or your staff on this new initiative and the 
successful energy savings we anticipate it will achieve. We look 
forward to working with you.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests an appropriation of a minimum of $5.10 
billion for the Department of Energy Office of Science (DOE SC) in 
fiscal year 2014. This figure would enable DOE SC to continue to 
support essential research programs that enhance human health and 
quality of life, invigorate the economy, bring the Nation closer to 
energy independence, and drive scientific advances.
    As a federation of 26 scientific societies, FASEB represents more 
than 100,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. 
FASEB's mission is to advance health and welfare by promoting progress 
and education in biological and biomedical sciences, including the 
research funded by DOE SC, through service to its member societies and 
collaborative advocacy. FASEB enhances the ability of scientists and 
engineers to improve-through their research-the health, well-being, and 
productivity of all people.
    The United States Department of Energy's Office of Science (DOE SC) 
is the lead Federal agency supporting fundamental energy research and 
the Nation's largest supporter of basic research in the physical 
sciences. In addition to supporting research at over 300 institutions 
in all 50 States, DOE SC funds and manages ten world-class national 
laboratories. Research and development located at these national 
laboratories provide over 26,000 researchers with access to particle 
accelerators, advanced light sources, supercomputers, and other state-
of-the-art instrumentation, much of this investigator-initiated 
research is in the biological sciences. In addition to serving as 
unique resources for academic and government scientists, the large-
scale scientific tools at DOE SC facilities are critical to the 
research and development capabilities of over 40 Fortune 500 companies, 
including GE Healthcare, Exxon Mobil, Ford Motor, Boeing, and Pfizer.
    Recent highlights from DOE SC-funded scientific breakthroughs 
include:
  --Accelerating Cancer Treatments.--Actinium-225 (Ac-225) is among the 
        most highly sought after medical isotopes. It releases powerful 
        alpha particles and degrades very quickly, which facilitates 
        the highly localized destruction of cancer cells without 
        damaging the surrounding healthy tissue. Unfortunately, 
        actinium is extremely rare and, until recently, extremely 
        expensive to produce. Researchers have developed a new and 
        economical technique that can generate 1 year's production of 
        the rare isotope in one week. Because Ac-225 is likely to be 
        highly effective in the treatment of diffuse cancers, which 
        currently are among the most untreatable, improved access could 
        open new treatment options for legions of suffering patients.
  --Building Ultra-Strong Materials.--Stronger than steel, pound for 
        pound, spider silk combines remarkable flexibility and extreme 
        strength. Researchers used the high-brilliance X-ray beams of 
        the Advanced Photon Source at Argonne National Laboratory to 
        understand the basis of the material's unique properties. They 
        found that spider silk's strength comes from crystalline 
        lattices that make up about 10 percent of the material, and its 
        flexibility comes from amorphous regions that comprise the 
        remaining 90 percent. This and other insights could, in turn, 
        lead to improved approaches to making the thinner, stronger, 
        and lighter materials of the future.
  --Maintaining Supercomputing Leadership.--This year the Department of 
        Energy Oak Ridge National Laboratory unveiled the most powerful 
        supercomputer every build, Titan. Titan is about 35 percent 
        faster than its nearest competitor and has the capacity to 
        execute more than 27,000 trillion calculations per second. This 
        capacity will allow scientists and engineers to simulate highly 
        complex physical systems in greater detail and with more 
        accuracy. Among the supercomputer's applications are nuclear 
        energy and weapons management, materials science, and 
        biomedical research. Another potential use for Titan is weather 
        forecasting and climate modeling, both of which were essential 
        components to the timeliness and accuracy of predictions of 
        Hurricane Sandy and other extreme weather events.
Providing Unique Resources to the Scientific Community and the Nation
    A source of abundant, safe, and sustainable energy is essential for 
the Nation's future, and fundamental research supported by DOE SC 
provides the basis for discovering new energy technologies that can 
replace fossil fuels and reduce U.S. dependency on foreign oil. DOE SC-
funded scientists and engineers are also making extraordinary 
discoveries in other areas of energy research that improve health, 
protect the environment, create economic opportunities, and strengthen 
national security. In addition, the national lab system advances 
strategic national goals and creates a research infrastructure unlike 
any other in the world. The advanced instrumentation and technical 
expertise supported by DOE SC make efficient use of unique research 
resources, bringing affordable access to researchers across the Nation 
without duplication and at minimal cost to the Nation and individual 
institutions.
    With its crucial mission and unique research facilities, investment 
in DOE SC programs should be one of our highest research priorities. 
DOE SC user facilities benefit the entire research community by 
providing unparalleled scientific and technological capabilities. Now 
is the time to provide robust Federal funding for the fundamental 
energy research required to overcome one of the Nation's most pressing 
challenges. Moreover, DOE SC funding has not grown despite an increase 
in demand for user facility access. The number of researchers using DOE 
SC facilities each year rose from 20,241 in fiscal year 2007 to 25,876 
in fiscal year 2010, an increase of 27.8 percent. To promote 
sustainability, FASEB recommends a funding level of at least $5.1 
billion for the Department of Energy's Office of Science in fiscal year 
2014.
                                 ______
                                 
 Prepared Statement of the Fermi National Accelerator Laboratory Users 
                              Organization
        The Fermilab Users Executive Committee.--Mary Anne Cummings 
        (Muons, Inc.), Craig Group (University of Virginia), Sergo 
        Jindariani (Fermilab), Daniel Kaplan (Illinois Institute of 
        Technology), Ryan Patterson (California Institute of 
        Technology), Gregory Pawloski (University of Minnesota), Breese 
        Quinn (University of Mississippi), Lee Roberts (Boston 
        University), Mandy Rominsky (Fermilab), Greg Snow (University 
        of Nebraska-Lincoln), Nikos Varelas (Chair, University of 
        Illinois at Chicago), Robert Zwaska (Fermilab)

    We are the Executive Committee of the Users Organization of the 
Fermi National Accelerator Laboratory (Fermilab), located outside of 
Chicago, Illinois. We represent the approximately 2,500 scientists who 
perform research at Fermilab-our country's premier particle-physics 
laboratory. Also known as high-energy physics (HEP), our field is the 
study of the fundamental particles that are the building blocks of the 
Universe, as well as their role in astrophysics, and the accelerators 
used in their study.
    The U.S. Department of Energy Office of Science and the National 
Science Foundation support high-energy-physics research at U.S. 
national laboratories and universities. More than 190 U.S. institutions 
in 44 States host physicists, astrophysicists, engineers, and 
accelerator scientists who work in high-energy physics. More than half 
of these institutions are funded through the DOE Office of Science.
    We urge the Senate to support sustained funding for fundamental 
science within the Department of Energy Office of Science and the 
National Science Foundation. We request that the portfolio of funding 
for fundamental research be balanced. High-energy-physics research is a 
key part of these programs and yields valuable benefits to our Nation 
as described below.
    Our field is undergoing a transition, Fermilab's Tevatron 
accelerator program having come to a conclusion in 2011 after an 
extremely successful three decades and having showed evidence for the 
Higgs boson. The discovery of the Higgs boson in July 2012 at the Large 
Hadron Collider at CERN in Geneva, Switzerland, where U.S. physicists 
played a leadership role, the pioneering research with powerful beams 
of neutrinos produced at Fermilab, and the impressive progress in the 
study of dark matter and dark energy in our universe open a new era in 
high-energy physics. New programs are underway or just beginning that 
will provide the basis for vibrant, world-class research at Fermilab 
for the next several decades. This transition is a critical time for 
our field in the United States and requires sustained funding in order 
to maintain our role in world high-energy-physics research.
Impact of Budget Cuts
    Continued funding of science research is critical to our Nation. 
Severe budgetary cuts will have devastating effects that will be felt 
for decades. Science opportunities will be delayed or lost to other 
nations. Our reputation as the place to be for the best and brightest 
will be damaged.
    We are deeply concerned with the administration's budget request 
for fiscal year 2014 that includes reductions in the High Energy 
Physics program within the overall total recommended for the DOE Office 
of Science. Over the past several years, the overall budget for High 
Energy Physics has been significantly reduced. We are especially 
concerned about the additional reductions for Fermilab under the 
sequester against an already reduced fiscal year 2013 budget. These 
reductions may require additional layoffs or furloughs. The proposed 
cuts come at a time when Fermilab has closed the Tevatron program, 
resulting in funding reductions in fiscal year 2012 as well. The High 
Energy Physics program has worked to consolidate resources so as to 
focus on new projects, especially the Long Baseline Neutrino Experiment 
(LBNE). The resulting savings ought to be reinvested in Fermilab in 
order to maintain the United States' preeminent national laboratory and 
program at the forefront of the international high-energy physics 
community.
    The largest and longest-lasting impact will be in our training of 
the next generation of scientists. Significant cuts will force us to 
train fewer students. They will demoralize our current students and 
post-docs, and some will quit. And we will no longer attract the best 
students. It will take a long time to recover from even a short-term 
cut to funding. These young people will be the foundation on which our 
economic growth depends. Without the advanced training offered by 
fields such as high-energy physics, they will lack the skills to 
develop the next technology or the next new industry. Or they will be 
trained in other countries, and that innovation will occur overseas. It 
is critical that we remain attractive to U.S. and foreign students now 
and in the future.
Value of High-Energy-Physics Research
    In our modern economy, science and technology (S&T) drive growth, 
as detailed in the National Academies' report, Rising Above the 
Gathering Storm: Energizing and Employing America for a Brighter 
Economic Future, its 2010 update, Rising Above the Gathering Storm 
Revisited, the recent book, Knowledge and the Wealth of Nations, and 
many other publications. Continued leadership in S&T fields is critical 
to our economic growth, national security, and position vis-`-vis the 
rest of the world. Innovation by a highly trained workforce is key.
    Without new technological developments within the U.S., our economy 
will not grow and other countries will surpass us. But the most 
revolutionary technologies often require revolutions in our fundamental 
knowledge and understanding, or are invented in the research struggle 
of our most talented minds in pursuit of testing, measuring, and 
understanding new ideas and concepts. As an example, no one could have 
predicted the nature of our current society from the first studies of 
the electron at the dawn of the 20th century; however, we would not be 
communicating via email, fax, cellphone, or text messages without them. 
It has also famously been said that the light bulb could not have been 
invented by incremental improvements to the candle! Revolutionary 
technologies arise from new ways of thinking about society's problems-
often derived from new experiments that ask new questions that cannot 
be answered using existing technology.
    High-energy physics strives to understand the most fundamental 
aspects of nature. While we can rarely predict the outcome, the quest 
for knowledge has always led to numerous technological advances, a few 
of which are described below. What is predictable, is that we will 
educate and train some of the best and brightest students, who will 
contribute to our Nation in many different arenas.
Value of Technology Development
    While the primary purpose of high-energy-physics research is not 
the creation or development of new technology, our work often requires 
it in order to accomplish our goals. Many of our experiments require 
technology that does not exist before the project is undertaken. 
Therefore, many of our researchers spend a significant part of their 
careers advancing high-tech particle detectors, developing complex 
computing algorithms, inventing new kinds of particle accelerators, or 
pushing the limits of high-speed electronics. Without continuous 
innovation we would not be able to complete our experiments. And once 
these advances are made, they are often used in fields as diverse as 
medicine, materials research, and manufacturing.
    An example is the construction of the Fermilab Tevatron 
accelerator, which reigned as the world's most powerful device of its 
kind for nearly three decades. It required 1000 superconducting 
magnets, placed around a four-mile ring. Creating superconducting 
magnets requires superconducting wire. At the start of the project in 
the 1970s, it was known how to make such wire, but the industry needed 
in order to make it on a large scale did not exist. Fermilab 
researchers helped to build up that industry and advance its production 
techniques through a very successful joint government/business venture. 
Once the accelerator was complete in 1983, these businesses looked 
around to see what other projects could use superconducting wire. MRI 
machines that are now commonly used for medical imaging are an example. 
Because of the work of Fermilab in building the Tevatron, starting in 
the 1980s, commercial MRI scanners have now become widespread.
    A current experiment led by Fermilab scientists is the Dark Energy 
Survey (DES). This requires a digital camera larger than any ever 
built. Its technological developments will ultimately influence the 
digital cameras available at your local electronics store as well as 
devices no one has yet dreamed up. A current R&D effort by a 
university/national laboratory collaboration is inventing new, cost-
effective particle detectors with unique power to resolve events on the 
picosecond (trillionth-of-a-second) time-scale. These will also 
doubtless lead to new industrial, research, and medical applications.
    High-energy physicists have invented particle accelerators and 
continue to steward their development. Our work requires the most 
powerful particle accelerators that can be built. However, thousands of 
accelerators are now used in many areas of technology. Of more than 
30,000 particle accelerators throughout the world, only a small 
fraction are dedicated to high-energy physics. Most are used by 
industry or for medical treatment and diagnosis. The tire industry, for 
example, now uses particle accelerators to treat their tires, reducing 
both the amount of rubber needed (by three pounds per tire) and the 
amounts of chemicals used in the production process. This industry is 
both more efficient and better for our environment because of the 
application of particle accelerators. This success was unanticipated in 
the early days of accelerator development. Industrial accelerator 
applications now range from the manufacture of shrink-wrap plastic to 
the processing of industrial coatings and automobile parts.
Value of Science Education
    The United States has long been the destination of choice for the 
best science students from around the world. Our universities provide 
an education that is second to none. Our national laboratories provide 
research opportunities that are unavailable elsewhere. Fermilab is an 
excellent example of this. Numerous students from foreign institutions 
travel to Fermilab to complete their research. Many of these students 
then choose to stay in the U.S. after completing their degrees.
    Our students learn a variety of skills that are applicable in 
numerous fields. They learn to work on problems to which the answer is 
unknown and to adapt to unforeseen challenges. They learn skills in 
computer programming, data analysis, simulation of complex problems, 
and electronics development, among others. They learn to work in teams 
as members of international collaborations, finding innovative 
solutions to challenging problems. They learn how to take a project 
from start to finish, write a document detailing it, and present it to 
an audience. The complex analytical thinking necessary to solve 
problems in fundamental science can't be taught in a classroom, but is 
nonetheless crucial for solving problems in business and industry in 
the 21st century.
    Many of our students choose to continue their immediate careers as 
post-doctoral associates. This provides a post-graduate education that 
further develops their skills. Post-docs generally take on more complex 
projects and develop leadership and management skills. Most high-
energy-physics experiments involve 20 to 3000 scientists and face 
challenges that are similar to those in many businesses.
    Scientists trained in high-energy physics work in 
telecommunications, software development, aerospace, education, 
medicine, government, and finance, to name a few. About 90 percent of 
our Ph.D. students put their skills to work in other fields. Private 
businesses are the largest and most diverse employers of scientists 
trained in high-energy physics. Several former HEP researchers have 
founded or led small and large companies, including Richard Wellner, 
chief scientist at Univa UD, a cloud management software company; 
Francisco Vaca, CEO of Vaca Capital Management LLC; George Coutrakon, 
former director of operations at Loma Linda University Medical Center 
and now Technical Director of the Northern Illinois Proton Treatment 
and Research Center; Homaira Akbair, CEO of SkyBitz, a satellite-based 
tracking company; Rolland Johnson, founder and president of Muons, 
Inc., an accelerator R&D company; and Nagesh Kulkarni, CEO of 
Quarkonics Applied Research Corp., a business and technology consulting 
company.
    Our researchers are engaged in education at all levels and 
understand the importance of scientific literacy in our society. For 
example, hundreds to thousands of public lectures are given around the 
country by high-energy physicists each year. Our scientists visit local 
schools to share the excitement of science through physics 
demonstrations or presentations of their work. The QuarkNet program, 
funded through the Department of Energy Office of Science and National 
Science Foundation, trains K-12 teachers in 28 States in cutting-edge 
research that they can take into the classroom. More than 38,000 
students attend Fermilab education activities each year.
Summary
    Scientific research in general, and high-energy physics in 
particular, provides value to our Nation that will be lost without 
sustained funding from the U.S. Government. The knowledge that is 
gained will lead to future innovation that will maintain our world-
class scientific capabilities. The path to that knowledge will lead to 
advances in technology that will help sustain our economic recovery. 
And the education of students from the U.S. and abroad will provide the 
knowledgeable workforce that will carry us through the next half-
century.
    It is critically important to maintain our world-class position in 
scientific research. The repercussions of severe cuts will be felt for 
a long time. We urge the Senate Energy and Water Development 
Appropriations Subcommittee to support our scientific research program 
for the long-term health of the Nation, and to sustain funding to high-
energy physics and priority projects at Fermilab in order to reinvest 
in this core discovery scientific discipline.
                                 ______
                                 
            Prepared Statement of the Health Physics Society
    On behalf of the Health Physics Society (HPS), this written 
testimony for the record for fiscal year 2014 is submitted. By it, the 
Society stresses the critical importance of continued funding for the 
Integrated University Program (IUP) appropriated to the Nuclear 
Regulatory Commission (NRC) to support health physics programs, 
students, and faculty. This continued support is necessary to address 
the shortage of health physicists, which is an issue of extreme 
importance to the safety of our Nation's workers, members of the 
public, and our environment.
    Health Physics is the profession that specializes in radiation 
safety, which is necessary for the safe and successful operation of the 
Nation's energy, healthcare, homeland security, defense and 
environmental protection programs. Although radiation safety is 
fundamental to each of these vital national programs, there is no 
single Federal agency that serves as a home and champion for the health 
physics profession as this profession cuts across all these sectors. 
However, health physics is necessary for all these sectors to exist as 
it supports the principle disciplines in these programs that are 
championed by multiple Federal agencies, such as engineers, medical 
professionals, law enforcement professionals, military personnel, and 
environmental scientists.
    As the Nation's development and use of radioactive materials grew 
following the end of World War II, the Nation's demand for health 
physicists increased in the areas of energy, defense, public health, 
and environmental protection. This need was largely supported by 
student fellowships and scholarships largely from the Atomic Energy 
Agency (energy and defense) and Public Health Service (public health 
and environmental protection). However, over the years agencies and 
their missions changed, the nuclear power industry faltered and the 
Department of Energy (DOE) nuclear weapons complex downsized following 
the end of the cold war. This resulted in the academic program support 
from Federal agencies dwindling until the last remaining support from 
DOE was terminated in fiscal year 99. With this dwindling support, the 
supply of new health physicists declined and the age of existing health 
physics workforce increased despite the continued need for health 
physicists in energy, defense, public health, and environmental 
protection programs as well as an exponential growth in the medical and 
academic community. This resulted in a human capital crisis in health 
physics.
    With the realization of the growing health physics human capital 
crisis in the early years of the 21st century, Congress and the DOE 
took action to add support to the nuclear engineering academic programs 
through DOE programs in the Office of Nuclear Energy (NE) and 
eventually agreed that this was an appropriate support mechanism for 
health physics academic programs in institutions across the country. In 
fiscal year 2005, Congress appropriated money to DOE-NE for a health 
physics fellowship and scholarship program as part of the University 
Reactor Fuel Assistance and Support budget item. Shortly thereafter, 
Congress reinforced its position that DOE needed to support the health 
physics academic programs in provisions of Section 954 of the Energy 
Policy Act of 2005.
    Despite the need for an increased supply of health physics 
professionals continued to exist, the DOE ceased funding the 
Congressionally authorized DOE-NE health physics fellowship and 
scholarship program after only two fiscal years of funding the programs 
at minimal levels.
    In fiscal year 2008, Congress, led by the House Subcommittee on 
Energy and Water Development, and Related Agencies, transferred 
appropriations for a Nuclear Education Program, including health 
physics programs, to the NRC. The Health Physics Society applauds this 
insightful action. The NRC does have a vested interest in the radiation 
safety due to its own activities associated with most of the sectors 
covered by the health physics profession. The NRC quickly addressed the 
demands of starting a new education support program by opening two 
grant opportunities for student and faculty support. Not only has the 
NRC ably administered this program but also it has brought needed 
assistance to both students and academic programs at colleges and 
universities throughout the entire country.
    In order for the Committee to be able to put a human face on this 
program, Nicole Martinez, MA, a recipient of funding under this 
program, offers the following testimonial for your consideration.
    ``I attended Texas A&M University for my undergraduate degree and 
graduated Summa Cum Laude in December 2004 with a B.S. degree in 
Applied Mathematical Sciences. Upon graduation, I was commissioned in 
the United States Navy and became an instructor at Navy Nuclear Power 
training Command in Goose Creek, South Carolina. After separating from 
the USN in 2008, I took a job with General Physics Corporation in 
Montrose, Colorado. After a little over a year of working for GP, I 
decided to attend graduate school for health physics at Colorado State 
University.
    After my first semester, my original advisor left the university 
and there was no longer funding available for me. As such, I began 
looking for jobs and was planning on leaving the program. However, a 
grant funded by the Nuclear Regulatory Commission under the Integrated 
University Program came in, which enabled me to remain in school. My 
master's research focused on the occupational radiation dose received 
by persons working with veterinary positron emission tomography at 
CSU's veterinary teaching hospital. I defended my thesis in the summer 
of 2011 and decided to continue on for a PhD. As part of a 
collaborative effort with scientists at Savannah River Site, I spent a 
little over a year in an internship at Savannah River National 
Laboratory, which included data collection for my dissertation project; 
my current research is in the remote sensing of plant stress, 
specifically reflectance spectroscopy, which has potential applications 
in phytoremediation. I passed my preliminary exams during the summer of 
2012, and I returned to Fort Collins in January 2013 to begin data 
analysis and the writing process at CSU.''
    Without assistance from the NRC, our country would not have the 
benefit of Ms. Martinez's talents, and those of her fellow scholarship 
recipients, in the field of health physics for the future. Only with 
support from the NRC will we be able to continue to be able to maintain 
the academic infrastructure and scholarship funding that will train 
tomorrow's health physicists.
    The Committee's favorable consideration of this request will help 
meet our Nation's radiation safety needs of the future.
                                 ______
                                 
  Prepared Statement of the National Association for State Community 
                           Services Programs
    The National Association for State Community Services Programs 
(NASCSP) urges the U.S. Senate Committee on Appropriations Subcommittee 
on Energy and Water Development to fund the Department of Energy's 
(DOE) Weatherization Assistance Program (WAP) in fiscal year 2014 at no 
less than $230 million. NASCSP also supports base-formula 
appropriations of $57 million for the State Energy Program (SEP) in 
fiscal year 2014.
    In these austere budgetary times, we understand that difficult 
decisions have to be made amongst competing priorities. 
Notwithstanding, the WAP is proven, cost-effective, and measurably 
successful, delivering savings to low-income Americans as well as 
creating thousands of new jobs. Last year alone, more than 100,000 
homes were weatherized and a remarkable one million homes were 
weatherized between April 2009 and September 2012, far exceeding all 
goals and expectations. WAP faces an uphill battle in the immediate 
future due to a sharp reduction in funding post-Recovery Act, leading 
to the loss of jobs and capacity to assist low-income Americans.
    Congress drastically slashed the fiscal year 2012 allocation to WAP 
to $68 million--the lowest level since the second year of the program 
in 1976--due to many States having temporarily unexpended Recovery Act 
and fiscal year 2011 grant funding. The unique situation of fiscal year 
2012 no longer exists. Previously unexpended funds were nearly 100 
percent spent out by April 1, 2013 (the start of the 2013 WAP Program 
Year). Without an increase in funding to at least the level of $210 
million in fiscal year 2014, it is unlikely that the WAP will be able 
to continue operating as a national program. Substantial job losses 
will occur and the taxpayers' investment in the training of 
weatherization workers and technical training centers will be lost as 
workers are idled and training centers closed.
    The low-income WAP has been highly successful. Over the more than 
thirty-six years of its existence, it has installed energy saving 
improvements in more than 7.4 million homes. At peak funding, WAP 
generated 15,000 new jobs as well as a substantial economic impact 
through the supply chain of weatherization materials, suppliers and 
vendors.
    Some examples of the Program's accomplishments include:
  --Creation and support of more than 15,000 full time, highly skilled 
        jobs within the service delivery network at peak funding 
        levels, with 8,000-10,000 additional jobs from annual grant 
        funding, and many more in related businesses, such as vendors, 
        manufacturers, and materials suppliers;
  --Served over 7.4 million low-income homes since the program's 
        inception, with millions more high-energy use units still 
        eligible and in dire need of services;
  --Saves low-income families an average of $250 to $450 per year in 
        heating, cooling, and electric costs, depending on their 
        housing type, location, and fuel source;
  --Returns $2.51 for every dollar spent in energy and non-energy 
        benefits over the life of the weatherized home;
  --Serves as a foundation for residential energy efficiency retrofit 
        standards, technical skills, and workforce training for the 
        emerging broader residential energy efficiency retrofit market;
  --Impacts communities through local purchasing and jobs, supporting 
        over 10,000 local, American businesses nationwide;
  --Reduces residential and power plant emissions of carbon dioxide by 
        2.65 metric tons per year per home; and
  --Decreases national energy consumption by the equivalent of 24.1 
        million barrels of oil annually.
    WAP is the largest residential energy conservation program in the 
Nation and serves an essential function by helping low-income families 
reduce their energy use. The program was developed in the late 1970s as 
a response to rapidly rising energy costs associated with oil shortages 
created by oil embargoes. Congress acknowledged that low-income 
families were particularly vulnerable to increased energy price 
fluctuations and created the program to assist those families by 
reducing the cost to heat their homes. WAP was institutionalized within 
the Department of Energy in 1979 and today operates in all 50 States, 
the District of Columbia, five U.S. Territories, and several Native 
American Tribes. Approximately 1,000 local agencies provide services in 
every political jurisdiction of the country using direct hire crews and 
local contractors to do the work, thus investing in local businesses 
and communities. These network providers use program funds to improve 
the energy efficiency of low-income dwellings, utilizing the most 
advanced technologies and testing protocols available in the housing 
industry. Since the Program's inception, more than 7.4 million homes 
have been weatherized using Federal, State, utility, and other monies.
    The WAP is still as relevant now as it was when it was formed in 
response to the energy crisis of more than 35 years ago. The savings to 
America's most vulnerable citizens are significant and make a huge, 
immediate difference in their lives. These families have an average 
energy burden--the percentage of their income needed to pay residential 
energy bills--around 15 percent of their income as compared to around 3 
percent for non-low-income households, or five times greater. The 
lowest income families have a much higher energy burden than that. For 
example, in the State of California, Committee Chair Diane Feinstein's 
home State, there are over 718,000 households below 50 percent of the 
Federal poverty level, making less than $12,000 a year for a family of 
four. Those families have an energy burden of 53 percent, over half of 
their income. With lower energy bills, these families have more usable 
income to buy other essentials like food, shelter, clothing, medicine, 
and healthcare and thus invest in local businesses and communities. WAP 
provides a positive return on investment to meet its primary objectives 
of making homes warmer in winter and cooler in summer, creating safer 
and healthier indoor environments.
    Because of the advanced diagnostics and technology developed in 
WAP, the program is the foundation for the emerging home performance 
industry and green energy efficiency retrofit workforce. There are 
approximately 15,000 jobs in the Weatherization network, with many more 
supported in related businesses, such as material suppliers. These jobs 
are good, living wage jobs, which are more important than ever due to 
the economic downturn in the housing and construction industries. 
Workers are highly trained and receive on-going instruction to further 
develop their skills. WAP is at the core of the larger energy 
efficiency retrofit market, and its training curricula, methods, and 
centers play an integral role in developing tools and techniques and a 
workforce. WAP managers, trainers, and technical experts figured 
prominently in the development of the Guidelines for Home Energy 
Professionals and continue to play a key role in the development of 
standard work specifications, standardized training curricula, worker 
certifications, and training facility accreditations.
    In order to sustain the program, it is critical that the WAP 
maintain adequate funding so the network can continue to provide jobs 
and support local economies as well as promote energy efficiency 
nationwide. The fiscal year 2013 Continuing Resolution level of $68 
million is not nearly enough to continue nationwide coverage of the 
program. Continued low funding will result in the loss of jobs, 
investment of local business, and energy efficiency services that 
ensure the financial stability, health, and safety of families across 
the country.
    NASCSP urges the subcommittee to fund the Weatherization Assistance 
Program at not less than $230 million for fiscal year 2014, the funding 
level necessary to sustain a national program to serve low-income 
families in all local communities as it has traditionally done. WAP is 
clearly a proven investment, has provided significant energy savings, 
and has helped over 7.4 million families live in safer, more 
comfortable living conditions. This is a program that has proved its 
worth and effectiveness for over thirty years. NASCSP looks forward to 
working with Committee members in the future to ensure that this 
program continues as a sustainable national program to benefit low-
income Americans. NASCSP also supports base-formula appropriations of 
$57 million in fiscal year 2014 for the State Energy Program.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Chairwoman Feinstein, Ranking Member Alexander, and members of the 
subcommittee, I am David Terry, Executive Director of the National 
Association of State Energy Officials (NASEO). NASEO is submitting this 
testimony in support of funding for a variety of U.S. Department of 
Energy programs. Specifically, we are testifying in support of no less 
than $57 million for the base, formula State Energy Program (SEP). We 
deeply appreciate your strong historic support for SEP. SEP is the most 
successful program supported by Congress and DOE in this area. This 
should be base program funding, with no competitive portion, which 
focuses primarily on DOE's internal priorities. SEP is focused on 
working with private business to help facilitate direct energy project 
development, where most of the resources are expended. SEP has set a 
standard for State-Federal cooperation and matching funds to achieve 
critical Federal and State energy goals. The base SEP funds are the 
critical linchpin to help States in building on these activities and 
expanding energy-related economic development, much as SEP has done for 
over 30 years. We also support the $230 million level for the 
Weatherization Assistance Program (WAP). Led by Senators' Reed and 
Collins, forty Senators signed a ``Dear Colleague'' letter to you, 
supporting funding of $57 million for SEP and $230 million for WAP. 
These programs are successful and have a strong record of delivering 
savings to low-income Americans, homeowners, businesses, and industry. 
We also support the funding level provided in the fiscal year'13 Budget 
Request for the Energy Information Administration (EIA) of $116.4 
million. EIA's state-by-state data is very helpful and has been 
improving. EIA funding is a critical piece of energy emergency 
preparedness and response, and there are significant EIA 
responsibilities under EISA. NASEO continues to support funding for a 
variety of critical buildings programs, including Building Codes 
Training and Assistance, Energy Star, and residential energy efficiency 
(including Building America) at least at the fiscal year'12 level, and 
Building Codes at a $15 million funding level. The industries program 
(renamed the Advanced Manufacturing program) should promote efficiency 
that maintains and grows U.S. manufacturing jobs through the CHP Clean 
Energy Application Centers, Industrial Assessment Centers, industrial 
efficiency best practices, and advanced manufacturing technologies. The 
current approach does not appropriately balance funding among these 
activities. State and industry input shows a need to increase funding 
that supports the technical needs of existing small and medium-sized 
manufacturers that can benefit from low-cost and nearer term efficiency 
technologies and opportunities. Further, there should be greater 
emphasis on leveraging combined efforts of the States and industry. 
NASEO also supports funding for the Office of Electricity Delivery and 
Energy Reliability (OE) at the level of the fiscal year'13 Budget 
Request. Specific funding should be provided for the Division of 
Infrastructure Security and Energy Restoration of no less than $18 
million, which funds critical energy assurance activities that support 
State energy office--Federal coordination and capabilities on energy 
emergency response. For example, these activities were crucial in 
dealing with Super Storm Sandy. We also strongly support OE's R&D and 
Operations and Analysis functions. We are also interested in working 
with this subcommittee, Congress and the Administration on the proposed 
``Race to the Top'' initiative. However, the proposed ``Race to the 
Top'' should not supplant SEP or WAP funding.
    Formula SEP funding provides a basis for States to implement 
practical energy projects with businesses and aids in sharing best 
practices among the States. These best practices allow States to 
leverage funding and get a great deal accomplished. These types of 
activities include energy financing programs, revolving loans, utility-
based programs, energy service performance contracts, etc.
    In January 2003 (and updated in 2005), Oak Ridge National 
Laboratory (ORNL) completed a study and concluded, ``The impressive 
savings and emissions reductions numbers, ratios of savings to funding, 
and payback periods . . . indicate that the State Energy Program is 
operating effectively and is having a substantial positive impact on 
the Nation's energy situation.'' ORNL found that $1 in SEP funding 
yields: 1) $7.22 in annual energy cost savings; 2) $10.71 in leveraged 
funding from the States and private sector in 18 types of project 
areas; 3) annual energy savings of 47,593,409 million source BTUs; and 
4) annual cost savings of $333,623,619. Energy price volatility makes 
the program more essential as businesses and States work together to 
maintain our competitive edge.
    Examples of Successful State Energy Program Activities.--The States 
have implemented thousands of projects. We have previously supplied to 
subcommittee staff examples of programs and projects implemented. Here 
are a few representative examples.
    Alabama.--In Alabama, SEP funds are used to support the purchase 
and installation of energy efficient equipment in K-12 schools. The 
energy improvements, including HVAC systems, lighting retrofits, 
insulation, window and energy management controls, have been 
implemented in approximately 120 schools and have generated cost-
savings exceeding $1 million a year.
    Alaska.--Alaska established the $250 million Alaska Energy 
Efficiency Revolving Loan Fund in 2010. The fund is available to 
finance energy efficiency improvements for public facilities throughout 
the State. SEP funds were used to collect benchmarking data on about 
1200 public facilities, plus approximately an additional 100 University 
and State-owned facilities, in order to identify high-energy using 
buildings.
    California.--The Clean Energy Business Financing Program for 
manufacturers has led to the deployment of critical energy projects and 
products. An energy retrofit program recently led to 2500 homeowners 
savings an average of 29 percent on utility bills. The Green Jobs 
Training grants have been awarded to 46 community colleges, which has 
helped train 8000 people. In one example, the RichmondBUILD pre-
apprenticeship Construction Skills Academy worked with Contra Costa 
College to improve the curriculum and program graduates now have a 90 
percent job placement rate. This State is improving energy efficiency 
in State-owned buildings through the State Property Revolving Loan Fund 
Program. This sustainable loan program is supporting energy upgrades in 
more than 60 buildings located throughout the State--including energy 
retrofit projects in 18 California Highway Patrol Offices.
    Illinois.--Illinois uses SEP funds to promote the development of 
renewable energy and energy efficiency manufacturers and supply-chain 
businesses in the State. Since 2010, one of its programs, the Green 
Business Development Grant Program, has awarded grants to 25 Illinois 
manufacturers that have expanded into the green technology sector by 
retrofitting their manufacturing processes.
    Iowa.--With approximately 2,500 wind turbines in the State of Iowa, 
and 3,670 megawatts of generation, it is ranked second nationally in 
wind-produced electricity. Iowa is also recognized as a national leader 
in manufacturing wind energy equipment and supplies, and over the past 
2 years, SEP grants have been given to several organizations to 
continue to install wind turbines for education and generation 
purposes.
    Kentucky.--The Kentucky Department of Energy Development and 
Independence (DEDI) helps teams of designers, architects, and school 
administrators develop and construct, cost-effective zero-net energy 
capable schools. The energy use reductions and cost savings have been 
dramatic. The training and assistance efforts, accomplished through SEP 
funding, played a pivotal role in helping Kentucky pursue and achieve 
its market transformation goals, while simultaneously encouraging other 
States (e.g., VA, MD, NC) to identify similar opportunities.
    Louisiana.--In Louisiana, SEP funding helps support the popular 
Home Energy Rebate Option Program (HERO). The program offers a cash 
rebate for energy retrofits, as well as providing training, and quality 
control for the energy raters who certify efficiency projects. During 
the past 2 years, more than 1,100 existing homes were retrofitted, 
resulting in a 30 percent average increase in energy efficiency per 
home and nearly 47,000 MMbtu in total annual energy savings in all 
homes completed.
    Maine.--SEP funds supported Maine's Home Energy Savings Program 
which launched in 2010. To date, approximately 5,000 Mainers have 
conducted residential energy audits with more than 3,000 of these 
homeowners receiving rebates for whole-house energy upgrades. More than 
100 licensed construction companies have been certified to participate 
in the program, which has resulted in excess of $27 million worth of 
residential energy retrofit projects.
    Mississippi.--In Mississippi, an SEP grant program provides 
incentives to public and private entities to help deploy commercially 
available renewable energy technologies in 17 projects across the 
State. Twelve of the 17 projects involve photovoltaics (PV). Eight PV 
projects, representing 359.9 kW of renewable generation, have been 
completed, and four others are underway. One of the ongoing projects is 
at Twin Creeks Technologies' manufacturing facility in Senatobia, 
allowing the company to install a 60kW rooftop solar array at its 
photovoltaic production facility. This project, along with all others 
benefiting from the grant program, were completed in 2012. Their public 
buildings program is helping to finance energy-saving upgrades through 
performance contracting in 10 public institutions. The participating 
public sector partners include the Biloxi School District, Cleveland 
School District, Desoto County, Jefferson County, Lawrence County 
School District, Mississippi State Hospital, Monroe County School 
District, Claiborne County, Alcorn County School District and 
Hollandale School District. Under the program, 149 public buildings, 
representing more than 3 million square feet of space, have been 
completed.
    Montana.--Montana's Alternative Energy Revolving Loan Program 
(AERLP) was created using a variety of funding sources, including SEP 
funds. AERLP provides a financing option to Montana homeowners, small 
businesses, non-profits and government entities to install alternative 
energy systems. Funds are paid back to the program over time and loaned 
out again and again, extending the funding benefits for years. Loans 
are capped at $40,000 and carry a 3.5 percent interest rate (rate 
adjusted annually) with terms of up to 15 years.
    New Jersey.--Among the programs funded in New Jersey through SEP, 
are a Combined Heat and Power (CHP) grant, a grant for energy projects 
in public buildings, a residential energy efficiency retrofit program, 
and a financing program for residential solar. The Energy Efficiency 
through Clean CHP program provides grants for CHP production at 
existing facilities of large commercial and industrial customers. All 
totaled, nearly 35 MW of clean energy production has resulted from this 
SEP-funded grant program.
    New Mexico.--Among New Mexico's recent energy efficiency successes 
using SEP funding is a traffic light project launched in 2009 and 
completed in 2010. In partnership with the New Mexico Department of 
Transportation, this project used SEP funding to convert 355 traffic 
signals in 33 communities around the State from incandescent lamps to 
light-emitting diode (LED) lamps. After 1 year in operation, the LED 
traffic signals program has resulted in a 75 percent energy savings and 
67 percent cost savings.
    North Dakota.--In North Dakota, industrial energy efficiency 
activities supported through SEP funding include the North Dakota State 
University (NDSU) Agricultural Energy Efficiency program, a grant to 
support utility rebates and grants for municipal utilities to upgrade 
their municipal utility systems. NDSU is using SEP funding to conduct 
workshops on energy-conserving farming practices. To date, nearly 45 
workshops have been held with over 850 participants attending.
    South Carolina.--During the past 2 years a public building energy 
retrofit program in South Carolina, using SEP funds, has resulted in 
energy efficiency improvements in 579 buildings statewide. The 
buildings represent nearly 21 million square feet of public building 
space and include 32 two- and four-year colleges, 22 State agencies and 
85 school districts. All measures funded through the program's grants 
and loans have a minimum return on investment of at least 2.5 to 1 in 
energy costs savings.
    South Dakota.--Over the past few years, South Dakota used an SEP 
grant for the Office of the State Engineer to conduct an energy audit 
of all State-owned buildings. The audit covered more than 14 million 
square feet of buildings statewide and projected a potential annual 
energy savings to South Dakota taxpayers of more than 200,000 mWh, or 
about $145,000. Cost-effective projects have been carried out in 55 
buildings, totaling 7.4 million square feet of space.
    Tennessee.--The State used $15 million in funding to launch an 
energy efficiency loan program in partnership with Pinnacle Bank, TVA 
and others. $35 million in private sector funds was leveraged. 
Businesses received loans for energy efficiency and renewable energy 
improvements paid for through energy use reductions. During the most 
recent quarter, projects included LED lighting in Bristol, high 
efficiency water heaters in Knoxville and 3 major industrial energy 
efficiency projects in Lexington, Chattanooga and Athens. Another 
partnership between the State, the University of Tennessee and Oak 
Ridge National Laboratory led to 236 grants and over $40 million in 
private sector leverage for energy projects.
    Washington.--SEP funding was used for a renewable energy and energy 
efficiency financing program. The loans, loan guarantees, and grants 
from this program are encouraging a number of innovative energy 
technologies. By the end of 2012, more than 30 projects were completed 
under this program, with more on the way.
    Contact Information.--David Terry, NASEO Executive Director (Email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ceaabaabbcbcb78ea0afbdaba1e0a1bca9">[email&#160;protected]</a>). Address: NASEO, 2107 Wilson Boulevard, Suite 850, 
Arlington VA, 22201. Jeff Genzer, NASEO Counsel (Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="046e676344607363742a676b69">[email&#160;protected]</a>).
                                 ______
                                 
       Prepared Statement of the National Hydropower Association
    The National Hydropower Association \1\ submits this statement in 
support of $59 million for the U.S. Department of Energy's (DOE) fiscal 
year 2014 Water Power Program and its research and development (R&D) 
initiatives. The program provides critical R&D support to ensure that 
innovative new technologies and operational advancements arrive at 
market, increasing America's clean energy portfolio and providing 
economic and jobs benefits the country needs.
    As we work to improve and facilitate new project development on the 
Nation's existing waterway infrastructure, we also strongly advocate 
directing resources to the U.S. Army Corps of Engineers (USACE) and 
Bureau of Reclamation.\2\
 requesting $59 million in fiscal year 2014 funding for the doe water 
                             power program
    In recognition of scarce Federal resources, we propose a fiscal 
year 2014 funding request for the DOE Water Power program that 
represents no increase over the current congressionally adopted funding 
level of $59 million. Funds should be directed across all hydropower 
technology sectors including--conventional hydropower, pumped storage, 
marine and hydrokinetic (MHK), and conduit technologies.
                   advocating for federal r&d support
    Hydropower offers tremendous promise as a way to address some of 
our most pressing energy challenges while creating a multitude of 
economic and jobs opportunities in localities across the country. By 
maintaining stable funding for the Water Power program's R&D 
initiatives, we bring the country closer to expanding a home-grown and 
clean resource. Continued research into how to increase the cost 
effectiveness of this resource will quicken the pace to commercialize 
and make use of new water power generation advancements.
    Furthermore, continued funding of basic and applied research and 
development for clean energy technologies balanced with work on 
commercialization, market transformation and other efforts ensures that 
products, services, and data assessments are transferred to the private 
sector.
    In addition, NHA's request for continued Federal support for 
hydropower R&D is in line with the Administration's pledge to spur 
investment in renewable energy projects that also create well-paying 
domestic jobs. This aligns with the president's own goal to explore 
``targeted and smart investments to help catalyze renewable energy 
technologies'' that can lead to more U.S. manufacturing.
              the department of energy water power program
    The DOE Water Power Program is growing the Nation's global position 
by funding cutting-edge research to produce the next generation of 
hydropower, pumped storage and marine and hydrokinetic (MHK) 
technologies, and by accelerating the development of markets for those 
technologies. Over the years, the program has been the smallest of the 
DOE R&D programs, yet as described below, will play a central role in 
the future as the country looks to bring more new renewable energy 
online and integrate increasing amounts of intermittent energy 
resources.
    Increasing hydropower generation provides more clean energy 
megawatts to the grid, and also increases the amount of grid 
reliability, stability and integration services needed to support the 
penetration of resources like wind and solar. Hydropower and pumped 
storage projects can provide utility and grid-scale energy storage, and 
other ancillary services, but doing so will require projects to operate 
in new ways and modes, and in some cases, utilize new technologies.
    This makes continued Federal research investments vitally 
important.
    Further, the hydropower industry employs more than 300,000 workers 
in the U.S., making it the largest renewable electricity production 
workforce in the Nation. With the DOE's goal for waterpower 
technologies to provide 15 percent of the Nation's energy by 2030, 
hydropower can provide hundreds of thousands of new jobs and economic 
development benefits.\3\
                     priority hydropower r&d needs
    In support of the country's energy independence and clean energy 
goals, NHA has identified industry R&D priority topics that will 
enhance the industry's ability to grow and develop new projects, 
technologies, and operational modes, to maintain and enhance generation 
at existing projects as well as support new project deployment.
           market analysis on the value of ancillary services
    In addition to being our Nation's largest renewable energy 
generator, hydropower provides ancillary services to the power grid 
such as frequency regulation, spinning reserves, voltage control, and 
load following, among others.
    However, current market structures undervalue--and largely take for 
granted--the ancillary services provided by hydropower, which serves as 
a disincentive for further development. Improving methods to estimate 
the benefits of the ancillary services provided by conventional and 
pumped storage generation would not only refine the valuation of 
hydropower-generated energy, potentially leading to additional project 
development, it would also increase grid stability.
    Initiatives could include.--research market structures that would 
provide appropriate incentives to build new assets providing ancillary 
services; and improve methods to estimate and value benefits of 
ancillary services.
        conventional hydropower and pumped storage generator r&d
    Due to the significant addition of intermittent generation 
resources such as wind and solar to the grid, hydropower and pumped 
storage assets are operated with more starts and stops that increase 
operation and maintenance costs. Generators with faster cycling times, 
variable speeds, and improved efficiencies would benefit the grid, 
increase generation, allow for increased penetration of intermittent 
sources, and lower the costs for operation and maintenance.
    This is particularly needed for the pumped storage sector, which is 
our Nation's largest form of grid energy storage accounting for 99 
percent of storage capacity in the U.S. and worldwide. Due to its 
importance in maintaining a stable power grid, further investigation of 
industry needs would help to facilitate expansion of existing 
hydropower pumped storage and the deployment of new facilities.
    Technological advancements in generators, the diversification of 
plant configuration options, improvement of pump-back efficiencies, and 
investigation of multi-phase systems all provide the potential for 
increased generation and grid stabilization, while reducing the price 
of power.
                           advanced turbines
    Advanced turbines have potential to add significant generation 
capacity by addressing environmental mitigation issues that are often 
barriers to adding new capacity to existing projects as well as 
developing new projects. Deployment, testing and monitoring of these 
advanced turbines is required to prove the environmental effectiveness, 
operational performance, and document operational and maintenance 
costs.
    One of the major challenges facing the hydropower industry is in 
providing effective downstream fish passage, particularly at sites with 
threatened or endangered species. Advanced turbines are intended to 
reduce the fish mortality associated with turbine entrainment. In 
addition, market analysis of new potential installation locations, and 
comprehensive evaluations of potential uses and locations for advanced 
turbines will facilitate long-term deployment. Multiple site 
installations will be required to verify advanced turbines as its 
effectiveness is site dependent.
    In addition, small hydropower resources in the U.S. are 
underutilized due the capital expense in development, environmental 
mitigation, and licensing. Advances in small turbine designs to reduce 
the cost of installation and/or environmental mitigation would lead to 
an increase in hydropower generation.
    Further research into the recent experiences of small hydropower 
developers as well as reviewing the new low-head turbine applications 
would create efficiencies for potential project developers. Similar to 
large hydropower sites (which have been the primary focus of current 
turbine research), a primary challenge for smaller installations is 
fish passage and entrainment mitigation. As such, research into the 
available turbine and other mitigation technologies that minimize 
injury, mortality, as well as address water quality issues, while 
maximizing power generation, would facilitate small project deployment.
                       additional r&d initiatives
    Beyond the specifics mentioned above, the hydropower industry has 
identified other R&D topics including:
  --hydropower generation system integration (operational forecasting 
        of renewable energy; benefits of aggregating small distributed 
        hydro assets);
  --computational fluid dynamic (CFD) modeling (improvements in flow 
        modeling; turbine analysis; water quality modeling and mixed 
        phase modeling);
  --flow measurement (research improved flow measurement methods and 
        lower costs and maintenance of continuous flow measurement 
        techniques);
  --hydro resources and assets database development (clearinghouse of 
        all available information, studies, results and compilations 
        including growth potential, mitigation effectiveness, best 
        practices, etc.)
   support for increased hydropower development at federal facilities
    In this request, NHA also urges the Committee to direct support to 
the Army Corps of Engineers Civil Works and the Bureau of Reclamation 
efforts to operate, maintain, and upgrade their existing hydropower 
projects as well as to build on their existing non-powered 
infrastructure.
    Recent Federal studies show that thousands of megawatts of new 
hydropower capacity exist at non-powered dams owned or operated by the 
Army Corps of Engineers as well as significant growth potential at 
existing Bureau canals and conduits.
    NHA, along with members of the NGO community, have formed a 
coalition to address issues with non-Federal hydropower development at 
these Federal sites. Without action to redress current challenges as 
experienced by developers wrought with costly and unnecessary delays, 
the country will not realize the significant energy potential these 
untapped sites offer.
                               conclusion
    Unlocking the vast hydropower potential of our rivers, oceans, 
tides and conduits requires funding the R&D and other initiatives that 
make innovative ideas a reality. The DOE Water Power Program is an 
important source of support for the researchers, scientists, and 
project developers and owners working to grow to our country's clean 
energy resources.
    We urge Congress to maintain current $59 million funding level for 
the DOE program and to provide funding support to the Corps of 
Engineers and the Bureau of Reclamation. This investment will increase 
not only the amount of clean, renewable hydropower generation, but also 
the grid services needed to expand the use of intermittent, variable 
energy resources as well.
---------------------------------------------------------------------------
    \1\ NHA, with over 180 members, is the national trade association 
dedicated to promoting the Nation's largest renewable electricity 
resource and advancing the interests of the hydropower, pumped storage, 
and new ocean, tidal, conduit and in-stream hydrokinetics industries.
    \2\ For example, DOE has identified 12 GW of new capacity at 
existing non-powered dams. Of the top 100 sites, for which there is 8 
GW of potential, 81 are on USACE dams.
    \3\ DOE, Office of Energy Efficiency and Renewable Energy, ``Water 
Power for a Clean Energy Future,'' at P.2. http://www1.eere.energy.gov/
water/pdfs/wp_accomplishments_brochure.pdf
---------------------------------------------------------------------------
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation
    On behalf of the National Wildlife Federation (NWF), the Nation's 
largest member-based conservation advocacy and education organization, 
and our more than four million members and supporters, we thank you for 
the opportunity to provide fiscal year 2014 funding recommendations for 
the Department of the Energy, the Army Corps of Engineers, and other 
agencies under the jurisdiction of this subcommittee.
    We understand the very difficult budget choices facing the 
subcommittee and the Nation as we move forward under the constraints of 
the Budget Control Act of 2011 (Public Law 112-25). That said, it is 
our belief that disproportionate cuts to conservation programs 
represent policy positions not consonant with the priorities and values 
of most Americans. These programs protect cherished lands and waters, 
conserve the natural resources that are vital to the Nation's continued 
economic vitality, and decrease the climate-changing carbon pollution 
that puts all Americans at risk.
    National Wildlife Federation is committed to protecting wildlife 
for our children's future, and we recognize that climate change is the 
single largest threat facing our wildlife, critical habitats, and 
public health. Without significant new steps to reduce carbon 
pollution, our planet will warm by 7 to 11 degrees Fahrenheit by the 
end of the century, with devastating consequences. For much of 
America's most valued wildlife, the climate crisis is already here: 
habitat loss and increases in droughts and wildfires are already having 
noticeable effects on vulnerable populations of some of America's most 
iconic species. Reducing carbon pollution by continuing a robust 
investment in clean energy is critical to transitioning the country to 
cleaner, more secure sources of energy.
    In the wake of Hurricane Sandy and ever-increasing extreme weather 
events, it is more important than ever to confront climate impacts and 
preserve our most valuable natural buffers. Wetlands such as the 
Everglades and Coastal Louisiana are both incredibly biodiverse and 
ecologically valuable and serve as a critical buffer between coastal 
economies and the destructive forces of storm-driven waves and tides. 
NWF supports continued investment in wetlands conservation and 
restoration to better protect people, property, and the environment.
    NWF and its members remain concerned about proposed funding 
reductions to many of the Federal Government's core commitments and 
programs for conserving fish and wildlife, sustaining and restoring 
important ecosystems, and maintaining clean air and water. Perhaps of 
even greater concern are efforts to rewrite the Nation's landmark 
environmental laws through the use of policy riders on the 
appropriations bill. National Wildlife Federation urges the 
subcommittee to pass a bill free of such riders while making the 
necessary investments in our essential conservation and environmental 
programs and commitments in the fiscal year 2014 appropriations bill.
    National Wildlife Federation is overall supportive of the 
President's fiscal year 2014 budget request, which we view as balancing 
fiscal responsibility with continued investments in essential 
conservation and environmental programs. Below, we offer 
recommendations for specific budget items and programs.
                        i. department of energy
Energy Efficiency and Renewable Energy
    The Office of Energy Efficiency and Renewable Energy provides 
critical programs focused on driving clean and renewable energy 
research, development and demonstration. Advancing solutions that 
promote cleaner energy sources, jobs, and a safer and more sustainable 
future for our children is critical to confronting the climate crisis. 
EERE's work is an essential to reducing our dependence on fossil fuels 
and shifting toward an energy strategy that considers the protection of 
wildlife and their habitats. NWF is strongly supportive of the 
Administration's fiscal year 2014 request of $2.78 billion for the 
Office of EERE. The $995 million increase from fiscal year 2012 aligns 
with the President's energy goals and reflects the allocation of 
funding necessary for bringing such important targets to fruition.
    The Offshore Wind Demonstration Funding Opportunity recognizes the 
market barriers to offshore wind production and offers opportunity for 
leading innovators in this new industry to secure funding and get the 
first projects in U.S. waters. By continuing this initiative, EERE's 
wind and water program will be able to award $20 million to three of 
the seven competitively selected projects currently in their 
engineering phases, and support their progress through design, 
construction, and installation. The 6-year, $168 million initiative 
anticipates funding some offshore wind deployment by 2017, allowing 
America to begin harnessing the potential of this significant untapped 
resource. The Department of Energy has a decades-long legacy of 
spurring innovations in wind energy, and today the wind industry 
employs 85,000 Americans and has large wind power projects in 38 
States. Continued investment in this fast-growing industry is both 
economically viable and environmentally responsible. NWF endorses the 
Administration's request of $46 million for offshore wind programs.
                      ii. army corps of engineers
Comprehensive Everglades Restoration Plan
    America's Everglades are one of the most unique and biodiverse 
ecosystems in the world, designated as Ramsar Wetlands of International 
Significance. In the 1940s the Army Corps drained the Everglades 
resulting in substantial wetland and habitat loss. Protection of the 
remaining ecosystem and restoration of ecological function are critical 
for water supply, wildlife, water quality, recreation, tourism, and the 
economy of South Florida. A recent study indicates each dollar invested 
in restoring the Everglades will result in a four dollar return. 
Beginning in the 1980s, Congress made and has affirmed its commitment 
to restoring the historic River of Grass by allowing fresh water to 
flow southward and later enacting the Comprehensive Everglades 
Restoration Plan (CERP). This subcommittee has made substantial 
progress in furthering that promise in recent years by providing 
support to the US Army Corps of Engineers so it can fulfill the goals 
of CERP. Sustained funding to keep restoration projects on schedule is 
critical to avoiding collapse of the ecosystem, economy, and water 
supply of 7.5 million South Floridians. NWF strongly supports continued 
support and commitment to Everglades Restoration.
Louisiana Coastal Area, Ecosystem Restoration
    The Louisiana coastal plain is the largest expanse of coastal 
wetlands in the contiguous United States, and is one of the Nation's 
most productive and valuable natural regions. It is home to an 
incredible diversity of habitats and wildlife, including endangered and 
threatened species and economically important finfish and shellfish, 
and serves as crucial habitat for migratory birds. Coastal wetlands 
serve as a vital buffer between storm-driven waves and tides and the 
nearly 2 million people and the critical industries and ports along the 
Louisiana coast. These invaluable wetlands are now losing a football 
field of land every 38 minutes-a total of 1900 square miles since the 
1930s. The Coastal Wetlands Planning, Protection, and Restoration Act, 
locally referred to as the Breaux Act and passed in 1990, the ``Coast 
2050: Toward a Sustainable Coastal Louisiana'' plan adopted in 1998, 
and the Louisiana Coastal Area, Louisiana Ecosystem Restoration Study 
initiated in 2002, are important steps towards stemming this alarming 
loss, but continued commitment from Congress is needed to ensure that 
one of our most valuable natural regions does not disappear. It is 
crucial that we continue to fund the restoration of coastal Louisiana, 
and NWF strongly supports the President's new request for $6,285,000 
for Louisiana Coastal Area Ecosystem Restoration.
                                 ______
                                 
           Prepared Statement of the Nuclear Energy Institute
    The Nuclear Energy Institute \1\ (NEI) appreciates the opportunity 
to provide testimony on Department of Energy and Nuclear Regulatory 
Commission programs to the House Appropriations Subcommittee on Energy 
and Water Development.
    NEI believes the Federal Government's nuclear energy research and 
development programs in fiscal year 2014 should focus on (1) developing 
technologies and other solutions that can improve the reliability and 
safety of operating reactors and extend their lifetimes; (2) developing 
new reactor types that will enable nuclear energy to help meet the 
Nation's energy and environmental goals; (3) developing a sustainable 
used nuclear fuel management program; and (4) enhancing nuclear non-
proliferation programs. Specifically, the nuclear energy industry:
  --Opposes reinstating a Decommissioning and Decontamination Fund tax 
        on nuclear power plant operators to pay D&D costs at the 
        Federal Government's uranium enrichment plants;
  --Supports DOE funding for a comprehensive, sustainable used nuclear 
        fuel management program;
  --Supports increased funding for the DOE Small Modular Reactor 
        licensing program;
  --Opposes the cut in funding for the completion of the Mixed-Oxide 
        (MOX) Fuel Facility; and,
  --Supports the reforms necessary to make the DOE loan guarantee 
        program a workable financing platform for clean energy 
        technologies, including advanced nuclear power plants.
   another uranium enrichment d&d tax unfair to electricity consumers
    NEI strongly opposes the President's fiscal year 2014 budget plan 
to reinstate the uranium enrichment decontamination and decommissioning 
tax, which would have a negative impact on consumers of electricity in 
an economy struggling to recover. Despite its negative impact on all 
consumers of electricity, the Obama Administration continues to propose 
reinstatement of this tax as a means of raising revenue. The three 
uranium enrichment plants in question operated for 25 years as defense 
facilities and were irretrievably contaminated long before any sales of 
enrichment services to the commercial industry. In addition, the 
industry has paid twice its share of the funds necessary to clean up 
these facilities--first, payment was received as part of the price for 
DOE uranium enrichment services from the facilities, and again under 
the Energy Policy Act of 1992. Under the 1992 law, the tax on electric 
utilities was to end after 15 years or the collection of $2.25 billion, 
adjusted for inflation. The industry paid this amount in full. The 
industry appreciates the support of the subcommittee in previous years 
to reject this proposal and again encourages members to continue to 
oppose this unjust tax on consumers.
                      used nuclear fuel management
    NEI asks the subcommittee to provide sufficient funds to DOE and 
NRC to complete the licensing of the proposed Yucca Mountain repository 
for used reactor fuel. NEI urges the subcommittee to provide direction 
and funding to DOE in support of the following Blue Ribbon Commission 
on America's Nuclear Future (BRC) recommendations:
  --Establish a new organization dedicated solely to implementing the 
        nuclear waste management program and empowered with the 
        authority and resources to succeed;
  --Establish one or more consolidated storage facilities for used 
        nuclear fuel while making substantial progress toward 
        developing a repository for fuel disposal; and
  --Provide access to the annual collections and corpus of the Nuclear 
        Waste Fund.
              advanced reactor and fuel cycle technologies
    NEI supports programs managed by DOE's Office of Nuclear Energy to 
accelerate commercial development of new reactor technologies, sustain 
safe operation of the reactors that provide one-fifth of America's 
electricity, and develop advanced fuel cycles to manage used nuclear 
fuel. NEI considers certain programs as extremely high priority:
  --Small Modular Reactor Licensing Technical Support--$114 million 
        (+$47 million)
  --Fuel Cycle Research and Development--$165.1 million
  --Reactor Concepts Research, Development and Demonstration--$72.5 
        million
  --Energy Innovation Hub for Modeling & Simulation--$24.3 million
  --Integrated University Program--$5 million (DOE)/$15 million (NRC) 
        (+$20 million)
                     small modular reactors (smrs)
    As originally conceived, the SMR licensing support program was to 
promote accelerated development of these technologies by supporting 
cost-shared, first-of-a-kind activities for design certification and 
licensing activities for up to two SMR designs. One team was chosen 
from those that responded to the first Funding Opportunity Announcement 
(FOA), and DOE has released a second FOA to support an additional team 
or teams. NEI supports the second FOA and encourages DOE to complete 
the procurement process by September 2013, as it has proposed. Given 
the potential benefits--job creation, clean electricity supply, and 
exports--we encourage the subcommittee to ensure that this program is 
effectively and expeditiously implemented. Accelerated, near-term 
development is critical to ensure the international competitiveness of 
domestic SMR designs. However, this program has been underfunded by 
about 30 percent for the past 2 years. In order to achieve the proposed 
$452 million program the committee is encouraged to provide $114 
million in fiscal year 2014. We acknowledge that DOE has now proposed a 
six-year cost-shared program to achieve the mission which we support. 
However, the Committee should recognize that additional funding may be 
required to accomplish the DOE's expanded plan.
                    advanced fuel cycle technologies
    NEI supports $165.1 million for the Fuel Cycle R&D program, 
including $60 million for DOE to implement generic activities 
recommended by the BRC on geological research, transportation options, 
extended fuel storage, and the consent-based siting process. The 
balance of the program funding supports a systematic and focused effort 
to develop advanced separation technologies and reactor types that can 
maximize the use of spent fuel from commercial nuclear power 
production. As budgets become more constrained, NEI believes that this 
program should be focused on, and guided by, reasonable prospects for 
commercial development and, wherever possible, coordinated with 
industry and similar programs being pursued by our international 
colleagues.
        reactor concepts research, development and demonstration
    DOE's advanced nuclear energy research agenda is supported by this 
$72.5 million budget. NEI believes $21.5 million for the Light Water 
Reactor Sustainability (LWRS) program is necessary for a program in 
which DOE has partnered with industry and the NRC to coordinate 
research needs and share costs to extend the operation of commercial 
reactors. DOE's long-term research into advanced small reactors, gas-
cooled reactor technology and accident-tolerant fuels are also 
supported in this budget. NEI urges subcommittee to support these 
initiatives.
                     integrated university program
    NEI believes the administration's attempt to terminate the 
Integrated University Program (IUP) is folly at a time when demand for 
nuclear-trained workers is increasing and advances in nuclear science 
and technology can contribute to the U.S. economy, energy security, 
global competitiveness, and national nuclear security. A $5-million 
program at DOE, together with an associated $15-million NRC program, 
provides important nuclear science and engineering research and 
workforce training at America's universities and community colleges.
                  completion of the mox fuel facility
    NEI opposes the $183 million cut in funds for the MOX fuel facility 
now under construction at the Savannah River Site in South Carolina. 
This facility is important to U.S. national security and as a 
demonstration of America's commitment to nonproliferation. It is 
approximately halfway through construction, at a cost of $4 billion to 
date. When operating, the facility will convert some 34 metric tons (at 
minimum 17,000 weapons) of surplus weapons-grade plutonium into MOX 
fuel for use in commercial power reactors. It is estimated that the 
fuel from the MOX project would produce $50 billion worth of 
electricity and enable the Federal Government to eliminate the expense 
of storage and surveillance of the plutonium. Construction and 
operation of the MOX plant is the result of years of work and 
commitments with the Russian Federation, the State of South Carolina, 
and thousands of workers at the site and across the country. Each of 
those parties made commitments to this program on the assumption that 
the U.S. Government is a credible partner capable of fulfilling its 
arms control and nonproliferation commitments. Failure to complete this 
project will validate those critics of the Government who claim it 
simply cannot complete complex projects, particularly those concerning 
nuclear materials disposition.
            reform doe's clean energy loan guarantee program
    The nuclear industry appreciates the support provided in previous 
years by the subcommittee for the DOE loan guarantee program for new 
nuclear energy plants and nuclear fuel cycle facilities. NEI urges the 
subcommittee to maintain the appropriated funds for projects under 
development.
    NEI believe that the loan guarantee program has great potential. 
There is no cost to taxpayers for nuclear energy project loan 
guarantees, but there is significant benefit to consumers. The use of 
loan guarantees will lower the overall cost of nuclear energy projects, 
ultimately reducing the cost of electricity to consumers. Companies 
granted loan guarantees by DOE for nuclear energy projects must pay a 
premium (the credit subsidy cost) for use of the program, and cover all 
administrative costs.
    New nuclear projects must have financing support-either loan 
guarantees from the Federal Government or assurance of investment 
recovery from State governments, or both. The States are doing their 
part. Throughout the South and Southeast, State governments have 
enacted legislation and implemented regulations to advance new nuclear 
plant construction. A comparable Federal Government commitment--in the 
form of a workable loan guarantee program--is in the national interest. 
For the nuclear energy industry, one of the most significant challenges 
involves determining the credit subsidy cost. NEI believes the 
methodology used by the Executive Branch inflates the credit subsidy 
cost well beyond the level required to compensate the Federal 
Government for the risk taken in providing the loan guarantee.
    NEI encourages the subcommittee to require DOE--possibly through 
the Secretary of Energy Advisory Board--to conduct a systematic, 
disciplined, open assessment of implementation of the Title XVII loan 
guarantee program, identify the weaknesses in implementation, and 
develop recommendations to ensure that this program becomes the 
workable financing platform that Congress envisioned. This assessment 
must include consultation with, and participation by, the nuclear 
energy industry and the financial community to understand fully the 
successes and failures in implementation.
              safety-focused and efficient nrc regulation
    The nuclear energy industry's first priority is operating America's 
nuclear energy facilities safely and reliably. The companies that 
produce electricity at nuclear power plants continuously incorporate 
lessons learned from best practices at all U.S. facilities as well as 
operating experience worldwide. Safety enhancements made over more than 
40 years, including new processes and procedures based on lessons 
learned from Fukushima, have resulted in sustained high levels of 
safety.
    The industry encourages oversight of the NRC by Congress to ensure 
that the agency prioritizes its activities effectively, based on safety 
significance, and achieves timely closure on issues. The NRC is making 
initial progress in these areas--addressing the cumulative impacts of 
its regulatory activities--and the industry believes the agency should 
be encouraged to continue these efforts.
    The NRC's annual budget has grown from $442.1 million in 1990 (when 
the agency was regulating 112 reactors) to $1.053 billion in 2013 (when 
the agency was regulating 104 reactors). The number of NRC employees 
increased from 2,881 in 1999 to 3,927 in 2013. Recognizing that NRC 
licensees pay 90 percent of the proposed $1.06 billion budget of the 
NRC, we appreciate the subcommittee's oversight to ensure that NRC 
activities and budget are more transparent and cost-effective.
---------------------------------------------------------------------------
    \1\ NEI is responsible for establishing nuclear industry policy on 
matters affecting the nuclear energy industry, including regulatory, 
financial, technical and legislative issues. NEI members include all 
companies licensed to operate commercial nuclear power plants in the 
United States, nuclear plant designers, engineering/construction firms, 
fuel facilities, and other organizations and individuals involved in 
the nuclear energy industry.
---------------------------------------------------------------------------
                                 ______
                                 
    Prepared Statement of the Nuclear Engineering Department Heads 
                          Organization (NEDHO)
    Chairwoman Feinstein, Ranking Member Alexander and members of the 
subcommittee: On behalf of the faculty and students comprising the 
nuclear engineering education system in the U.S., we wish to provide 
testimony on the fiscal year 2014 appropriations for the U.S. 
Department of Energy (DOE) and other relevant agencies under the 
subcommittee's jurisdiction.
    As you begin to develop fiscal year 2014 appropriations 
legislation, we strongly urge you to consider our following requests:
    1.  Provide funding for DOE Office of Nuclear Energy (DOE-NE) 
research and development (R&D) programs at the fiscal year 2012 enacted 
levels.
    2.  Full funding for the Integrated University Program (IUP), with 
appropriations to the DOE-NE, DOE National Nuclear Security 
Administration (DOE-NNSA) and the U.S. Nuclear Regulatory Commission 
(NRC) to provide scholarships, fellowships, junior faculty awards, and 
other mechanisms to attract the best and brightest students and faculty 
into the field.
    3.  Continued support for the Nuclear Energy University Program 
(NEUP) which dedicates up to 20 percent of DOE-NE research and 
development (R&D) spending for work performed led by universities in 
partnership with national labs and industry.
    4.  Funding for the Nuclear Uniform Curriculum Program at community 
colleges and funds to improve craft training and apprentice programs 
with labor.
    The Nuclear Engineering Department Heads Organization (NEDHO) is an 
alliance of nuclear and radiological science, engineering and 
technology academic programs across the United States. NEDHO provides a 
forum for discussion, coordination, and collaboration on issues such as 
academic accreditation, funding for scholarships, fellowships, and 
research, and funding for training and research reactors, all 
supporting the overarching goal of providing the necessary human talent 
for the safe, secure, safeguarded use of nuclear technology. NEDHO 
collaborates with the American Nuclear Society (ANS), the Nuclear 
Energy Institute (NEI), the Test, Research, and Training Reactors 
(TRTR) organization, ABET, the National Academy for Nuclear Training/
Institute of Nuclear Power Operations (INPO), and other similar 
societies and organizations that have a stake in nuclear education. We 
also have strong interactions with the industry and government, both of 
which hire our students and utilize our research results. At present, 
NEDHO's membership includes 44 US academic institutions in 29 States, 
including 2 military academies.
    NEDHO seeks to inform national decision makers on nuclear policy, 
science and technology, and related educational programs through Hill 
visits and by providing testimony at various Committee hearings such as 
this one. NEDHO's ultimate goal is to preserve our Nation's historic 
leadership in the nuclear field, and to sharpen our competitive edge in 
the future by maintaining a tradition of excellence in nuclear academia 
that is the envy of the world. For decades we have sustained the 
nuclear enterprise with highly qualified human resources that led to 
the development of nuclear power as a viable, safe, and environmentally 
sound source of electricity. Our graduates have also contributed to 
advances in nuclear medicine and a multitude of industrial applications 
(such as oil-well logging), and have engaged in activities in nuclear 
security and safeguards.
    Without the types of Federal programs previously noted, the nuclear 
academic community would not have been in position to meet the 
increased demand for new nuclear workers and advances in nuclear 
science and technology which have been on the rise in the U.S. driven 
by three primary factors: U.S. economic and energy security, global 
competitiveness, and national nuclear security.
    First, with regards to U.S. economic and energy security, we note 
that nuclear energy today accounts for about 20 percent of the U.S. 
total electricity supply and two-thirds of non-carbon-emitting 
electricity sources. The U.S. nuclear power industry, under a rigorous 
regulatory regime administered by the NRC, has established itself as a 
safe, environmentally responsible, economic, and highly reliable 24/7 
base load provider of electric energy with about 90 percent capacity 
factors. Available forecasts for uranium ore indicate ample, reliable, 
and inexpensive supplies and suppliers for the foreseeable future. Four 
new AP 1000 reactors are currently under construction at the Vogtle 
site in Georgia and the VC Summer site in South Carolina. The 
completion of the Tennessee Valley Authority Watts Bar Unit 2 was 
approved in 2007 and construction has resumed. There is also rising 
interest in Small Modular Reactors (SMR). The DOE has solicited 
proposals for cost-shared SMRs that have the potential to be licensed 
by the NRC and achieve commercial operation around 2025, while offering 
innovative and effective solutions for enhanced safety, operations and 
performance. The funding for this solicitation will be derived from the 
total $452 million identified for the DOEs SMR Licensing Technical 
Support Program. Public perception of the safety of America's nuclear 
fleet will be sustained by the improved features in new designs and by 
incorporating lessons learned from Fukushima. In addition, the 
recommendations of the Blue Ribbon Commission regarding the back-end of 
the nuclear fuel cycle offer the prospect of resolving long-standing 
problems in the management of used nuclear fuel.
    Second, on the global scale, many nations are ambitiously seeking 
to build up their nuclear power capacity. Most notable are the two most 
populated countries in the world, China and India, whose economies are 
undergoing rapid growth. A recent publication by the American Nuclear 
Society noted that there are over 433 reactors operating in 30 
countries, producing 371 GWe, or about 14 percent of the global 
electricity supply. A recent presentation by DOE personnel notes 154 
power reactors planned in 27 countries for the next 8-10 years costing 
over $740 billion, and a total of 331 reactors proposed in 37 countries 
over the next 15 years at a projected cost of $1.6T. These operating 
and soon-to-operate reactors comprise a substantial global market for 
equipment (e.g. turbines, generators, instrumentation), fuel, and 
services. The economic rewards of U.S. engagement in this growing 
global market are substantial by providing high paying jobs for 
Americans involved in the engineering design, analysis, parts 
manufacturing, operations, consulting, and potential construction of 
new reactors. For example, the four APR-1400 South Korean reactors to 
be built in the United Arab Emirates are essentially based on U.S. 
technology and are worth billions of dollars to the U.S. economy 
including 5000 US jobs. International engagement is also an essential 
means of spreading the high U.S. technical and performance standards 
across the globe. The regulatory procedures in a large number of 
countries are adopted from U.S. regulations. A safety culture that 
transcends national boundaries and that is based on a solid scientific 
foundation and supported by decades of excellent American experience is 
the best guarantee that nuclear technology will remain an agent for 
improving the global environment.
    Third, the growing number of nuclear-hopeful nations and the 
widening footprint of nuclear power raises concerns about nuclear 
proliferation to historic highs and makes a strong case for developing 
novel and better detectors and methods for verifying that nuclear 
materials are only being employed for peaceful purposes. These concerns 
cannot be addressed solely by controlling the flow of scientific 
knowledge and underlying technologies and require a revamped structure 
that better integrates the technical and policy aspects of the issue. 
In addition, the potential threat of nuclear terrorism is not likely to 
abate any time soon and demands the continuous and untiring vigilance 
of relevant agencies within the U.S. Government.
    Common to all these factors is the need for a highly educated 
nuclear workforce that is aware of national needs and that is well 
equipped to tackle them. The magnitude of this immense challenge was 
wisely recognized by the U.S. Congress and two administrations since 
2009 when two programs designed to reinvigorate nuclear education in 
the U.S. were inaugurated: The IUP and the DOE NEUP. The Blue Ribbon 
Commission likewise recognized the importance of U.S. leadership in the 
nuclear area, and highlighted continued innovation in nuclear 
technology and workforce development as one of its eight major 
recommendations. The Nuclear Uniform Curriculum Programs at community 
colleges and programs that will improve craft training and apprentice 
programs with labor are also of great importance.
    A decade ago Federal investment in R&D and nuclear education 
infrastructure was administered by DOE-NE. Support through 
scholarships, fellowships, equipment grants, research reactor upgrades, 
etc. was crucial to stemming the precipitous decline in the 1990's of 
nuclear academic programs and university research reactors. In 2008, 
foreseeing an impending nuclear human resource crisis fueled by an 
aging workforce and the rising prospect of mass retirements in all 
sectors of the nuclear industry, the DOE-NE created NEUP that directed 
approximately 20 percent of DOE-NE R&D funding towards universities in 
support of DOE-NE's research mission. In 2009 the IUP was created by 
the Congress to instill some degree of stability and coordination in 
the funding stream of nuclear education by providing sponsorship to the 
three Federal agencies: DOE-NE, DOE-NNSA, and the U.S. NRC. These three 
arms of IUP were directed to support broad educational objectives via 
programmatic and non-programmatic awards, and to coordinate their 
support mechanisms in order to minimize duplication.
    In the ensuing years these support schemes have succeeded in 
reviving nuclear academia, and expanded interest in nuclear research 
topics into other supporting disciplines such as material science, 
mechanical engineering, radiochemistry, and a number of others, leading 
to a fertile interdisciplinary research environment in support of the 
Nation's research agenda.
    All awards made via NEUP and IUP are competitive and have seen 
broad participation from individuals and institutions across the 
Nation. To be specific, the NRC invested its share of IUP in curriculum 
development grants, Junior Faculty Development grants, scholarships and 
fellowships awarded to selected universities, and in support of 
community colleges. DOE-NNSA now dedicates its support to the funding 
of the Nuclear Science and Security Consortium led by the University of 
California, Berkeley, and provides awards in programmatic support of 
basic research projects relevant to nuclear security.
    The DOE-NE administers IUP through the NEUP in two separate funding 
streams. First, NEUP funds scholarships and fellowships awarded 
directly to student applicants. This program is distinct in its 
objectives from NRC's scholarship and fellowship program whose grants 
are awarded to academic institutions which then make them available to 
qualified matriculating students. Both DOE and NRC programs have been 
successful in attracting top talent to the field through these avenues. 
The NRC program also allows recruitment of high quality faculty who 
will ensure a stream of well-prepared young talent for innovative 
breakthroughs. In addition, DOE-NE has committed up to 20 percent of 
its R&D funds to support universities via competitive awards of varying 
levels of programmatic relevance. Some of these funds have been awarded 
in support of nuclear infrastructure at U.S. universities.
    To appreciate the importance of IUP for the revival of nuclear 
engineering academia in the US we note that the elements of IUP cover 
the three primary missions of a research intensive university: 
education (undergraduate and graduate), research, and service. In the 4 
years since its inception, the IUP has substantially contributed to the 
reversal in enrollment decline that dominated all the academic 
institutions a decade ago, even after the Fukushima event. Sustaining 
the IUP sends a clear message to university administrators for the need 
to support nuclear programs and to prospective students that their 
career investment in this field is desirable and will be rewarded.
    In conclusion, we believe that Federal funding has been 
instrumental in revitalizing nuclear academic programs and in giving 
impetus to several universities to start new nuclear programs. 
Continued funding support for Federal programs aimed at educating and 
training the next generation of nuclear professionals needed by Federal 
agencies, national laboratories, universities, and industry is crucial 
towards a long-term national energy plan that includes a comprehensive 
nuclear energy R&D funding strategy supporting basic research, applied 
research and deployment. Continued funding support is also crucial to 
maintain the U.S leadership in the safe, secure, safeguarded use of 
nuclear technology as more new countries start expanding their use of 
this technology. U.S. engineers, scientists and technologists have 
historically set the gold standard in these three areas. With your 
support, our NEDHO academic programs will be able to provide the next 
generation of expert personnel that is essential for us to continue to 
do so in the future.
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                           Mathematics (SIAM)
                                summary
    This written testimony is submitted on behalf of the Society for 
Industrial and Applied Mathematics (SIAM) to ask you to continue your 
support of the Department of Energy (DOE) Office of Science in fiscal 
year 2014 at the highest possible funding level. In particular, we urge 
you to provide robust support for the Applied Mathematics Program 
within the Office of Advanced Scientific Computing Research (ASCR) 
within the Office of Science. We also emphasize the importance of 
support for graduate students, post-doctoral fellows, and early career 
researchers.
                           written testimony
    We are Dr. Irene Fonseca, President, and Dr. David Levermore, Vice 
President for Science Policy, of the Society for Industrial and Applied 
Mathematics (SIAM). On behalf of SIAM, we are submitting this written 
testimony for the record to the Subcommittee on Energy and Water 
Development of the Committee on Appropriations of the U.S. House of 
Representatives.
    SIAM has approximately 14,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
government agencies and laboratories all over the world. In addition, 
SIAM has over 500 institutional members-colleges, universities, 
corporations, and research organizations. SIAM members come from many 
different disciplines, but have a common interest in applying 
mathematics in partnership with computational science towards solving 
real-world problems.
    First, we would like to emphasize how much SIAM appreciates your 
Committee's continued leadership on and recognition of the critical 
role of the Department of Energy (DOE) Office of Science and its 
support for mathematics, science, and engineering in enabling a strong 
U.S. economy, workforce, and society. DOE was one of the first Federal 
agencies to champion computational science as one of the three pillars 
of science, along with theory and experiment, and SIAM deeply 
appreciates and values DOE activities.
    Today, we submit this testimony to ask you to continue your support 
of the DOE Office of Science in fiscal year 2014 and beyond. In 
particular, we request that you provide the Office of Science with 
$5.15 billion for fiscal year 2014. SIAM is aware of the significant 
fiscal constraints facing the Administration and Congress this year, 
but we note that, in the face of economic peril, Federal investments in 
mathematics, science, and engineering remain crucial as they help to 
maintain U.S. pre-eminence in innovation, upon which our economy and 
fiscal health depend.
          the role of mathematics in meeting energy challenges
    The Nation faces critical challenges in energy, including in energy 
efficiency, renewable energy, improved use of fossil fuels and nuclear 
energy, future energy sources, and reduced environmental impacts of 
energy production and use. As DOE and the research community design a 
long-term strategy to tackle these issues, the tools of mathematics and 
computational science (theory, modeling, and simulation) have emerged 
as a central element in designing new materials, predicting the impact 
of new systems and technologies, and better managing existing 
resources. Already, mathematical and computing researchers in 
universities, national laboratories, and industry are providing 
insights that propel advances in such fields as nanotechnology, 
biofuels, genomics, climate modeling, and materials fabrication.
    To tackle many of these challenges, DOE must be able to understand 
complex systems such as the US power grid, the dispersion of nuclear 
radiation after a disaster, and the Earth's climate system. These and 
other complex systems have high levels of uncertainty, lack master 
plans, and are susceptible to breakdowns that could have catastrophic 
consequences. Understanding complex systems helps mitigate these risks 
and facilitate the development of controls and strategies to make 
systems more efficient.
                 department of energy office of science
    Activities within ASCR play a key role in supporting research that 
begins to fulfill the needs described above. Particularly critical 
programs include: the Applied Mathematics program, the Scientific 
Discovery through Advanced Computing (SciDAC) program, and programs to 
maintain the pipeline of the mathematical workforce. SIAM urges 
increased support for the Mathematical, Computational, and Computer 
Sciences Research activity programs to restore balance between research 
activities and facility investments.
    SIAM supports Office of Science plans to fund research to manage 
ever-growing data volumes in science. The explosion in data available 
to scientists from advances in experimental equipment, simulation 
techniques, and computer power is well known, and applied mathematics 
has an important role to play in developing the methods and tools to 
translate this shower of numbers into new knowledge.
    SIAM also supports balanced funding for research to develop 
exascale computing, noting that investments in algorithm research and 
software development are essential to developing the next generation of 
high performance computers, realizing the full benefits of these new 
machines, and transferring those capabilities to industry for broad 
economic benefit.
        supporting the pipeline of mathematicians and scientists
    Investing in the education and development of young scientists and 
engineers is a major step that the Federal Government can take to 
ensure the future prosperity and welfare of the U.S. Currently, the 
economic situation is negatively affecting the job opportunities for 
young mathematicians--at universities, companies, and other research 
organizations. It is not only the young mathematicians who are not 
being hired who will suffer from these cutbacks. The research community 
at large will suffer from the loss of ideas and energy that these 
graduate students, postdoctoral fellows, and early career researchers 
bring to the field, and the country will suffer from the lost 
innovation.
    Maintaining the pipeline of the mathematical workforce with 
programs that fund research and students is especially important 
because of the foundational and cross-cutting role that mathematics and 
computational science play in sustaining the Nation's economic 
competitiveness and national security, and in making substantial 
advances on societal challenges such as energy. DOE programs support 
the educational and professional development of the researchers at 
universities, companies, and the national laboratories who will tackle 
the research problems needed to change energy usage in this country.
    Within the Office of Advanced Scientific Computing Research, the 
Computational Science Graduate Fellowship program is a highly 
successful and model program that enables students to receive robust 
training in mathematics and while also learning how their research 
translates to other scientific areas of national importance. The 
program is unique in that it provides students with a prolonged 
research experience at one of DOE's laboratories to focus on the 
agency's cross-cutting computational and high performance computing 
research agendas. We request that strong support for this program 
continue, as well as ongoing support for post-doctoral fellows at DOE 
national laboratories and universities.
    SIAM is concerned about the Administration's proposed redirection 
of this program into the National Science Foundation's larger graduate 
fellowship education initiatives for fiscal year 2014 and expresses 
concerns in maintaining the integrity of the program with this 
consolidation. We urge the Committee to conduct oversight on this 
consolidation while the Administration prepares more details on its 
decision and plans for the program going forward.
                               conclusion
    The programs in the Office of Science, particularly those discussed 
above, are important elements of DOE's efforts to fulfill its mission. 
They contribute to the goals of dramatically transforming our current 
capabilities to develop new sources for renewable and low-carbon energy 
supplies and improve energy efficiency to ensure energy independence 
and facilitate DOE's effort to increase U.S. competitiveness by 
training and attracting the best scientific talent into DOE 
headquarters and laboratories, the American research enterprise, and 
the clean energy economy.
    We would like to conclude by thanking you again for your ongoing 
support of the DOE Office of Science and the actions you have already 
taken to enable DOE and the research and education communities it 
supports, including thousands of SIAM members, to undertake the 
activities that contribute to the health, security, and economic 
strength of the U.S. The DOE Office of Science needs sustained annual 
funding to maintain our competitive edge in science and technology, and 
therefore we respectfully ask that you continue your support of these 
critical programs.
    We appreciate the opportunity to provide testimony to the Committee 
on behalf of SIAM and look forward to providing any additional 
information or assistance you may ask of us during the fiscal year 2014 
appropriations process.
                                 ______
                                 
   Prepared Statement of the Universities Research Association, Inc.
    Chairman Feinstein, Ranking Member Alexander, members of the 
Committee, on behalf of Universities Research Association, Inc. (URA), 
I appreciate this opportunity to comment on the upcoming fiscal year 
2014 budget for the Department of Energy (DOE). URA is a non-profit 
organization comprised of 86 of the Nation's premier research 
universities. With the University of Chicago, through the Fermi 
Research Alliance, LLC (FRA), we are the DOE contractor for the 
management and operation of the Fermi National Accelerator Laboratory 
(Fermilab).
    I write to express grave concern for the future of fundamental 
research in the physical sciences in light of the continuing decline in 
Federal investments in high energy and particle physics research. 
Scientific research is critical to innovation, and forms the foundation 
for job creation, economic growth, and global competitiveness. Studies 
have demonstrated unequivocally double-digit percent returns on the 
Nation's investments in fundamental discovery research. Once in an 
unquestioned lead role across all fields of research, the U.S. now 
faces significant competition from other countries, like China, that 
fully understand the importance of investment in basic science and 
technology for economic growth.
    URA appreciates and supports the President's commitment to fund the 
DOE Office of Science at $5.15 billion annually. But URA must again 
express its concern over the President's recommendation for the High 
Energy Physics (HEP) program and other elements of the Nation's 
portfolio of funding for basic research. The HEP program, as an 
example, has been proposed for reductions in funding over the past 
several years. Investment in high energy and particle physics in 
particular has been in decline over the past several years, even while 
the overall budget of the Office of Science has grown. The President's 
proposed allocation of these funds has resulted in an imbalance in the 
portfolio of basic research that underpins the missions of the 
Department and contributes to sustained national growth and well-being.
    Such reductions have resulted in a dramatic cut for Fermilab in 
Illinois, the Nation's only remaining national laboratory devoted to 
high energy physics research. The current Continuing Resolution is 
expected to result in a reduction of approximately $35 million (9 
percent) below last year's funding level for Fermilab. To adjust to the 
lower estimate of the budget for Fermilab based on the President's 
budget request of last year alone, Fermilab had to reduce its workforce 
by approximately 80 FTEs, a reduction that included highly skilled 
technical staff across the laboratory. Over the past 3 years, 
Fermilab's staff has been decreased by about 180 FTEs (9 percent) to 
accommodate budget reductions and the need for some increased 
investment in facilities underpinning future experiments.
    These reductions are proposed at a time when, to ensure that it 
continue to be among the world's leaders in global research and 
discovery, the United States should be reinvesting in High Energy 
Physics (HEP) and Fermilab. HEP is the only field within the DOE Office 
of Science to have already consolidated its portfolio and closed 
projects early (e.g. the B-Factory at Stanford University). It shut 
down its major operations at Fermilab's Tevatron accelerator in 
September 2011, even when the overwhelming recommendation of the HEP 
community, including several Nobel Laureates, was to continue 
operations for three additional years. Nevertheless, Fermilab proceeded 
to squeeze existing budgets to redirect funding to new, exciting, 
world-leading science. After intensive and careful planning, Fermilab 
is now fully ready to begin new experiments that will put the United 
States at the forefront of studies of neutrinos, a key area of study to 
better understand the Standard Model of Particle Physics and how the 
universe began.
    Unfortunately, the savings achieved by the shutdown of the Tevatron 
are not being reinvested in the United States' preeminent physics 
laboratory at Fermilab, which has had little capital investment for 
more than a decade. The most damaging proposed cut in the President's 
recent budget request is to the Long Baseline Neutrino Experiment 
(LBNE). Budgets submitted proposed to cut this program by more than 
half, from about $25 million to $10 million, limit funding to research 
only, and halt the program engineering and design (PED) work, the 
planning phase of the project. Should this proposal be submitted to 
Congress and enacted, the expertise of the LBNE team and momentum on 
the project would be lost.
    HEP has blazed the path of international cooperation on large 
scientific projects with scientists collaborating on the planning, 
design, construction, and operation of facilities all over the world. 
The field hosts thousands of researchers each year at its various 
experiments, and serves as a premier training ground for American 
university students to develop the next generation of scientists, 
engineers, and technicians to carry out discovery science and 
innovation. The field of HEP has, more than any other, demonstrated and 
preserved through the years its ability to organize and execute highly 
technical and demanding, first-of-a-kind, large engineering and 
construction projects. Maintaining U.S. capability to carry out such 
large projects is itself in the Nation's vital interest. Moreover, HEP, 
and Fermilab in particular, have long reached out to K-12 students to 
engage their interest in the STEM (science, technology, engineering, 
and mathematics) fields, which are so important to the future economic 
competitiveness of the Nation. Europe, Japan, and China welcome U.S. 
researchers to their facilities, and for decades there has been a 
balanced international program with exceptional collaboration in this 
field, as characterized by thousands of foreign participants at 
Fermilab over the years.
    Fermilab is working to develop partnerships with other nations to 
strengthen such collaborations and pursue international contributions 
to major experiments, such as LBNE. LBNE will be Fermilab's flagship 
experiment for the next 20 years and the foremost neutrino facility in 
the world. It has been structured in phases and has passed the Critical 
Decision (CD)-1 phase. There is strong interest from the European 
scientific community and India to collaborate on this project and 
contribute funding to it. But with diminishing DOE investment in the 
most basic research and the proposed suspension of planned work on 
LBNE, sustaining these relationships will be most challenging.
    The America COMPETES Act, reauthorized by Congress in December 
2010, affirmed a bipartisan commitment to double the science budgets of 
DOE and NSF over the next 10 years. Funding for research in the 
physical sciences, in constant dollars, has been essentially flat since 
1989. We recognize the urgency of the Nation's current budget 
situation. But the economic and employment growth needed to deal with 
it over the long term is not achievable without the sustained, long 
term support of the innovation and research in which the physical 
sciences play a key role.
    As an organization representing 86 universities in partnership to 
operate and manage Fermilab, URA urges the subcommittee to support 
funding for High Energy Physics within an overall balanced research 
program in the basic physical sciences within the Office of Science, 
and to restore funding to High Energy Physics and priority projects at 
Fermilab, including LBNE, as a key element of our country's investment 
in this core discipline of discovery science.
                         ura board of trustees
Norman R. Augustine, CEO (ret.), Lockheed Martin Corporation
Steven C. Beering, President Emeritus, Purdue University, Executive 
        Chairman
Robert Brown, President, Boston University
Nance Dicciani, President and CEO (ret.), Honeywell Specialty Materials
Emanuel J. Fthenakis, Fairchild Industries (ret.)
Linda P.B. Katehi, Chancellor, University of California, Davis
William H. Joyce, Chairman and CEO (ret.), NALCO Company and Chairman 
        and CEO,
Advanced Fusion Systems
Bernard Machen, President, University of Florida
Sally Mason, President, University of Iowa
Richard A. Meserve, President, Carnegie Institution for Science
Lou Anna Simon, President, Michigan State University
Robert C. Skaggs, Jr., President and CEO, NiSource, Inc.
Joe B. Wyatt, Chancellor Emeritus, Vanderbilt University
----------
Leon M. Lederman (Emeritus), Illinois Math and Science Academy, and 
        Director Emeritus of Fermi National Accelerator Laboratory

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

 Prepared Statement of the Central Arizona Water Conservation District
    My name is David Modeer, and I am the General Manager of the 
Central Arizona Project. On behalf of the Central Arizona Water 
Conservation District (CAWCD), I encourage you to include $15.4 million 
for the U.S. Bureau of Reclamation's Basin-wide Program for the 
Colorado River Basin in the fiscal year 2014 Appropriation bill. 
Continued funding for the Basin-wide Program, which supports salinity 
control projects, will help protect the water quality of the Colorado 
River that is used by approximately 40 million people for municipal and 
industrial purposes and used to irrigate approximately 4 million acres 
in the United States.
    CAWCD manages the Central Arizona Project, a multi-purpose water 
resource development and management project that delivers Colorado 
River water into central and southern Arizona. The largest supplier of 
renewable water in Arizona, CAP diverts an average of over 1.6 million 
acre-feet of Arizona's 2.8 million acre-foot Colorado River entitlement 
each year to municipal and industrial users, agricultural irrigation 
districts, and Indian communities.
    Our goal at CAP is to provide an affordable, reliable and 
sustainable supply of Colorado River water to a service area that 
includes more than 80 percent of Arizona's population.
    These renewable water supplies are critical to Arizona's economy 
and to the economies of Native American communities throughout the 
State. Nearly 90 percent of economic activity in the State of Arizona 
occurs within CAP's service area. CAP also helps the State of Arizona 
meet its water management and regulatory objectives of reducing 
groundwater use and ensuring availability of groundwater as a 
supplemental water supply during future droughts. Achieving and 
maintaining these water management objectives is critical to the long-
term sustainability of a State as arid as Arizona.
Negative Impacts of Concentrated Salts
    Natural and man-induced salt loading to the Colorado River creates 
environmental and economic damages. EPA has identified that more than 
60 percent of the salt load of the Colorado River comes from natural 
sources. With the significant Federal ownership in the Basin, most of 
this comes from federally administered lands. Human activity, 
principally irrigation, adds to salt load of the Colorado River. 
Further, natural and human activities concentrate the dissolved salts 
in the River.
    The U.S. Bureau of Reclamation (Reclamation) has estimated the 
current quantifiable damages at about $376 million per year to U.S. 
users with projections that damages would increase to more than $500 
million by 2030 if the program were not to continue. These damages 
include:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector, and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    Adequate funding for salinity control will prevent the water 
quality of the Colorado River from further degradation and avoid 
significant increases in economic damages to municipal, industrial and 
irrigation users.
History of the Colorado River Basin Salinity Control Program
    Recognizing the rapidly increasing salinity concentration in the 
Lower Colorado River and its impact on water users, Arizona joined with 
the other Colorado River Basin States in 1973 and organized the 
Colorado River Basin Salinity Control Forum (Forum). In 1974, in 
coordination with the Department of the Interior and the U.S. State 
Department, the Forum worked with Congress in the passage of the 
Colorado River Basin Salinity Control Act (Act) to offset increased 
damages caused by continued development and use of the waters of the 
Colorado River. Title I of the Salinity Control Act deals with the 
United States' commitment to the quality of water being delivered to 
Mexico. Title II of the Act deals with improving the quality of the 
water delivered to the U.S. users.
    In the early years of the Program, Reclamation implemented salinity 
control through large projects which were funded with specific line 
item amounts. In 1995, Congress amended the Act and created 
Reclamation's Basinwide Program. Under this program, Reclamation funds 
competitive proposals which will decrease the salt load to the Colorado 
River. Most of the received proposals target off-farm irrigation 
distribution systems such as canals and laterals. The lining or piping 
of canals and laterals prevents leakage into the groundwater and the 
dissolution and transportation of salts to the Colorado River and its 
tributaries. States provide a 30 percent cost share of the projects 
implemented by Reclamation.
    The threat of salinity continues to be a concern in both the United 
States and Mexico. Most recently, on November 20, 2012, a five year 
agreement, known as Minute 319, was signed between the U.S. and Mexico 
to guide future management of the Colorado River. Among the key issues 
addressed in Minute 319 included an agreement to maintain current 
salinity management and existing salinity standards. The CAWCD and 
other key water providers are committed to meeting these goals.
Conclusion
    Implementation of salinity control practices through Reclamation's 
Basinwide Program has proven to be a very cost effective method of 
controlling the salinity of the Colorado River. In fact, the salt load 
of the Colorado River has now been reduced by roughly 1.2 million tons 
annually, reducing salinity in the Lower Basin by more than 100 ppm. 
However, shortfalls in recent Basinwide Program funding levels have led 
to inefficiencies in the implementation of the overall Program. The 
Plan of Implementation, as adopted by the States and approved by EPA, 
calls for 368,000 tons of additional salinity control measures to be 
implemented by Reclamation by 2030, or approximately 20,000 tons of new 
control each year. Therefore, additional funding is required in 2014 to 
meet this goal and prevent further degradation of the quality of the 
Colorado River with a commensurate increase in downstream economic 
damages.
    CAWCD urges the subcommittee to include $15.4 million for the U.S. 
Bureau of Reclamation's Basin-wide Program for the Colorado River Basin 
in the fiscal year 2014 Appropriation bill. If adequate funds are not 
appropriated, significant damages from the higher salt concentrations 
in the water will be more widespread in the United States and Mexico.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    Waters from the Colorado River are used by approximately 40 million 
people for municipal and industrial purposes and used to irrigate 
approximately 4 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (Reclamation) has 
estimated the current quantifiable damages at about $376 million per 
year. Congress authorized the Colorado River Basin Salinity Control 
Program (Program) in 1974 to offset increased damages caused by 
continued development and use of the waters of the Colorado River. 
Modeling by Reclamation indicates that the quantifiable damages would 
rise to approximately $577 million by the year 2030 without 
continuation of the Program. Congress has directed the Secretary of the 
Interior to implement a comprehensive program for minimizing salt 
contributions to the Colorado River. Reclamation serves as the lead 
Federal agency in implementing the Program. Reclamation primarily 
institutes salinity control through its Basinwide Program. Funding 
levels have fallen behind in recent years, and a funding level of $15.4 
million is required in 2014 to prevent further degradation of the 
quality of the Colorado River with a commensurate increase in 
downstream economic damages.
    EPA has identified that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned and administered. In 
implementing the Colorado River Basin Salinity Control Act (Act) in 
1974, Congress recognized that most of the salt load in the Colorado 
River originates from federally owned lands. Title I of the Salinity 
Control Act deals with the United States' commitment to the quality of 
waters being delivered to Mexico. Title II of the Act deals with 
improving the quality of the water delivered to U.S. users. This 
testimony deals specifically with the Title II efforts.
    In the early years of the Program, Reclamation implemented salinity 
control through large projects which were funded with specific line 
item amounts. In 1995, Congress amended the Act and created 
Reclamation's Basinwide Program. Under this program, Reclamation funds 
competitive proposals which will decrease the salt load to the Colorado 
River. Most of the received proposals target off-farm irrigation 
distribution systems such as canals and laterals. The lining or piping 
of canals and laterals prevents leakage into the groundwater and the 
dissolution and transportation of salts to the Colorado River and its 
tributaries. It is more efficient for Reclamation to perform the off-
farm distribution system improvements prior to NRCS treating the on-
farm acres with salinity control practices (i.e., Reclamation should 
pipe a canal or lateral prior to NRCS putting a pressurized sprinkler 
system on farm). Shortfalls in recent Basinwide Program funding levels 
have led to inefficiencies in the implementation of the overall 
Program. The funding amounts identified above and in the graph on the 
previous page are required to get the Basinwide Program back on pace 
with the overall Program implementation needs.
    Concentration of salt in the Colorado River causes approximately 
$376 million in quantified damages and significantly more in 
unquantified damages in the United States and results in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector, and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum is charged with reviewing the 
Colorado River's water quality standards for salinity every 3 years. In 
so doing, it adopts a Plan of Implementation consistent with these 
standards. The Plan of Implementation, as adopted by the States and 
approved by EPA, calls for 368,000 tons of additional salinity control 
measures to be implemented by Reclamation by 2030, or approximately 
20,000 tons of new control each year. Based on current cost levels, 
Reclamation's funding under its Basinwide Program needs to be $15.4 
million in fiscal year 2014. The level of appropriation requested in 
this testimony is in keeping with the adopted Plan of Implementation. 
If adequate funds are not appropriated, significant damages from the 
higher salt concentrations in the water will be more widespread in the 
United States and Mexico.

        Basinwide Program: Controlling 20,286 tons salt/per year
                       Beginning Fiscal Year 2014
                       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Shown in the following graph are the historic funding levels for 
Reclamation's Basinwide Program up through fiscal year 2013 and needed 
funding levels for fiscal year 2014 through 2030 with the black bars 
showing the appropriated amount and the green bar showing the 
commensurate cost share. Shown with the blue line is the initial target 
of salinity control while the red line shows the actual control up 
through fiscal year 2013 and the required control from fiscal year 2014 
through fiscal year 2030.
    In summary, implementation of salinity control practices through 
Reclamation's Basinwide Program has proven to be a very cost effective 
method of controlling the salinity of the Colorado River and is an 
essential component to the overall Colorado River Basin Salinity 
Control Program. Continuation of adequate funding levels for salinity 
within this program will prevent the water quality of the Colorado 
River from further degradation and significant increases in economic 
damages to municipal, industrial and irrigation users. A modest 
investment in source control pays huge dividends in improved drinking 
water quality to nearly 40 million Americans.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California
    This testimony is in support of fiscal year 2014 funding for the 
Department of the Interior for the Title II Colorado River Basin 
Salinity Control Act of 1974 (Public Law 93-320). In the Act, Congress 
designated the Department of the Interior, Bureau of Reclamation 
(Reclamation) to be the lead agency for salinity control in the 
Colorado River Basin. For nearly twenty-nine years this very successful 
and cost-effective program has been carried out pursuant to the 
Colorado River Basin Salinity Control Act and the Clean Water Act 
(Public Law 92-500). California's Colorado River water users are 
presently suffering economic damages in the hundreds of millions of 
dollars per year due to the River's salinity.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California participates along with the other six 
Colorado River Basin States through the Colorado River Basin Salinity 
Control Forum (Forum), the interstate organization responsible for 
coordinating the Basin States' salinity control efforts. In close 
cooperation with the U. S. Environmental Protection Agency (EPA) and 
pursuant to requirements of the Clean Water Act, the Forum is charged 
with reviewing the Colorado River's water quality standards every 3 
years. The Forum adopts a Plan of Implementation consistent with these 
water quality standards. The level of appropriation being supported by 
this testimony is consistent with the Forum's 2011 Plan of 
Implementation for continued salinity control efforts within the 
Colorado River Basin. The Forum's 2011 Plan of Implementation can be 
found on this website: http://www.coloradoriversalinity.org/docs/
2011%20REVIEW-October.pdf. If adequate funds are not appropriated to 
Reclamation's Basin-wide Program, significant damages associated with 
increasing salinity concentrations of Colorado River water will become 
more widespread in the United States and Mexico.

        Basinwide Program: Controlling 20,286 tons salt/per year
                       Beginning Fiscal Year 2014
                       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The 2011 Plan of Implementation, as adopted by the States and 
approved by EPA, calls for 368,000 tons of additional salinity control 
measures to be implemented by Reclamation by 2030, or approximately 
20,000 tons of additional salinity control measures each year. Based on 
current program cost levels, Reclamation's funding under its Basinwide 
Program needs to be at least $15.4 million. This level of appropriation 
requested in this testimony is in keeping with the adopted 2011 Plan of 
Implementation.
    Waters from the Colorado River are used by approximately 35 million 
people for municipal and industrial purposes and used to irrigate 
approximately 4 million acres of agricultural lands in the United 
States. Currently, the salinity concentration of Colorado River water 
causes about $376 million in quantifiable damages in the United States 
annually. Economic and hydrologic modeling by Reclamation indicates 
that the quantifiable damages could rise to more than $577 million by 
the year 2030 without the continuation of Basin-wide salinity control 
measures as identified in the 2011 Plan of Implementation. Significant 
un-quantified damages also occur. For example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling and reuse of the 
        water due to groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    Some of the most cost-effective salinity control opportunities 
occur when Reclamation can improve irrigation delivery systems in a 
coordinated fashion with the activities of the U.S. Department of 
Agriculture's (USDA) programs working with landowners to improve on-
farm irrigation systems. With the USDA's Environmental Quality 
Incentive Program (EQIP), more on-farm funds are available and it 
continues to be important to ensure that there are adequate Reclamation 
funds available to maximize Reclamation's effectiveness in addressing 
water delivery system improvements. Shortfalls in recent Basinwide 
Program funding have led to inefficiencies in the implementation of the 
overall salinity control program. The funding amount identified above 
and in the graph on the previous page are required to get the Basinwide 
Program back on pace with the implementation schedule identified in the 
2011 Plan of Implementation.
    In addition, the Colorado River Board recognizes that the Federal 
Government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water pursuant to the 1944 Water Treaty with 
Mexico. In order for those commitments to be honored, it is essential 
that in fiscal year 2014, and in future fiscal years, that Congress 
provide funds to the Bureau of Reclamation for the continued operation 
of current projects.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the nearly 20 million residents of southern 
California, including municipal, industrial, and agricultural water 
users in Ventura, Los Angeles, San Bernardino, Orange, Riverside, San 
Diego, and Imperial counties. The protection and improvement of 
Colorado River water quality through an effective salinity control 
program will avoid the additional economic damages to users in 
California and the other States that rely on the Colorado River.
                                 ______
                                 
Prepared Statement of the Irrigation & Electrical Districts Association 
                               of Arizona
    The Irrigation & Electrical Districts Association of Arizona (IEDA) 
is pleased to present written testimony regarding fiscal year 2014 
appropriations for the Bureau of Reclamation (Reclamation) and the 
Western Area Power Administration (Western).
    IEDA is an Arizona nonprofit association whose 25 members and 
associate members receive water from the Colorado River directly or 
through the facilities of the Central Arizona Project (CAP) and 
purchase hydropower from Federal facilities on the Colorado River 
either directly from Western or, in the case of the Boulder Canyon 
Project, from the Arizona Power Authority, the State agency that 
markets Arizona's share of power from Hoover Dam. IEDA was founded in 
1962 and continues in its 51st year to represent water and power 
interests of Arizona political subdivisions and other public power 
providers and their consumers.
                         bureau of reclamation
    IEDA has reviewed the Reclamation Budget released last month and 
Commissioner Connors' filed testimony. We are concerned that 
Reclamation's Budget does not anticipate the increased time demand that 
the agency will face in fiscal year 2014 due to Congress' action in 
passing small hydropower legislation. Only yesterday, the Senate Energy 
& Natural Resources Committee unanimously approved S. 306 and H.R. 678. 
Reclamation needs to be ready to implement this Congressional 
directive. We are likewise concerned that the fiscal year 2014 budget 
does not adequately address the enormous backlog of needs of the 
agency's aging infrastructure. We support the important projects and 
programs that have been included in prior budgets and are included in 
the fiscal year 2014 budget. We are especially mindful that the Yuma 
Desalting Plant is an essential element of the problem solving 
mechanisms being put in place for the Colorado River and especially the 
Lower Colorado River. Problem solving on the Lower Colorado River will 
be substantially improved by using the plant as a management element, 
in conjunction with the new arrangements with the Republic of Mexico 
contained in Minute 319 to the 1944 Treaty.
    We also wish to call to the subcommittee's attention several other 
issues of concern to us and to other Arizona water and power customers:
    First, we want to congratulate Congress for extending the Upper 
Colorado River Recovery Implementation Plan. That Plan focuses on 
recovering three (3) endangered fish in the Colorado River and its 
tributaries above Lake Powell. It is a three party agreement: Federal 
agencies with appropriations, monies from the four Upper Colorado River 
Basin States (Colorado, New Mexico, Utah and Wyoming), and power 
revenues from our members and other Colorado River Storage Project 
customers. Without the extension there could be no Federal 
appropriation dollars to continue the program. Passage of the bill 
honors the ``deal'' that we cut to keep the Endangered Species Act 
(ESA) from being used to attack our water and hydropower resources. No 
money, no Plan. We support Reclamation's request for appropriations and 
hope that the subcommittee recognizes that the Plan is an essential and 
beneficial Colorado River partnership.
    Second, we continue to be concerned about Reclamation's spending on 
post-9/11 security costs. Congress gave Reclamation specific directions 
on this subject several years ago. That included non-reimbursability of 
certain costs. However, Congress did not instruct Reclamation with 
regard to how this program should be implemented. In a new age of cyber 
crime and cyber espionage, facility and operational security are very 
important. We believe a close review of the ongoing levels of staffing 
and other expenses related to this subject is in order.
                   western area power administration
    IEDA is also concerned that the budget for the Western Area Power 
Administration once again includes only limited appropriations for 
construction funding proposed for fiscal year 2014. We believe this 
shortfall is unfortunate. Western has over 17,000 miles of transmission 
line for which it is responsible. It has on the order of 14,000 
megawatts of generation being considered for construction that would 
depend on that Federal network. The existing transmission facilities 
cannot handle all of these proposals. Just as importantly, these 
facilities are requiring increased investment for repairs and 
replacements. Moreover, the region is projected, by all utilities 
operating in the region, to be short of available generation in the 
ten-year planning window that utilities and Western use.
    The appropriation request in this category will not come even close 
to addressing existing transmission construction needs. Repairs and 
replacements will have to be postponed and considerable hardships to 
local utilities that depend on this group of Federal networks are bound 
to occur. In Western's Desert Southwest Region, our region, work 
necessary just to maintain system reliability will have to be 
postponed. Customer contributions in the existing economic environment 
under existing legal restrictions will not keep pace with the need the 
longer the current situation goes on.
    The President's Budget, once again, assumes that unmet capital 
formation needs will be made up by Western's customers. We would be the 
first to support additional customer financing of Federal facilities 
and expenses through the Contributed Funds Act authority under 
Reclamation law that is available to Western. However, programs 
utilizing significant non-Federal capital formation require years to 
develop. One such program that was proposed by the Arizona Power 
Authority in a partnership with Western died because it was enmeshed in 
bureaucratic red tape at the Department of Energy. There is no way that 
Western customers can develop contracts, have them reviewed, gain 
approval of these contracts from Western and their own governing 
bodies, find financing on Wall Street and have monies available for the 
next fiscal year. It is just impossible, especially in this economy. 
Moreover, scoring and ``cut/go'' rules are providing major 
disincentives for Western's customers and others in this regard.
    There also are impediments to customers using existing Federal laws 
to provide non-Federal financing and Congress should examine them. 
Artificially assuming customer funding for construction, in lieu of 
real solutions, is bad public policy and should not be countenanced. We 
urge the subcommittee to restore a reasonable amount of additional 
construction funding to Western so it can continue to do its job in 
keeping its transmission systems functioning and completing the tasks 
that it has in the pipeline that are critical to its customers 
throughout the West.
    While you are considering this subject, we hope you will ask 
Western for detailed information about the costs associated with 
running its headquarters, a significant amount of the administrative 
costs passed on to its customers. Western has been meeting with 
customers to discuss capital financing, but has rebuffed our requests 
for explanation of its central overhead.
    There is one subject about which we urge you not to provide 
funding. On March 16, 2012, Secretary of Energy Chu announced that 
Western would be participating in a gigantic Energy Imbalance Market 
(EIM) in the western United States. This is an untested, unanalyzed, 
unproven boondoggle being promoted to force utilities in the West to 
add layer upon layer of bureaucracy over their existing operations, 
when doing so elsewhere has only escalated electricity costs and 
hampered economic recovery. We urge you to expressly prohibit Western 
from expending funds to participate in this attack on the West's 
economy and to require peer-reviewed scientific and economic analysis 
before any money is spent to facilitate Western's participation in an 
EIM.
                               conclusion
    Thank you for the opportunity to submit this written testimony. If 
we can provide any additional information or be of any other service to 
the subcommittee, please do not hesitate to get in touch with us.
                                 ______
                                 
Prepared Statements of the Lower Brule Sioux Rural Water System; Oglala 
  Sioux Rural Water Supply System; and the Rosebud Sioux Rural Water 
                                 System
                        fiscal year 2014 request
    The Mni Wiconi Project respectfully requests $13.0 million in 
appropriations for operation and maintenance (OMR) activities in fiscal 
year 2014, including $1.5 million for the Bureau of Reclamation. This 
is the first year without a request for construction funding and 
assumes that the Bureau of Reclamation will make fiscal year 2013 funds 
available in amounts necessary to fully allocate the remaining, 
authorized construction ceiling.
    OMR funds will be utilized by OSRWSS for regional core and 
distribution systems on the Pine Ridge Indian Reservation, by the 
Rosebud Sioux Tribe (RSRWS) on the Rosebud Indian Reservation and by 
the Lower Brule Sioux Tribe (LBRWS) on the Lower Brule Indian 
Reservation as summarized in Table 1.

                         TABLE 1.--MNI WICONI PROJECT FISCAL YEAR 2014 OMR FUNDING NEED
----------------------------------------------------------------------------------------------------------------
                                                OSRWSS
              Cost Item               --------------------------    RSRWS      LBSRWS    Reclamation     Total
                                          Core     Distribution
----------------------------------------------------------------------------------------------------------------
Number of Employees..................          19           33           22          12          7.4        93.4
Labor and Fringe Benefits............  $1,175,614   $1,487,990   $1,135,565    $734,700     $651,355  $5,185,224
Labor Overhead Costs.................     354,800      484,192      280,825     117,000      418,922   1,655,739
 
Non-Labor Costs:
    Electricity/Natural Gas/Propane..     322,439      391,830      222,884     109,400      304,000   1,350,553
    Telephone/Communications.........      32,137       42,833       21,115      27,600  ...........     123,685
    Water Treatment Chemicals/            321,368       87,975       53,560      86,000       11,000     559,903
     Supplies........................
    Wells, Pumps, Motors &                160,684      109,762       95,400      75,300  ...........     441,146
     Replacement.....................
    Water Testing....................      42,849       10,712        2,000      10,000  ...........      65,561
    Vehicle OMR......................     120,578      367,425       92,778     119,400       27,000     727,181
    Water Service Providers..........  ..........  ............     242,050  ..........  ...........     242,050
    Travel & Training................      39,635       63,000       17,880      46,600       38,000     205,115
    Other............................     112,919      154,587      112,250     185,000       63,250     628,006
 
Extraordinary Replacements:
    Lagoon (part)....................     875,000  ............  ..........  ..........  ...........     875,000
    Phase I Pump and Motor Controls..  ..........  ............     100,000  ..........  ...........     100,000
    Phase 1 and II PRV's.............  ..........  ............      45,000  ..........  ...........      45,000
    Pump, Treatment Membranes &        ..........  ............  ..........     215,000  ...........     215,000
     Storage Tank....................
 
Priority Community System Upgrades:
    Valve and Tee Replacements, Pine   ..........      299,400   ..........  ..........  ...........     299,400
     Ridge...........................
    Valve and Hydrant Replacement,     ..........  ............     316,759  ..........  ...........     316,759
     Antelope........................
                                      --------------------------------------------------------------------------
      Total..........................   3,558,022    3,499,706    2,738,066   1,726,000    1,513,527  13,035,321
----------------------------------------------------------------------------------------------------------------

    The OSRWSS Core system serves the three Indian Reservations and the 
West River/Lyman-Jones Rural Water System (WRLJ) in 9 counties off-
reservation in southwestern South Dakota.

    Public Law 100-516, as amended, our authorizing legislation, found 
that:

    ``. . . the United States has a trust responsibility to ensure that 
adequate and safe water supplies are available to meet the economic, 
environmental, water supply, and public health needs of the Pine Ridge 
Indian Reservation, Rosebud Indian Reservation and Lower Brule Indian 
Reservation . . .''

and declared the purpose of the Mni Wiconi Project to

    ``. . . (1) ensure a safe and adequate municipal, rural, and 
industrial water supply for the residents of the Pine Ridge Indian 
Reservation, Rosebud Indian Reservation and Lower Brule Indian 
Reservation in South Dakota;''

    ``(2) assist the citizens of Haakon, Jackson, Jones, 
Lyman,Mellette, Pennington, and Stanley Counties, South Dakota, to 
develop safe and adequate municipal, rural, and industrial water 
supplies;''

    The request as presented in Table 1 will meet the purposes of the 
Act, and the budgeting by the Administration and the appropriation by 
Congress of adequate funds will fulfill the fiduciary responsibilities 
of the United States as articulated in the Act.
    Authorized construction funds have been fully expended. Although 
construction of authorized components of (1) the Oglala Sioux Rural 
Water Supply System on the Pine Ridge Indian Reservation (OSRWSS) and 
(2) the Rosebud Sioux Rural Water Supply System on the Rosebud Indian 
Reservation (Rosebud RWS) has not been fully completed, no request for 
fiscal year 2014 construction funds is made. Efforts are underway to 
increase the authorized construction ceiling to complete the projects. 
Any requests for fiscal year 2014 construction funds will be advanced 
by the South Dakota Delegation.
    The project has been treating and delivering more water each year 
from the OSRWSS Water Treatment Plant near Fort Pierre as construction 
has advanced in the service areas. Completion of significant core and 
distribution pipelines has resulted in more deliveries to more 
communities and rural users. The need for sufficient funds to properly 
operate and maintain the functioning system throughout the project has 
grown as the project has now reached 98 percent completion with 100 
percent of the authorized construction funding. The OMR budget must be 
adequate to keep pace with the system that is placed in operation to 
protect and preserve the $470 million investment of the United States 
in project facilities, which are held in trust by the United States 
with the exception of the West River/Lyman-Jones facilities.
    Fiscal year 2014 is the first year that emphasis has shifted to 
operation, maintenance and replacement as the primary budgeting need. 
Budgeting and funding by the United States to ensure that aging 
features of the constructed project are protected is not only sensible 
but properly executes the responsibilities of the United States as 
trustee to the Indian people. While the budgeting by the Administration 
was adequate this year, budgeting has not been adequate in several of 
the past years. The concern is that aging components of critical 
project facilities will not be properly repaired and replaced due to 
budget limitations.
                    osrwss regional core facilities
    The attached map shows the Mni Wiconi Project completion status 
with full use of authorized funding, including the OSRWSS core 
facilities that serve the three Indian Reservations and the service 
area of West River/Lyman-Jones (WRLJ).
    The staff of the OSRWSS core numbers 19 employees. The staff is a 
minimum number that are essential to operate and maintain the regional 
water treatment plant, 203 miles of main transmission pipeline from 12 
inches to 27 inches in diameter, nine major pumping stations (4 
Megawatt total capacity), nine reservoirs (4.2 million gallons of 
capacity) and supervisory control and data acquisition (SCADA) system, 
necessary to serve the OSRWS, RSRWS, LRSRWS and WRLJ service areas. As 
shown in Table 1, wages and fringe benefits totaled $1.176 million. 
Average salaries are $61,874 annually, including average fringe 
benefits of $12,428 annually. Labor overhead totals $354,800 annually.
    Electrical and natural gas utilities have a projected cost of 
$322,000 based on historical use and rates projected for 2014 from the 
service providers. The utilities provide wheeling services for heating, 
lighting and pumping at the water treatment plant and pumping stations. 
Electrical costs, except for wheeling services, are covered separately 
in the budget of the Bureau of Reclamation, which reimburses the 
Western Area Power Administration directly for power and energy costs.
    Chemical costs are comparable in magnitude to the electrical and 
natural gas utilities at $321,000 and are needed to treat water and 
ensure a safe drinking water supply for the three Indian and WR LJ 
distribution systems served by the OSRWSS core system. Other major 
costs in the OSRWSS core budget include $161,000 for pump and motor 
repair and replacement in the regional water treatment plant and 
$121,000 for operation and repair of project vehicles.
    The budget includes $875,000 in extraordinary costs for expansion 
of the lagoon system at the regional water treatment plant. With 
experience in operation of the plant since 2005, the need for 
additional lagoon capacity has become clear. The total cost of the 
upgrade is $1,750,000, and half of the funding is needed in fiscal year 
2014. The balance will be requested in fiscal year 2015.
    The Bureau of Reclamation can confirm that the budget for the 
OSRWSS core system was developed collaboratively and represents the 
expected costs of operation and maintenance in fiscal year 2014. The 
budget is 0.8 percent more than in fiscal year 2013.
          osrwss distribution on pine ridge indian reservation
    The staff of the OSRWSS Distribution (Department of Water 
Management and Conservation, DWMC) numbers 33 employees. The staff is 
the minimum number that are essential to operate and maintain over 379 
miles of main transmission pipeline, 33 major pumping stations, 
reservoirs and SCADA system. As shown in Table 1, wages and fringe 
benefits totaled $1.488 million. Average salaries are $45,091 annually, 
including average fringe benefits of $9,260 annually. Labor overhead 
totals $484,192 annually.
    Electrical and propane utilities have a projected cost of $391,830 
based on historical use and rates projected for 2014 from the power 
suppliers. The utilities provide for heating and lighting of the two 
on-reservation operations offices and 33 pumping stations.
    Chemical costs are comparable to fiscal year 2013 amounts at 
$89,975 with only slight increases associated with chloramines and the 
system expansion in fiscal year 2014. These investments are needed to 
ensure a safe drinking water supply for the 20,000 people living on the 
Pine Ridge Indian Reservation. Other major costs in the OSRWSS 
Distribution budget include $109,762 for pump and motor repair and 
replacement in the local pump stations and well fields; and $367,425 
for operation and repair of project vehicles which are used in the 
field to operate and maintain the 379 miles of distribution piping.
    The budget includes $299,400 in costs for installing new valves and 
tees in the Pine Ridge Community water system. These upgrades are 
necessary to meet the criteria of the Bureau of Reclamation for 
transfer of title of the largest community system on the Pine Ridge 
Indian Reservation to OSRWSS. The total cost of the upgrade is $600,000 
and half of the funding is needed in fiscal year 2014 to match funds 
with the Indian Health Service and possibly Housing and Urban 
Development.
    The Bureau of Reclamation can confirm that the budget for the 
OSRWSS Distribution system was developed collaboratively and represents 
the expected costs of the operation and maintenance in fiscal year 
2014. The budget is 13 percent more than in fiscal year 2013.
    The budget narrative of the Bureau of Reclamation in the last 
budget request included the following:

    ``. . . The project consists of new systems to be constructed, as 
well as 40 existing Mni Wiconi community systems. Responsibilities of 
the Secretary under the Act include the operation and maintenance of 
existing water systems and appurtenant facilities on the Pine Ridge, 
Rosebud, and Lower Brule Indian Reservations.''

    The Bureau of Reclamation is requiring upgrades before 
``transferring'' the 40 existing community systems into the Mni Wiconi 
Project, and ``transfer'', according to the Bureau of Reclamation, is a 
condition of eligibility for operation, maintenance and replacement 
(OMR) budgeting by the Bureau of Reclamation. The Oglala Sioux Tribe 
believes that the Mni Wiconi Project does not fulfill the trust 
responsibility to the Tribe and its membership or the needs of the 
other residents of the Pine Ridge Indian Reservation without transfer 
of 20 existing communities to the Project in order to make those 
communities eligible for operation, maintenance and replacement 
funding. Therefore, the OSRWSS request for fiscal year 2014 includes a 
$299,400 request that would replace valves in Pine Ridge Village that 
have been identified by the Bureau of Reclamation as needing 
replacement before transfer of the community systems to the Project.
    The Committee is asked to consider the contradiction that the 
Bureau of Reclamation has created by its policy, namely that funding 
($10 million) outside the authority of the Mni Wiconi Project Act is 
required to repair and replace existing facilities in 20 communities on 
the Pine Ridge Indian Reservation before ``transfer'' to the Project; 
but the communities, which have existing systems that are functioning 
successfully at present, are not eligible for OMR funding until they 
are ``transferred.'' The communities cannot receive OMR funding, 
according to the Bureau of Reclamation, until they are ``transferred'', 
and OMR funding is needed to conduct the ``Cadillac'' repairs that 
Reclamation requires before ``transfer.''
    The modest request of $299,400 for repairs to valves and related 
facilities in Pine Ridge Village in fiscal year 2014 will advance the 
largest community on the Pine Ridge Indian Reservation toward 
``transfer.''
                rosebud sioux rural water system (rsrws)
    The staff of the RSRWS or Sicangu Mni Wiconi currently consists of 
17 full-time equivalents. Many of these positions are shared with 
design and construction component of the Sicangu Mni Wiconi and after 
the completion of the construction phase of the project, the functions 
shared with the design and construction component will fall fully on 
the OM&R component. It is anticipated that there will be 22 full-time 
employees in fiscal year 2014. The staff is the minimum number needed 
to operate and maintain over 410 miles (over 390 existing and 20 to be 
constructed in fiscal year 2013) of mainline, 15 (14 existing and 1 to 
be constructed in fiscal year 2013) major pumping stations, 20 water 
storage reservoirs, 11 supply wells and associated chlorination 
facilities, and SCADA system. As shown in Table 1, wages and fringes 
total $1.135 million. Average annual salaries are $51,616, including 
average fringe benefits of $15,494. Labor overhead totals $280,825 
annually.
    Electrical and propane utilities have a projected cost of $222,884 
based on 1) historical use; 2) an increase in project pumping resulting 
from more surface water being pumped to Mission and Sicangu Village; 
and 3) anticipated power rates projected for 2014. The utilities 
provide for heating, lighting and power for the 15 pump stations and 
the RSRWS administrative building and shops.
    Water treatment chemical costs and general supplies are comparable 
to fiscal year 2013 amounts and total $53,560. System maintenance and 
repair includes routine maintenance and repair activities for 
pipelines, pump stations, storage tanks, pressure reducing valves and 
other appurtenances. At a total cost of $95,400 it is comparable to 
fiscal year 2013. Water testing is a relatively low cost, at $2,000 in 
part because the Tribe does much of the testing themselves. Vehicle 
operation and maintenance costs total $92,778 which is only slightly 
more than the $90,076 budgeted for fiscal year 2013.
    The RSRWS budget includes water service contracts with the city of 
Mission and the Tripp County Water Users District (TCWUD) at a total 
cost of $242,050. In 1995 the citizens of Mission voted to transfer 
their municipal system to the Mni Wiconi project and in 2003 a final 
agreement between the Tribe, city of Mission and Bureau of Reclamation 
was consummated and the former municipal system is now held in trust 
for the Tribe as part of the RSRWS. The inclusion and OM&R of the 
Mission system are authorized by Section 3A (a)(8) of the Mni Wiconi 
Project Act, as amended. The cost of the service contract is $164,800 
which is less than previous amounts because the delivery of surface 
water will reduce O&M costs associated with the groundwater supply. The 
second service contract, at $77,250, is for providing water to tribal 
members on trust lands in the Secondary Service Area of Tripp and 
Gregory Counties. Other costs at $112,250 include computer software 
license agreements, building and vehicle insurance, SCADA and 
engineering support.
    Like the Oglala Sioux Tribe, the Rosebud Sioux Tribe believes that 
the authority of the authorizing legislation and trust responsibility 
of the United States are clear regarding the inclusion of existing 
systems in the RSRWS. After all, the majority of the service population 
relies on the existing systems to deliver water to their homes. Rosebud 
has included $316,759 for the replacement of valves and fire hydrants 
in the Antelope community system. The cost estimate is based on the 
assessment completed by Reclamation in 2010 (adjusted for time using 
the Reclamation's Construction Cost Trend index) and is only for the 
highest priority items to ensure functionality of the system. $145,000 
is also requested for pump and motor control replacement on Phase I and 
pressure reducing valve replacement on Phases I and II. These 
components will be close to 20 years old and nearing the end of their 
service life.
                     lower brule rural water system
    The Lower Brule Rural Water System (LBRWS) is complete with all 
major components such as the water treatment plant, booster stations 
and tanks/reservoirs in full operation. As a result, LBRWS's operation 
and maintenance portion of the budget has reached a baseline amount to 
which only slight adjustments along with inflation should be made each 
year. The portion of the LBRWS OM&R budget that is somewhat variable is 
the Replacement Additions and Extraordinary (RAX) maintenance items. 
However, booster stations and tanks that were constructed 15-16 years 
ago are in need of routine maintenance and/or replacement. An increase 
in the amount of RAX funds provided in the budget is required to fund 
these functions. With that in mind, the LBRWS request for OM&R for 
fiscal year 2014 is $1,726,000 which includes $10,000 for pump 
replacement, $100,000 for treatment plant membrane module replacement, 
$80,000 to refurbish the Medicine Butte Ground Storage Reservoir, and 
$25,000 in other miscellaneous upgrades. LBRWS will continue to work 
with the Bureau of Reclamation and the other sponsors to prioritize 
their needs and ensure that their system is operating to the standards 
that have been established over the past several years.
                         bureau of reclamation
    The Bureau of Reclamation budget was based on fiscal year 2013 
experience, and the Agency should be consulted for its fiscal year 2014 
budget, which is not expected to vary significantly. Reclamation 
provides oversight of operation and maintenance activities for all 
tribal systems, including the employment of an equivalent 7.4 persons 
at a cost of $1.070 million or an average $145,000 per employee.
    The second-most costly budget item of Reclamation after labor costs 
is the payment of power bills to the Western Area power Administration 
for demand and energy charges of $304,000.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Prepared Statement of the Metropolitan Water District of Southern 
                               California
    The Metropolitan Water District of Southern California 
(Metropolitan) encourages the subcommittee's support for fiscal year 
2014 Federal funding of $15.4 million for the U.S. Bureau of 
Reclamation's Basin-wide Salinity Control Program for the Colorado 
River Basin.
    The concentrations of salts in the Colorado River cause 
approximately $376 million in quantified damages in the lower Colorado 
River Basin States each year and significantly more in unquantified 
damages. Salinity concentrations of Colorado River water are lower than 
at the beginning of Program activities by over 100 milligrams per liter 
(mg/L). Modeling by the U.S. Bureau of Reclamation indicates that the 
quantifiable damages would rise to more than $577 million annually by 
the year 2030 without continuation of the Colorado River Basin Salinity 
Control Program (Program).
    Water imported via the Colorado River Aqueduct has the highest 
level of salinity of all of Metropolitan's sources of supply, averaging 
around 630 mg/L since 1976, which leads to economic damages. For 
example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the cost of cooling operations, and the cost of 
        water softening, and a decrease in equipment service life in 
        the commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased cost of desalination and brine disposal for recycled 
        water.
    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission signed Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President signed into law the Colorado River 
Basin Salinity Control Act in 1974 (Act). High total dissolved solids 
in the Colorado River as it enters Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation and coordinate the Colorado River Basin States' 
efforts on salinity control, the seven Basin States formed the Colorado 
River Basin Salinity Control Forum (Forum).
    The salts in the Colorado River system are indigenous and 
pervasive, mostly resulting from saline sediments in the Basin that 
were deposited in prehistoric marine environments. They are easily 
eroded, dissolved, and transported into the river system, and enter the 
River through both natural and anthropogenic sources.
    The Program reduces salinity by preventing salts from dissolving 
and mixing with the River's flow. Irrigation improvements (sprinklers, 
gated pipe, lined ditches) and vegetation management reduce the amount 
of salt transported to the Colorado River. Point sources such as saline 
springs are also controlled. The Federal Government, Basin States, and 
contract participants spend over $40 million annually on salinity 
control programs.
    The Program, as set forth in the Act, benefits the Upper Colorado 
River Basin water users through more efficient water management, 
increased crop production, benefits to local economies through 
construction contracts and through environmental enhancements. The 
Program benefits the Lower Basin water users, hundreds of miles 
downstream from salt sources in the Upper Basin, through reduced 
salinity concentration of Colorado River water. California's Colorado 
River water users are presently suffering economic damages in the 
hundreds of millions of dollars per year due to the River's salinity.
    In recent years, the Bureau of Reclamation Basin-wide Salinity 
Control Program funding has dropped to below $8 million. In the 
judgment of the Forum, this amount is inappropriately low. Water 
quality commitments to downstream United States and Mexican water users 
must be honored while the Upper Basin States continue to develop their 
Compact apportioned waters from the Colorado River and its tributaries.
    These Federal dollars will be augmented by the State cost sharing 
of 30 percent with an additional 25 percent provided by the 
agricultural producers with whom the U.S. Department of Agriculture 
contracts for implementation of salinity control measures. Over the 
past years, the Colorado River Basin Salinity Control program has 
proven to be a very cost effective approach to help mitigate the 
impacts of increased salinity in the Colorado River. Continued Federal 
funding of this important Basin-wide program is essential.
    Metropolitan urges the subcommittee to support funding for the 
Colorado River Basin Salinity Control Program for fiscal year 2014 in 
the amount of $15.4 million for the U.S. Bureau of Reclamation's Basin-
wide Salinity Control Program.
                                 ______
                                 
     Prepared Statement of the National Water Resources Association
    On behalf of the membership of the National Water Resources 
Association, I am writing to express our concern over the incremental 
reduction in funding for the U.S. Bureau of Reclamation's projects and 
programs over the past several years.
    As you are aware, the Bureau operates 180 projects in 17 western 
States at an investment of over $12 billion. These projects provide 
water to over one-third of the West's population and irrigate 
approximately 10 million acres of land. In addition, the Bureau's 53 
power plants generate 40 billion kilowatts of electricity. The 
Reclamation Program represents arguably the most successful public-
private partnership in our Nation's history. The infrastructure build 
pursuant to the Reclamation Act of 1902 and subsequent amending 
legislation was responsible for settlement of much of the western 
United States. That infrastructure is still vitally important to the 
economic viability of western lands.
    It is difficult to make recommendations to the Committee without 
seeing what the Administration is proposing for fiscal year 2014. 
However, as previously states, the last several years has seen an 
alarming incremental reduction in the Bureau's budget. Last year, the 
Administration's budget request for the Bureau was made to look better 
by including projects and programs which were previously off budget, 
i.e. funding for work authorized by the Central Utah Project Completion 
Act and funding for various Indian water rights settlements. In 
reality, the Bureau experienced a significant decrease in project and 
program funding in the fiscal year 2013 budget request.
    In order to maintain the operational integrity of the Bureau water 
and power infrastructure at peak efficiency, we recommend an increase 
in overall funding for fiscal year 2014 in the range of between 10 to 
12 percent.
    With respect to fiscal year 2014 funding of the U.S. Army Corps of 
Engineers Civil Works Program, we support the Committee's recommended 
level with consideration given to inclusion of the Central City, 
Trinity River Vision Project in Fort Worth, TX.
    With respect to specific projects and programs, we would call the 
attention of the Committee to the following high priority line items:
                       u.s. bureau of reclamation
Colorado River Basin Salinity Control
Fiscal Year 2014 Request: $15.4 Million DOI, $1.4 Billion (EQIP 
        finding) USDA

    Waters of the Colorado River are used by approximately 40 million 
people and used to irrigate approximately 4 million acres in the United 
States. Higher salinity water creates environmental and economic 
damages. Present quantifiable damages are estimated by Reclamation to 
be several hundred million dollars with projections that they would 
climb to more that $500 million annually by 2030 without continued 
aggressive implementation of the Program.
    Congress has authorized implementation of the Colorado River Basin 
Salinity Control Program through the Colorado River Basin Salinity 
Control Act (Public Law 93-320) as amended. Implementation is 
accomplished through Department of the Interior and Department of 
Agriculture programs. In recognition of US water quality commitments to 
Mexico and the fact that the majority of the salt load of the Colorado 
River comes from federally administered lands, the Act directs that 70 
percent of the Program is funded via appropriations with the remaining 
30 percent basin States cost-share coming from the Basin Funds. The 
Program's Plan of Implementation identified in the 2011 Review, Water 
Quality Standards for Salinity, Colorado River System, as adopted by 
the basin States and EPA calls for approximately 650,000 tons of 
additional annual salinity control by 2030. The fiscal year 2014 
funding level requirements are: $15.4 million in Reclamation's 
Basinwide Program, $1.5 million for salinity specific projects in BLM's 
Soil Water and Air Program, and $17.3 million under USDA's (NRCS) 
Environmental Quality Incentives Program (EQIP), total EQIP funding 
being $1.4 Billion. The DOI funding levels are specific in line-item 
programs whereas USDA's EQIP is funded under the Farm Bill.
Garrison Diversion Unit
Fiscal Year 2014 Request: $30.4 Million DOI (Bureau of Reclamation)

    The Association strongly supports the request of the Garrison 
Diversion Conservancy District, the State of North Dakota and the North 
Dakota Congressional delegation of $30.4 million for ongoing 
construction of the Garrison Diversion Unit. The project provides 
Indian and non-Indian rural and municipal water supply, as well as fish 
and wildlife mitigation and enhancement and operation and maintenance 
of existing facilities. The project is compensation to North Dakota for 
construction of dams on the Missouri River.
Lewis & Clark Regional Water System
Fiscal Year 2014 Request: $35 Million DOI (Bureau of Reclamation)

    Congress authorized the Lewis & Clark Regional Water System in 
2000. The three States and 20 local members have pre-paid 100 percent 
of the non-Federal cost share, a combined $154 million, demonstrating 
the strong local and State commitment to the project. Unfortunately, 
Federal funding the last few years has not even been enough to cover 
inflation, let alone allow the project to make any significant 
construction progress. Not including fiscal year 2013 funding, which 
has not yet been finalized, the Federal Government has paid $207.5 
million toward Lewis & Clark as of November 2012. According to the 
Bureau of Reclamation, the remaining Federal cost share, which is 
indexed each year for inflation, was $200.6 million in 2012. By 
comparison, the remaining Federal cost share in 2011 was $194.3 million 
and in 2010 was $188.6 million. This demonstrates that under recent 
funding levels the project will never be completed. Even at $10 million 
a year Lewis & Clark's engineers estimate it would take until 2050 to 
complete the project. The longer it takes to complete Lewis & Clark the 
more expensive it becomes and the longer it takes to realize the full 
economic benefits of having access to the critically needed water, 
which is a terrible disservice to the taxpayers.
    Lewis & Clark is currently 65 percent complete and began serving 
water last July to eleven of the 20 members. With the remaining 
construction schedule entirely dependent upon Federal funding, there is 
unfortunately no timeline when the remaining nine members will receive 
water. The Federal Government needs to honor its commitment to the 
project and not leave these cities and rural water systems high and 
dry.
Mni Wiconi Water Supply Project
Fiscal Year 2014 Request: $13 Million DOI (Bureau of Reclamation)

    The Mni Wiconi Project is requesting $13.0 million in 
appropriations for operation, maintenance and replacement (OMR) 
activities in fiscal year 2014. This is the first year without a 
request for construction funding and assumes that the Bureau of 
Reclamation will make fiscal year 2013 funds available in amounts 
necessary to fully allocate the remaining, authorized construction 
ceiling. OMR funds will be utilized for regional core and distribution 
systems on the Pine Ridge, Rosebud and Lower Brule Indian Reservations. 
The OMR budget must be adequate to keep pace with the system that is 
placed in operation to protect and preserve the $470 million investment 
of the United States in project facilities, which are held in trust by 
the United States with the exception of the West River/Lyman-Jones (non 
tribal) facilities. fiscal year 2014 is the first year that emphasis 
has shifted to OMR as the primary budgeting need. Budgeting and funding 
by the United States to ensure that aging features of the constructed 
project are protected is not only sensible but properly executes the 
responsibilities of the United States as trustee to the Indian people. 
While the budgeting by the Administration was adequate this year, 
budgeting has not been adequate in several of the past years. The 
concern is that aging components of critical project facilities will 
not be properly repaired and replaced due to budget limitations.
Yakima River Basin Enhancement Project Phase II--Yakima Basin 
        Integrated Plan
Fiscal Year 2014 Request: $45 Million DOI (Bureau of Reclamation)

    Authorized under Title XII of Public Law 103-434 the Yakima River 
Basin Integrated Water Resource Management Plan brings together a 
diverse group of farmers and ranchers, irrigation districts, county and 
city governments, the Yakama Nation, conservation organizations 
environmental groups and State and Federal agencies. The Integrated 
Plan will create jobs, enhance competitiveness of basin farmers and 
strengthen the economy while rebuilding salmon runs, increase 
recreational opportunities and protect critical resources.
Sunnyside Conservation Program
Fiscal Year 2014 Request: $3.5 Million DOI (Bureau of Reclamation)

    Authorized under Title XII of Public Law 102-434 the Sunnyside 
Conservation Program is a seven State watershed management and erosion 
protection program accomplished through conservation and on-farm 
resources management and is ongoing work done under the Yakima River 
Water Enhancement Project Act.
Endangered Species Recovery Implementation Program
Fiscal Year 2014 Request: Support President's Budget Request

    This program provides funding for Upper Colorado and San Juan 
endangered fish recovery programs that ensure ESA compliance for 2,500 
Federal, tribal, and non Federal water projects under Federal/non-
Federal cost sharing arrangements authorized by Congress under Public 
Law 106-392.
Fisheries and Aquatic Resources Conservation Activity
National Fish Hatchery Operations Subactivity
Fiscal Year 2014 Request: Support President's Budget Request

    This program provides the Federal share of funding from USFWS for 
the Upper Colorado and San Juan Endangered Fish Recovery Program and 
ensures ESA compliance for 2,500 water projects.
Resources Management Appropriation Ecological Services Activity
Endangered Species Subactivity--Recovery of Species Element
Fiscal Year 2014 Request: Support President's Budget Request

    This program provides the Federal share of funding from USFWS for 
the Upper Colorado and San Juan Endangered Fish Recovery Program and 
ensures ESA compliance for 2,500 water projects.
Title XVI Program
Fiscal Year 2014 Request: $29 Million DOI (Bureau of Reclamation)

    Title XVI is a major component of Reclamation's WaterSMART 
strategy. It provides authority for project sponsors to receive Federal 
funding on a cost-shared (75 percent non-Federal--25 percent Federal) 
basis for planning, design, construction and pre-construction 
activities.
California Bay-Delta Restoration
Fiscal Year 2014 Request: $39 Million DOI (Bureau of Reclamation)

    The California Bay-Delta is the hub of the Nation's largest water 
delivery system and one of the most important estuary ecosystems in the 
United States. The Bay-Delta provides drinking water for 25 million 
people and support agricultural activity which produces 45 percent of 
the Nation's fruits and vegetables.
Arkansas Valley Conduit
Fiscal Year 2014 Request: $15 million DOI (Bureau of Reclamation)

    Authorized by Public Law 87-590 and supplemented under Public Law 
111-11, the purpose of the Arkansas Valley Conduit (AVC) project is to 
deliver water for municipal and industrial water uses within 
Southeastern Colorado Water Conservancy District's boundaries. This 
water supply is needed to supplement or replace existing poor quality 
water and to help meet the AVC water providers' projected water demands 
through 2070.
Central City, Trinity River Vision Project, Fort Worth, TX
Fiscal Year 2014 Request: $41.7 Million (U. S. Army Corps of Engineers)

    Flood Control, Ecosystem Enhancement and Environmental Remediation 
authorized by Public Law 108-447.
                       new project/program starts
Cooperative Environmental Water Transactions Program Development
(EBID 0203-12-036170
Fiscal Year 2014 Request: $70,000 DOI (Fish and Wildlife Service)
Water Conservation Field Service Program (Irrigation Management System)
Grant 11056012 CFDA # 15.530 Funding No. R12SF40020
Fiscal Year 2014 Request: $80,000 DOI (Bureau of Reclamation)

    We appreciate the opportunity to present our funding priorities for 
rural fiscal year 2014 to the Committee and stand prepared to assist 
the Committee in any manner necessary.
                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission
                                summary
    This Statement is submitted in support of fiscal year 2014 
appropriations for the Colorado River Basin Salinity Control Program 
(Program) of the Department of the Interior's Bureau of Reclamation 
(Reclamation). Reclamation serves as the lead Federal agency in 
implementing the Program. Reclamation primarily institutes salinity 
control through its Basinwide Program. A total of $15,400,000 is 
requested for fiscal year 2014 to implement the authorized salinity 
control program of the Bureau of Reclamation. Recent years have 
followed a trend of inadequate funding for the needs of the program. An 
appropriation of $15,400,000 for Reclamation's salinity control program 
is necessary to restore the program to the level needed to protect 
water quality standards for salinity and to prevent unnecessary levels 
of economic damage from increased salinity in water delivered to the 
Lower Basin States of the Colorado River.
                               statement
    The water quality standards for salinity of the Colorado River must 
be protected while the Basin States continue to develop their compact 
apportioned waters of the river. The salinity standards for the 
Colorado River have been adopted by the seven Basin States and approved 
by the Environmental Protection Agency. While currently the standards 
have not been exceeded, salinity control projects must be brought on-
line in a timely manner to counter the effects of future development 
that could result in unnecessary damages from higher levels of salinity 
in the water delivered to the Lower Basin States of the Colorado River.
    The seven Colorado River Basin States, in response to the Clean 
Water Act of 1972, formed the Colorado River Basin Salinity Control 
Forum (Forum), a body comprised of gubernatorial representatives from 
the seven States. The Forum was created to provide for interstate 
cooperation in response to the Clean Water Act and to provide the 
States with information necessary to comply with Sections 303(a) and 
(b) of the Act. The Forum has become the primary means for the Basin 
States to coordinate with Federal agencies and Congress to support the 
implementation of the salinity control program for the Colorado River 
Basin.
    The Colorado River Basin Salinity Control Act was authorized by 
Congress and signed into law in 1974. This authorized the Secretary of 
the Interior to initiate the Program, and it created the Colorado River 
Basin Salinity Control Advisory Council representing the seven Basin 
States. This Federal advisory committee works closely with the Forum.
    Colorado River water is used by approximately 40 million people and 
irrigates approximately 4 million acres in the United States. Bureau of 
Reclamation studies show that quantified damages from Colorado River 
salinity to United States water users are about $376 million per year. 
Unquantified damages are greater. Reclamation's modeling indicates that 
the quantifiable damages would increase to $577 million per year by 
2030 if the Program is not continued. Control of salinity is necessary 
for the States of the Colorado River Basin, including New Mexico, to 
continue to develop their compact-apportioned waters of the Colorado 
River.
    Timely appropriations for the funding of the salinity control 
program are essential to comply with the water quality standards for 
salinity, prevent unnecessary economic damages in the United States, 
and protect the quality of the water that the United States is 
obligated to deliver to Mexico. The Basin States and Federal agencies 
agree that increases in the salinity of the Colorado River will result 
in significant increases in damages to water users in the Lower 
Colorado River Basin. Continued strong support and adequate funding of 
the salinity control program is required to control salinity-related 
damages in the United States and Mexico.
    Congress amended the Colorado River Basin Salinity Control Act in 
July 1995 (Public Law 104-20), creating Reclamation's Basinwide 
Program. The Basinwide Program has proven to be cost-effective, and the 
Basin States are standing ready with up-front cost-sharing. Proposals 
from public and private sector entities in response to Reclamation's 
requests for proposals and funding opportunity announcements have far 
exceeded available funding appropriated in recent years. Basin States 
cost-sharing funds are available for the $15.4 million appropriation 
request for fiscal year 2014. The Basin States' cost-sharing adds 43 
cents for each Federal dollar appropriated.
    Public Law 106-459 gave the Bureau of Reclamation additional 
spending authority for the salinity control program. With the 
additional authority in place and significant cost-sharing available 
from the Basin States, it is important that the salinity control 
program be funded at the level requested by the Forum and Basin States 
to protect the water quality of the Colorado River. Some of the most 
cost-effective salinity control opportunities occur when Reclamation 
improves irrigation delivery systems concurrently with on-farm 
irrigation improvements undertaken by the U.S. Department of 
Agriculture's Environmental Quality Incentives Program (EQIP). The 
Basin States cost-share funding is available for both on-farm and off-
farm improvements. The EQIP funding appears to be adequate to 
accomplish the on-farm work. Adequate funding for Reclamation's off-
farm work is needed to maintain timely implementation and effectiveness 
of salinity control measures.
    I urge the Congress to appropriate $15.4 million to the Bureau of 
Reclamation for the Colorado River Basin Salinity Control Program, plus 
adequate funding for operation and maintenance of existing projects and 
adequate funding to identify new salinity control opportunities. This 
investment in water quality will pay for itself many times over. Also, 
I fully support testimony by the Forum's Executive Director, Don 
Barnett, in request of this appropriation.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
    The Oregon Water Resources Congress (OWRC) is requesting a minimum 
level of $1.5 billion in funding for the Bureau of Reclamation's 
(Reclamation) Water and Related Resources program. An increase above 
the proposed fiscal year 2014 Budget for Reclamation's is needed to 
meet the diverse water supply needs and increasing aging infrastructure 
needs in the 17 Western States that Reclamation serves. Funding to 
address water supply challenges provides benefits beyond increasing 
water availability and upgrading aging infrastructure; it provides jobs 
and stimulates the local economy, prevents property damage and life 
loss, paves an avenue for a secure and safe water and food supply, and 
improves conditions for fish and wildlife.
    OWRC represents irrigation districts, water control districts, 
drainage districts, water improvement districts, and other agricultural 
water suppliers that deliver water to 1/3 of all irrigated land in 
Oregon. These local government entities operate complex water 
management systems, including water supply reservoirs, canals, 
pipelines, and hydropower production. OWRC has been promoting the 
protection and use of water rights and the wise stewardship of water 
resources on behalf of agricultural water suppliers for over 100 years. 
About one-half of our members are in Reclamation Projects and many of 
the remaining members have contracts with Reclamation or have been 
awarded grants under the WaterSMART program.
                         watersmart initiative
    OWRC strongly supports increased funding for the WaterSMART 
Initiative-Sustain and Manage America's Resources for Tomorrow-a key 
suite of programs used by Oregon's irrigation districts to support 
water conservation activities. The combined results of WaterSMART 
Grants, Water Conservation Field Services Program, Basin studies, and 
other conservation programs are making progress toward the Department 
of Interior's goal of conserving 730,000 acre-feet of water by the end 
of 2013 and increase agricultural, municipal, industrial, and 
environmental water supply availability in the Western U.S. These 
programs are an important part of the overall funding package for water 
conservation projects collaboratively developed by local communities, 
supported with local and State funding, and designed to meet those 
communities' unique needs while still meeting the goal of water 
conservation.
Water Conservation Field Services Program
    The Water Conservation Field Services Program (WCFSP) is a key 
component in supporting irrigation districts' and similar water 
delivery systems' water conservation efforts. In the past the WCFSP has 
provided a breadth of technical assistance to irrigation districts and 
provided partial funding for materials used to pipe and line canals, 
measurement and other technology, and water conservation plans-all 
supporting water conservation efforts being implemented by these 
districts. While we are supportive of exploring innovative ways to 
utilize reclaimed and reused water, we continue to be concerned about 
funding a few expensive projects in limited areas while there are large 
unmet needs in other more established WaterSMART programs, like WCFSP.
    We request that a portion of the $14 million for Title XVI projects 
should be reallocated to the WCFSP, which will yield more immediate and 
cost-effective water conservation measures in all 17 Western States.
    The planning projects and technical assistance funded under the 
WCFSP are key components that help our member districts identify 
opportunities for water conservation through improved water management 
and capital investments. A lack of funding for the feasibility phase of 
projects is an impediment to the districts' ability to move forward 
with implementing water conservation projects like those listed below. 
This program provides seed money for both short and long term planning 
by districts and water users that results in helping Oregon meet the 
competing demands for water in basins throughout the State. 
Furthermore, technical assistance under this program can help water 
suppliers plan for and adapt to potential impacts from climate change.
    Additionally, we believe the management of the WCFSP should remain 
with the Regional Offices in order to retain the close connection 
between Reclamation and Project managers and ensure that Reclamation's 
resources are used to best support the management of its Projects. The 
WCFSP is one of the Reclamation services most appreciated by our 
members. The regional staff, and particularly the local area office 
staff, understand the unique operating and delivery challenges of the 
various Projects, and therefore provide very meaningful support to the 
managers of those Projects.
WaterSMART Grants
    WaterSMART cost-share grants have supported Oregon districts' 
efforts to improve water delivery systems, conserve water, and 
implement innovative projects to meet the diverse water needs in our 
State. These projects have been a key ingredient to the districts' 
efforts to work cooperatively with other stakeholders in their 
respective river basins to address the in-stream needs and water 
quality needs of their basins, without reducing the amount of land to 
which the districts deliver water, and avoiding enforcement actions by 
Federal or State agencies. There continues to be more applicants than 
available funding and increased funding is needed to enable local water 
suppliers to continue their work to conserve water and help meet the 
Secretary's water conservation goal. With a return of over $5 for every 
$1 of Federal investment, and non-Federal match generally exceeding the 
required amount, this program far exceeds the results of other 
partnerships between the Federal Government and local project sponsors.
Examples of Oregon Projects Funded through the WaterSMART Initiative
    The following projects are examples of how Reclamation's WaterSMART 
Initiative is helping Oregon districts. More projects like these could 
be developed and implemented with additional Federal support through 
the WaterSMART Program.
  --Central Oregon Irrigation District, Malott Tail Water Recovery 
        Project.--The Central Oregon Irrigation District will construct 
        a retention system, including installation of an energy 
        efficient pump, to recapture and reuse irrigation, storm, and 
        run-off water to decrease the amount of water deliveries 
        necessary for irrigation. The project is expected to result in 
        water savings of about 398 acre-feet annually, help to improve 
        water quality in the Lower Crooked River, potentially 
        benefitting reintroduced steelhead in that portion of the 
        river. Reclamation Funding: $18,960 Total Project Cost: 
        $257,178
  --North Unit Irrigation District, Water and Energy Conservation 
        Initiative Phase II.--The North Unit Irrigation District will 
        work with the Central Oregon Irrigation District (COID) to pipe 
        one mile to address seepage losses. The project is expected to 
        result in approximately 1,300 acre-feet of water savings 
        annually and through a partnership with the Deschutes River 
        Conservancy, conserved water will be marketed to restore 
        instream flows in the Crooked River. The project will also lead 
        to increased flows through existing turbines, which will enable 
        COID to generate up to an additional 318,638 kilowatt-hours of 
        energy each year and allow approximately 191,178 kilowatt-hours 
        of energy to be saved annually through pumping reductions. 
        Reclamation Funding: $300,000 ($600,000 over 2 years) Total 
        Project Cost: $1,347,935
  --North Unit Irrigation District, Lateral 58-11 Piping Project.--The 
        North Unit Irrigation District will also pipe two miles of an 
        earthen canal that currently loses a significant amount of 
        water to seepage. The project is expected to result in water 
        savings of approximately 673 acre-feet annually. Conserved 
        water will be used to restore instream flows in the Crooked 
        River. The District estimates that an average 158,155 kilowatt-
        hours of energy will be saved annually through pumping 
        reductions. Reclamation Funding: $200,000 ($942,982 over 3 
        years) Total Project Cost: $1,923,447
  --Ochoco Irrigation District, Ochoco Main Canal Multi-purpose Screen 
        and Automation.--The Ochoco Irrigation District will install a 
        new flume to allow more accurate water measurement, a new gate 
        with automated control, and a multipurpose screen at the 
        District's main canal diversion near the Ochoco Dam outlet. The 
        project is expected to result in water savings of 2,870 acre-
        feet annually by reducing seepage and spills and approximately 
        656,640 kilowatt-hours of energy to be saved annually through 
        reduced pumping of water from the Crooked River. Reclamation 
        Funding: $146,909 Total Project Cost: $299,814
  --Owyhee Irrigation District, Lower Owyhee River Rehabilitation 
        Project Phase II.--The Owyhee Irrigation District will convert 
        4.5 miles of existing open ditch conveyance to closed pipeline 
        and will also install 20 advanced flow meters and an automated 
        side sweep cleaner to improve the operational efficiency of the 
        delivery system. The project is expected to result in water 
        savings of about 188 acre-feet annually and is expected to 
        facilitate future on-farm improvements by landowners who may 
        take advantage of the pressurized system to convert from furrow 
        irrigation to sprinkler and drip irrigation. Reclamation 
        Funding: $299,000 Total Project Cost: $1,161,004
  --Three Sisters Irrigation District, Watson-McKenzie Main Canal 
        Pipeline Project.--The Three Sisters Irrigation District will 
        pipe 14,000 feet of the Watson-McKenzie Main Canal and will 
        install meters at farm turnouts. The project is expected to 
        result in water savings of approximately 1,850 acre-feet 
        annually which will be dedicated for instream flows through the 
        Deschutes River Conservancy. Additional water in Whychus Creek 
        is expected to improve riparian habitat and benefit Bullhead 
        Trout and Steelhead. The pressurized pipeline resulting from 
        this project will also allow farmers who receive deliveries 
        from the District to implement further improvements. 
        Reclamation Funding: $750,000 ($1,500,000 over 3 years) Total 
        Project Cost: $5,604,981
      america's great outdoors initiative & ecosystem restoration
    OWRC is supportive of the ``America's Great Outdoors Initiative,'' 
and increased funding to support collaborative ecosystem restoration 
efforts that meet Reclamation's mission. Funding for the Columbia and 
Snake River Salmon Recovery Project is essential as Reclamation, 
Bonneville Power Administration, U.S. Army Corps of Engineers, and NOAA 
Fisheries prepare to meet the requirements of the Federal Columbia 
River Power System Biological Opinion that provides reasonable and 
prudent alternatives to mitigate impacts to Columbia-Snake river salmon 
and steelhead. We strongly encourage Reclamation to consider dedicating 
funding for fish passage and fish screening projects that can help meet 
these requirements. This type of funding could be leveraged with State 
and local efforts to maximize cost effectiveness and environmental 
benefits. Additionally, funding for the Klamath Project will help 
support ongoing efforts to improve water supplies to meet the myriad of 
agricultural and environmental needs that depend upon it. Providing 
funding for these types of collaborative restoration efforts will lead 
to implementable, cost-effective water resources solutions that help 
reduce conflict and expensive litigation.
                   aging infrastructure & dam safety
    While we are heartened to see increased funding for the Dam Safety 
Program, the actual amount available is limited since the bulk of 
funding will be consumed by the ongoing work at Folsom Dam. OWRC 
requests additional funding to support necessary improvements and 
investigations for not only dam safety but to address other aging 
infrastructure problems in the 17 Western States. Many of the 824 dams 
and reservoirs that Reclamation manages (and associated delivery 
systems) were built 50 to 100 years ago and are in dire need of 
improvement. These improvements are costly and deferred maintenance 
leads to reduced system efficiency, water conservation, and in some 
instances catastrophic failure. The need to address aging 
infrastructure is even more crucial when potential climate change 
impacts are considered.
                       bridging the headgates mou
    The need for continued coordination among Federal agencies is a 
significant issue. The Bridging the Headgates program established by a 
MOU between the Natural Resources Conservation Service (NRCS) and 
Reclamation has proven successful in coordinating their efforts and we 
support the reauthorization of this program. We made the same request 
in our testimony on the fiscal year 2014 budget for NRCS which can be 
referred to for details of this request.
    We respectfully request the appropriation of at least $1.5 billion 
for Reclamation's Water and Related Resources program for fiscal year 
2014. Furthermore, we recognize the difficult nature of the ongoing 
Federal budget discussions, but feel it is inappropriate and 
potentially detrimental to sequester funding for WaterSMART grants when 
we see how much positive benefits are occurring on the ground, and 
especially when there are other areas of Interior's budget that are not 
as proven or helpful in providing economic and environmental benefits. 
We would be happy to speak with Committee staff further about this 
issue. Thank you for the opportunity to provide testimony regarding the 
fiscal year 2014 budget for the U.S Bureau of Reclamation's WaterSMART 
Program.
                                 ______
                                 
 Prepared Statement of the Southern Nevada Water Authority (SNWA) and 
             the Colorado River Commission of Nevada (CRCN)
    Waters from the Colorado River are utilized by approximately 40 
million people for municipal and industrial purposes and are used to 
irrigate approximately four million acres in the United States. Natural 
and man-induced salt loading of the Colorado River creates 
environmental and economic damages. The U.S. Bureau of Reclamation 
(Reclamation) has estimated the current quantifiable damages at about 
$376 million per year. Congress authorized the Colorado River Basin 
Salinity Control Program (Program) in 1974 to offset increased damages 
caused by continued development and use of the waters of the Colorado 
River. Modeling by Reclamation indicates that the quantifiable damages 
would rise to approximately $577 million per year by 2030 without 
continuation of the Program. Congress directed the Secretary of the 
Interior to implement a comprehensive program for minimizing salt 
contributions to the Colorado River. Reclamation serves as the lead 
Federal agency in implementing the Program. Reclamation primarily 
institutes salinity control through its Basinwide Program. Funding 
levels have fallen behind in recent years, and a funding level of $15.4 
million is required in fiscal year 2014 to prevent further degradation 
of the quality of the Colorado River and increased downstream economic 
damages.
    The Environmental Protection Agency (EPA) has identified that more 
than 60 percent of the salt load of the Colorado River comes from 
natural sources. The majority of land within the Colorado River Basin 
is federally owned and administered. In implementing the Colorado River 
Basin Salinity Control Act (Act) in 1974, Congress recognized that most 
of the salt load in the Colorado River originates from federally owned 
lands. Title I of the Act deals with the United States' commitment to 
the quality of waters being delivered to Mexico. Title II of the Act 
deals with improving the quality of the water delivered to users within 
the United States. This testimony deals specifically with the Title II 
efforts.

        Basinwide Program: Controlling 20,286 tons salt/per year
                       Beginning Fiscal Year 2014
                       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In the early years of the Program, Reclamation implemented salinity 
control through large projects which were funded with specific line 
item amounts. In 1995, Congress amended the Act and created 
Reclamation's Basinwide Program. Under the Basinwide Program, 
Reclamation funds competitive proposals which will decrease the salt 
load of the Colorado River. Most of the received proposals target off-
farm irrigation distribution systems such as canals and laterals. The 
lining or piping of canals and laterals prevents leakage into the 
groundwater and the dissolution and transportation of salts to the 
Colorado River and its tributaries. It is more efficient for 
Reclamation to perform the off-farm distribution system improvements 
prior to the United States Department of Agriculture Natural Resources 
Conservation Service (NRCS) treating the on-farm acres with salinity 
control practices (i.e., Reclamation should pipe a canal or lateral 
prior to NRCS installing a pressurized sprinkler system on the farm). 
Shortfalls in recent Basinwide Program funding levels have led to 
inefficiencies in the implementation of the overall Program. The 
funding amounts identified above and in the graph on the previous page 
are required to get the Basinwide Program back on pace with the overall 
Program implementation needs.
    Concentration of salt in the Colorado River causes approximately 
$376 million in quantified damages and significantly more in 
immeasurable damages in the United States and results in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --a reduction in the useful life of water pipe systems, water 
        heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from the Basin States (Arizona, California, 
Colorado, Nevada, New Mexico, Utah and Wyoming). The Forum is charged 
with reviewing the Colorado River's water quality standards for 
salinity every 3 years. In so doing, it adopts a Plan of Implementation 
consistent with these standards. The Plan of Implementation, as adopted 
by the Basin States and approved by EPA, calls for 368,000 tons of 
additional salinity control measures to be implemented by Reclamation 
by 2030 or approximately 20,000 tons of new control each year. Based on 
current cost levels, Reclamation's funding under its Basinwide Program 
needs to be $15.4 million in fiscal year 2014. The level of 
appropriation requested in this testimony is in keeping with the 
adopted Plan of Implementation. If adequate funds are not appropriated, 
significant damages from the higher salt concentrations in the water 
will be more widespread in the United States and Mexico.
    The graph on the previous page shows the historic funding levels 
for Reclamation's Basinwide Program from formation through fiscal year 
2013 and needed funding levels for fiscal year 2014 through fiscal year 
2030. The black bars indicate the appropriated amount and the green 
bars indicate the commensurate cost share. The blue line designates the 
initial target of salinity control while the red line specifies the 
actual control up through fiscal year 2013 and the required control 
from fiscal year 2014 through fiscal year 2030.
    In summary, implementation of salinity control practices through 
Reclamation's Basinwide Program has proven to be a very cost effective 
method of controlling the salinity of the Colorado River and is an 
essential component to the overall Colorado River Basin Salinity 
Control Program. Continuation of adequate funding levels for salinity 
within this program will prevent further degradation of the water 
quality of the Colorado River and will also prevent significant 
increases in economic damages to municipal, industrial and irrigation 
users. A modest investment in source control pays huge dividends in 
improved drinking water quality to nearly 40 million Americans.
                                 ______
                                 
 Prepared Statement of the Southern Nevada Water Authority (SNWA) and 
             the Colorado River Commission of Nevada (CRCN)
                             Support Letter

 
 
 
To:                                The Honorable Dianne Feinstein
                                   Chairwoman, Subcommittee on Energy
                                    and Water Development
                                   Committee on Appropriations
                                   United States Senate
 
Subject:                           Continued Funding for the Colorado
                                    River Basin Salinity Control Program
                                    under the Bureau of Reclamation's
                                    Basinwide Program
 
From:                              Patricia Mulroy, General Manager,
                                    Southern Nevada Water Authority
                                    Jayne Harkins, P.E., Executive
                                    Director, Colorado River Commission
                                    of Nevada
 
Date:                              May 1, 2013
 

    As Congress continues work on the fiscal year 2014 budget, we urge 
you to support as a priority the continued funding for the Colorado 
River Basin Salinity Control Program (Program) under the U.S. Bureau of 
Reclamation's (Reclamation) Basinwide Program (Basinwide Program). This 
includes fiscal year 2014 Federal funding of $15.4 million for 
salinity-specific projects to prevent further degradation of the 
quality of the Colorado River and increased economic damages within the 
Lower Basin.
    Salinity concentrations of Colorado River water are lower by more 
than 100 milligrams per liter (mg/L) since the initiation of the 
Program. The concentrations of salts in the Colorado River cause 
approximately $376 million in quantified damages in the Lower Basin 
each year and significantly more immeasurable damages. Modeling by 
Reclamation indicates that quantifiable damages will rise to 
approximately $577 million per year by 2030 without the Program's 
continuation.
    Colorado River water salinity increases from about 50 mg/L at its 
headwaters to more than 700 mg/L in the Lower Basin. High salt levels 
in the water cause significant economic damages downstream. For 
example, damages occur from:
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --a reduction in the useful life of water pipe systems, water 
        heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector; and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    The Program reduces salinity by preventing salts from dissolving 
and mixing with the Colorado River's flow. The Program benefits 
Colorado River water users in both the Upper Basin through more 
efficient water management, and the Lower Basin through reduced 
salinity concentration of Colorado River water.
    To deal with salinity level concerns, the Colorado River Basin 
Salinity Control Act (Act) was signed into law in 1974. The Act 
provides for the Secretary of the Interior to develop a comprehensive 
program for minimizing salt contributions to the Colorado River from 
lands administered by the Bureau of Land Management. Geological 
conditions and past management practices have led to human-induced and 
accelerated erosion processes from which soil and rocks, heavily laden 
with salt, are deposited in various stream beds or flood plains. As a 
result, salts are dissolved into the Colorado River system causing 
water quality problems for Lower Basin water users.
    The Program has proven to be a very cost effective approach to help 
mitigate increased salinity impacts on the Colorado River. Continued 
Federal funding of this Basinwide Program is essential to the Southern 
Nevada Water Authority and the Colorado River Commission of Nevada.
    Again, we urge you to support continued funding of $15.4 million 
for the Colorado River Basin Salinity Control Program under the Bureau 
of Reclamation's Basinwide Program for fiscal year 2014 to prevent 
further degradation of Colorado River water and increased Lower Basin 
economic damages, and to provide improved drinking water quality to 
nearly 40 million Americans.
                                 ______
                                 
          Prepared Statement of the Standing Rock Sioux Tribe
    On behalf of the Standing Rock Sioux Tribe, I would like to express 
our appreciation to this subcommittee for the opportunity to provide 
testimony concerning fiscal year 2014 Energy and Water Development 
Appropriations. I would like to focus my comments on the funding needs 
of the Standing Rock Sioux Tribe's Municipal, Rural, and Industrial 
(MR&I) Water System and the Standing Rock Irrigation Project.
                               background
    The Standing Rock Indian Reservation encompasses 2.3 million acres 
and comprises all of Sioux County, North Dakota and all of Corson 
County, South Dakota. The Reservation's land base is approximately the 
size of the State of Connecticut; it is larger than the States of Rhode 
Island and Delaware combined. The Reservation is the sixth largest land 
area in the BIA system. The Reservation's population--approximately 
8,500 Tribal members and 2,000 non-members--resides in 17 communities 
throughout Tribe's eight districts. The people residing on the 
Reservation share a need for safe, clean drinking water and irrigation 
for sustainable living.
    The Sioux inhabited the Great Plains long before the Lewis and 
Clark expedition, relying upon the waters of the Missouri River and its 
tributaries. The bottomlands of the rivers and streams provided 
nutrient-rich soil for ranching and farming, as well as a homeland for 
our people.
    The 1944 Flood Control Act laid the groundwork for the Pick-Sloan 
program. Under the Pick-Sloan program, six main stem dams were built 
along the Missouri River. The six reservoirs established by these 
dams--i.e. the Missouri River Basin Mainstem Reservoir System--
constitute the largest reservoir system in North America. Although the 
Pick-Sloan program was approved to promote the general economic 
development of the United States, it destroyed more Indian land than 
any other public works project in the history of the United States.
    Approximately, 55,993 acres of land on the Standing Rock Indian 
Reservation were inundated by the establishment of the Oahe Reservoir. 
This inundation destroyed some of the Reservation's most valuable 
rangelands, most of Reservation's gardens and cultivated farm tracts, 
and nearly all of the Reservation's timber, wild fruit, and wildlife 
resources. Large segments of the Reservation's population--including 
four tribal communities--were ultimately forced to relocate, resulting 
in the loss of economic infrastructure--including roads, hospitals, and 
homes--and causing severe social dislocation. The Tribe suffered 
catastrophic personal and economic losses, unemployment soared, and 
life on the Reservation has never been the same.
                           mr&i water system
    Decades later, in an effort to make the Tribes whole, the United 
States promised, among other things, to build safe, treated potable 
water systems for our Reservation, which are essential to revitalize 
economic growth and public health. The Tribe expects the establishment 
of safe drinking water systems to serve all of the people living on the 
Reservation will substantially improve our people's health. Currently, 
many Reservation families must still clean dishes--and bathe themselves 
and their small children--in brown well water that contains heavy 
minerals like manganese and iron, and is high in sulfates.
    Through legislation such as the Garrison Diversion Unit 
Reformulation Act of 1986 and the Dakota Water Resources Act of 2000, 
Congress authorized substantial funding for drinking water projects. 
The Standing Rock Sioux Tribe's Municipal, Rural, and Industrial (MR&I) 
Water System was authorized to receive $80 million from the Dakota 
Water Resources Act, an amount which, through cost indexing, is today 
equivalent to $145.425 million. To date, approximately $58.850 million 
has been expended. The approximate remaining project ceiling is $86.575 
million.
    From 2001 to 2007, the Standing Rock Sioux Tribe received between 
1.2 and 2.4 million dollars per year for its MR&I projects. Practically 
speaking, this only allowed for the Tribe to put together small bid 
packages for various phases of these projects. This piecemeal approach 
necessarily increased both the transaction and overall costs of 
developing these important water projects.
    Because of larger appropriations in 2008, including American 
Recovery and Reinvestment Act funds, substantial progress has been made 
on the Tribe's water projects. For example, construction is nearly 
complete for core facilities including a deep water intake and pump 
station, 13 miles of raw water transmission pipeline, a main storage 
reservoir, and 49 miles of main transmission treated water pipelines.
    In 2009, the Standing Rock Sioux Tribe received $19 million in ARRA 
funding for a state-of-the-art water treatment plant at Wakpala, South 
Dakota, which is now complete. In addition to providing treated 
drinking water to over 1,100 households and many small businesses in at 
least 8 different communities, this project created over 40 full-time 
construction and support jobs, which resulted in much needed economic 
development for the area.
    Prior to fiscal year 2013, Dakota Water Resources Act funding was 
split evenly between the State and the Tribes (i.e. 50 percent to the 
States and 50 percent to the Tribes); and Standing Rock received 40 
percent of the tribal funding (i.e. 20 percent of the total funding). 
However, beginning in fiscal year 2013, the Bureau of Reclamation began 
using a different allocation method, where the funding split is no 
longer determined by a percentage-based method, but based on which 
projects the Bureau of Reclamation determines to be priorities--which 
results in one or two projects receiving the majority of appropriation 
and the other projects receiving significantly less.
    The Standing Rock MR&I project still has over $86.578 million in 
remaining authorization--funding essential to complete work on pump 
stations, storage tanks, and pipelines, so that treated, clean, safe 
water can be distributed to all our communities, and to rural areas.
    Recently, however, appropriations have reverted back to pre-2008 
levels, and there is a long way to go before the Tribe's clean water 
needs are met. Further pipeline construction, including to a 
significant portion of the Reservation's residents without access to 
safe, clean drinking water, is in jeopardy. Standing Rock's fiscal year 
2013 appropriation of $830,000 was below the required $2,164,450 needed 
for the project to keep pace with construction cost indexing.
    If funding appropriations continue at this level, the project will 
never be completed and the full value of the over $58,847,000 invested 
to date will never be realized. In fact, it will require annual 
appropriations of approximately $27 Million to complete all of the 
authorized Dakota Water Resources Act of 2000 projects in 20 years, $34 
Million to compete them in 15 years, $48 Million to compete them in 10 
years or $90 Million to complete them in 5 years.
    Today, the Reservation's population is growing at a faster rater 
than neighboring communities. 2010 U.S. Census figures show that the 
American Indian population is growing three-times the rate of the non-
Indian population. This growth demonstrates that the Reservation's need 
for safe, clean drinking water will only grow in the future.
    Over the next 3 years, the Tribe's goal is to provide a permanent 
water supply to as many residents on the Reservation as possible. 
Specifically, the Tribe hopes to complete construction of final Main 
Transmission Pipelines connecting the newly constructed core facilities 
to existing North Dakota and South Dakota systems and major 
communities, to connect as many additional users currently without 
service as possible, and to construct the Selfridge Service Area, 
including a transmission pipeline to serve residents of Selfridge, 
North Dakota and other users in the service area, and to construct the 
McLaughlin Pump Station. When the three year plan is completed, over 75 
percent of the Reservation population will receive high quality 
Missouri River surface water from the Standing Rock's new Indian 
Memorial Intake and Water Treatment Plant. In order to meet this goal, 
the Tribe respectfully requests this subcommittee to reinstate the $52 
million Dakota Water Resources Act funding levels from prior years 
(i.e. 2008 to 2010), under which the Tribe received $10 million per 
year.
                               irrigation
    The Tribe has been engaged in the construction of the 2,380 
Standing Rock Irrigation Project. The Garrison Reformulation Act (100 
Stat. 421) and Three Affiliated Tribes and Standing Rock Sioux Tribe 
Equitable Compensation Act (106 Stat. 4733) established the funding 
level for this project at $12.566 million. The Consolidated 
Appropriations Act of 2008 authorized an additional $8 million. (121 
State. 1955). The 26-year implementation of this project has been 
marked by the following factors that have diverted funding from 
completion:
    1.  The authorized funding of $20.566 million has diminished in 
value due to 26 years of inflation;
    2.  The Bureau of Reclamation used $507,000 of Standing Rock 
Irrigation Project funding for planning activities on the Fort Berthold 
Indian Reservation;
    3.  The new Cannonball Unit intake was replaced in its first year 
of operation at a cost of $1,000,000. The intake was inundated by 11 
feet of sediment when the United States Corps of Engineers lowered 
water levels in Lake Oahe to supply downstream uses.
    4.  The existing Eagle Unite intake in the Grand River arm of Lake 
Oahe requires replacement at a cost $5.1 million to gain access to Lake 
Oahe during law water levels.
    The Tribe requests this subcommittee to appropriate the remaining 
$3.12 million for the Standing Rock Irrigation Project to complete the 
spending of the authorized construction funding and to designate the 
funds separately from the general appropriation for the Garrison 
Diversion Unit. Without designation of funds for irrigation, the 
priority among Garrison entities to fund drinking water systems, which 
we support, precludes the use of funding to complete the Standing Rock 
Irrigation Project.

                               conclusion
    On behalf of the Standing Rock Sioux Tribe, I request your 
continued support of clean, safe, drinking water for our people, and I 
urge Congress restore funding the Dakota Water Resources Act to fiscal 
year 2008 and fiscal year 2010 levels to allow completion of critical 
MR&I projects within a reasonable time. Further, I request the 
subcommittee to appropriate $3.12 million for the Standing Rock 
Irrigation Project in fiscal year 2014. Thank you for your 
consideration of these very important matters.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
